<html>
<title> - HEARING TO REVIEW INCENTIVE PROGRAMS AIMED AT INCREASING LOW-INCOME FAMILIES' PURCHASING POWER FOR FRUITS AND VEGETABLES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


    HEARING TO REVIEW INCENTIVE PROGRAMS AIMED AT INCREASING LOW-INCOME
          FAMILIES' PURCHASING POWER FOR FRUITS AND VEGETABLES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON NUTRITION

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 3, 2016

                               __________

                           Serial No. 114-39
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                               ____________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
98-679 PDF                    WASHINGTON : 2016                        

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbdccbd4fbd8cec8cfd3ded7cb95d8d4d695">[email&#160;protected]</a>  





                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

                       Subcommittee on Nutrition

                  JACKIE WALORSKI, Indiana, Chairwoman

RANDY NEUGEBAUER, Texas              JAMES P. McGOVERN, Massachusetts,  
GLENN THOMPSON, Pennsylvania         Ranking Minority Member
BOB GIBBS, Ohio                      MARCIA L. FUDGE, Ohio
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALMA S. ADAMS, North Carolina
VICKY HARTZLER, Missouri             MICHELLE LUJAN GRISHAM, New Mexico
DAN BENISHEK, Michigan               PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 BRAD ASHFORD, Nebraska
DAVID ROUZER, North Carolina         SUZAN K. DelBENE, Washington
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan

                                  (ii)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, opening statement...............................     3
Walorski, Hon. Jackie, a Representative in Congress from Indiana, 
  opening statement..............................................     1
    Prepared statement...........................................     2

                               Witnesses

Hesterman, Ph.D., Oran B., President and Chief Executive Officer, 
  Fair Food Network, Ann Arbor, MI...............................     5
    Prepared statement...........................................     6
Wright, Ph.D., Ashton Potter, Local Food Coordinator, Bluegrass 
  Farm to Table, Office of the Mayor, City of Lexington, 
  Lexington, KY..................................................    24
    Prepared statement...........................................    25
Kiley, Kathleen L., Crossroads Farmers' Market shopper and 
  current SNAP and WIC recipient, Washington, D.C................    28
    Prepared statement...........................................    30
Cooper, Eric S., President and Chief Executive Officer, San 
  Antonio Food Bank, San Antonio, TX.............................    31
    Prepared statement...........................................    32
    Submitted questions..........................................   109
Petee, Barbara J., Executive Director, The Root Cause Coalition; 
  Chief Advocacy and Government Relations Officer, ProMedica, 
  Washington, D.C................................................    39
    Prepared statement...........................................    41

                           Submitted Material

Hatcher, Jennifer, Senior Vice President, Government and Public 
  Affairs, Food Marketing Institute, submitted letter............    63
Hunt, Ph.D., Alan R., Director of Policy and Research, Wholesome 
  Wave, submitted letter.........................................    74
Hurd, Hon. Will, a Representative in Congress from Texas, 
  submitted statement............................................    63

 
  HEARING TO REVIEW INCENTIVE PROGRAMS AIMED AT INCREASING LOW-INCOME
          FAMILIES' PURCHASING POWER FOR FRUITS AND VEGETABLES

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 2016

                  House of Representatives,
                                 Subcommittee on Nutrition,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Jackie 
Walorski [Chairwoman of the Subcommittee] presiding.
    Members present: Representatives Walorski, Thompson, 
Crawford, Hartzler, Benishek, Davis, Abraham, Moolenaar, 
McGovern, Adams, Lujan Grisham, Aguilar, Plaskett, Ashford, and 
DelBene.
    Staff present: Caleb Crosswhite, Mollie Wilken, Stephanie 
Addison, Faisal Siddiqui, John Konya, Lisa Shelton, Liz 
Friedlander, Nicole Scott, and Carly Reedholm.

OPENING STATEMENT OF HON. JACKIE WALORSKI, A REPRESENTATIVE IN 
                     CONGRESS FROM INDIANA

    The Chairwoman. Welcome to today's Subcommittee on 
Nutrition hearing to review incentive programs aimed at 
increasing low-income families' purchasing power of fruits and 
vegetables. And I want to just say to our Members that are 
here, if you have any trouble with these new iPads, there are 
IT people around. They are going to be watching. If you have 
some trouble, just catch their eyes.
    Good morning. Welcome to today's Nutrition Subcommittee 
hearing. Thank you to everyone for taking the time to be here, 
and I want to thank in particular our witnesses for their 
participation and valuable insight. It is easy to think of 
malnutrition only in terms of a quantity of food intake, is 
someone eating enough? But there is another crucial element 
that we can't overlook when discussing malnutrition, and that 
is the nutrition itself. What is the quality of what they are 
eating? This is an especially important question as America is 
in the midst of an obesity epidemic. According to the Centers 
for Disease Control, 69 percent of adults, and almost 32 
percent of children and adolescents, are overweight or obese. 
This puts them at an increased risk of a range of major 
diseases, including diabetes, heart disease, and certain types 
of cancer. These diseases, in turn, cut people's quality of 
life and life expectancy, and increase health care costs at an 
alarming rate. Government programs like SNAP, or the Women, 
Infants, and Children, or WIC Program, aren't going to end the 
obesity epidemic alone, nor will getting rid of junk food. It 
requires proper nutrition and exercise, which, at the end of 
the day, is a much larger discussion. What we are here to do 
today is to ask, how can we incentivize and encourage people, 
particularly low-income families, who are at a higher risk of 
malnutrition, to eat healthier. Are current efforts working, 
and what are the characteristics of successful programs?
    The effort to incentivize more nutritious purchases by low-
income families began organically, typically involving private-
sector donations or local funding. It also has required a 
collaboration within the community itself, including local 
nonprofits and local governments. The 2008 Farm Bill authorized 
a $20 million pilot project called the Healthy Initiatives 
Pilot, or HIP. The goal of HIP was to determine if incentives 
given to SNAP recipients at the point of sale would boost the 
purchase of fruits and vegetables and other nutritious foods. 
Hampden County, Massachusetts was selected for the pilot. The 
pilot ran for 14 months, from November 2011 until December 
2012, and credited back 30 for every SNAP dollar spent on 
targeted fruits and vegetables to a randomly selected pool of 
recipients. The incentive was able to be spent on any food. The 
results were encouraging: \2/3\ of HIP households said they 
bought a larger amount, and greater variety, of fruits and 
vegetables, and \3/4\ said they felt that fruits and vegetables 
had become more affordable because of HIP. Building on this, 
the 2014 Farm Bill established the Food Insecurity Nutrition 
Incentive, or FINI, a $100 million grant program to fund 
projects across the country to further test incentive 
strategies to encourage healthier eating among SNAP recipients. 
Several of our witnesses here today have received the FINI 
grants.
    Before I close, I once again want to reiterate a theme I 
alluded to earlier. No one program can end hunger, poverty, or 
obesity. It takes collaboration within communities, and a 360 
approach, to address these issues. As policymakers, we must 
ensure that Federal programs we oversee compliment, instead of 
conflict with, other Federal, state, and private-sector 
programs and initiatives to best serve Americans. Today we will 
hear from witnesses who can speak firsthand of successes, 
challenges, and different strategies in encouraging healthier 
food choices. I thank each of you again for being here, and 
lending your expertise, and I look forward to hearing from you.
    [The prepared statement of Mrs. Walorski follows:]

    Prepared Statement of Hon. Jackie Walorski, a Representative in 
                         Congress from Indiana
    Good morning, and welcome to today's Nutrition Subcommittee 
hearing. Thank you to everyone for taking the time to be here and I 
want to thank, in particular, our witnesses for their participation and 
valuable insights.
    It's easy to think of malnutrition only in terms of the quantity of 
food intake: Is someone eating enough? But there's another crucial 
element that we can't overlook when discussing malnutrition, and that's 
the nutrition itself: What is the quality of what they're eating?
    This is an especially important question as America is in the midst 
of an obesity epidemic. According to the Centers for Disease Control, 
69% of adults and almost 32% of children and adolescents are overweight 
or obese. This puts them at an increased risk of a range of major 
diseases, including diabetes, heart disease, and certain types of 
cancer. These diseases in turn cut peoples' quality of life and life 
expectancy and increase healthcare costs at an alarming rate.
    Government programs like SNAP, or the Woman, Infants, and Children, 
or WIC, aren't going to end the obesity epidemic alone. Nor will 
getting rid of junk food. It requires proper nutrition and exercise, 
which at the end of the day is a much larger discussion. What we are 
here to do today is to ask, how can we incentivize and encourage 
people, particularly low-income families who are at a higher risk of 
malnutrition, to eat healthier? Are current efforts working? And what 
are the characteristics of successful programs?
    The effort to incentivize more nutritious purchases by low-income 
families began organically, typically involving private-sector 
donations or local funding. It has also required collaboration within 
the community, including local nonprofits and local governments.
    The 2008 Farm Bill authorized a $20 million pilot project called 
the Healthy Incentives Pilot, or HIP. The goal of HIP was to determine 
if incentives given to SNAP recipients at the point of sale would boost 
the purchase of fruits, vegetables, and other nutritious foods. Hampden 
County, Massachusetts was selected for the pilot. The pilot ran for 14 
months, from November 2011 until December 2012, and credited back 30 
for every SNAP dollar spent on targeted fruits and vegetables to a 
randomly-selected pool of recipients. The incentive was able to be 
spent on any food. The results were encouraging: \2/3\ of HIP 
households said they bought a larger amount and greater variety of 
fruits and vegetables and \3/4\ said they felt that fruits and 
vegetables had become more affordable because of HIP.
    Building on this, the 2014 Farm Bill established the Food 
Insecurity Nutrition Incentive, or FINI, a $100 million grant program 
to fund projects across the country to further test incentive 
strategies to encourage healthier eating among SNAP recipients. Several 
of our witnesses today have received FINI grants.
    Before I close, I once again want to reiterate a theme I alluded to 
earlier: no one program can end hunger, poverty, or obesity. It takes 
collaboration within communities and a 360 approach to address these 
issues. As policy makers we must ensure that Federal programs we 
oversee complement, instead of conflict with, other Federal, state, and 
private-sector programs and initiatives to best serve Americans.
    Today we'll hear from witnesses who can speak first-hand of 
successes, challenges, and different strategies in encouraging 
healthier food choices. I thank each of you again for being here and 
lending your expertise and I look forward to hearing from you.

    The Chairwoman. I would now like to recognize Ranking 
Member McGovern for his opening statement.

 OPENING STATEMENT OF HON. JAMES P. McGOVERN, A REPRESENTATIVE 
                 IN CONGRESS FROM MASSACHUSETTS

    Mr. McGovern. Well, thank you, Chairwoman Walorski, for 
holding today's hearing, and I want to thank all the witnesses 
for being here. I am happy to see a familiar face in Barb Petee 
from The Root Cause Coalition. I look forward to hearing 
everybody's testimony.
    Incentives for maximizing Federal nutrition programs is a 
relatively new area of policy, and one that I think holds a lot 
of promise. Through programs like SNAP EBT at farmers' markets, 
the Seniors' Farmers' Market Nutrition Program, and the WIC 
Farmers' Market Nutrition Program, we can get more bang for our 
buck with our Federal nutrition dollars. And there are a number 
of creative initiatives happening all over this country that 
are worth focusing on.
    I am impressed with the growing body of research that is 
looking at hunger as a health issue, and food as medicine. When 
I was growing up, my grandmother always used to say an apple a 
day keeps the doctor away. I wish she was still alive to tell 
her she was right. But we know that hunger can exacerbate 
underlying medical conditions like diabetes, heart disease, and 
cancer, and can result in life threatening complications. Not 
only that, hunger can result in more trips to the emergency 
room, and more hospitalizations, which only increase health 
care costs all across the board. But hunger can also be one of 
the most treatable health conditions. We have the resources, 
and we know the solution. We just need to connect the dots, 
which is where these incentive programs come in.
    I have had the pleasure of working with Gus Schumacher, who 
served, first in the Clinton Administration, and then in a 
variety of capacities, and currently at Wholesome Wave. I have 
seen firsthand the way his organization has been able to 
leverage Federal dollars to double, and even triple, fresh 
fruit and vegetable purchases at farmers' markets for seniors 
and low-income families. It is really impressive. And we ought 
to be thinking about how we can expand these incentive programs 
even more.
    During our Subcommittee hearing a few weeks ago, we heard 
about the growing problem of hunger among veterans and military 
families. Why not create a Veterans' Farmers' Market Nutrition 
Program? Veterans could get vouchers at their local VA clinics 
to purchase fresh fruits and vegetables. And, in addition, why 
not encourage VA clinics to hold farmers' markets at their 
facilities? These kinds of incentives programs are not only 
good for consumers, but they are good for the farmers who grow 
the food. They are economic drivers in the local economy, and 
have a positive multiplier effect. We heard that firsthand from 
farmers in yesterday's Biotechnology, Horticulture, and 
Research Subcommittee hearing. And there is also good data 
emerging showing that incentive programs can lead to real 
savings in the long run, in terms of improved health outcomes, 
higher educational attainment, and increased productivity in 
the workforce. Nutrition incentive programs are a sound 
investment, and I look forward to today's conversation, and 
again thank you all for being here.
    The Chairwoman. Thank you, Mr. McGovern. The chair would 
request that other Members submit their opening statements for 
the record so the witnesses may begin testimony, and to ensure 
there is ample time for questions. The chair would also like to 
notify Members that they will be recognized for questioning in 
order of seniority for Members who were here at the start of 
the hearing. After that, Members will be recognized in order of 
arrival. I appreciate Members' understanding.
    Witnesses are reminded to limit their oral statements to 5 
minutes, and there is a countdown clock in front of you. All of 
the written statements will be included in the record. So I 
would now like to welcome our witnesses to the table. Dr. Oran 
Hesterman, CEO, Fair Food Network, Ann Arbor, Michigan. Dr. 
Ashton Potter Wright, Bluegrass Farm to Table, Office of the 
Mayor, Lexington, Kentucky. Kathleen Kiley, Crossroads Farmers' 
Market shopper, and current SNAP recipient, Washington, D.C. 
Eric Cooper, President and CEO, San Antonio Food Bank, San 
Antonio, Texas. And Barbara Petee, Executive Director, The Root 
Cause Coalition, Washington, D.C.
    Dr. Hesterman, please begin with your testimony when you 
are ready.

  STATEMENT OF ORAN B. HESTERMAN, Ph.D., PRESIDENT AND CHIEF 
      EXECUTIVE OFFICER, FAIR FOOD NETWORK, ANN ARBOR, MI

    Dr. Hesterman. Thank you, Chairwoman Walorski, Ranking 
Member McGovern, and distinguished Members of the Subcommittee, 
including my Michigan representatives, Mr. Benishek and Mr. 
Moolenaar. Good morning. Thank you for holding today's hearing.
    Fair Food Network's signature program is Double Up Food 
Bucks. Our experience shows that matching SNAP benefits with 
incentives for locally grown produce is a cost-effective way to 
reduce hunger, improve dietary health, and stimulate local 
economies that create jobs. There are three main points that I 
would like to leave you with today. First, health food 
incentives work. Second, the Food Insecurity Nutrition 
Incentives grant program, or FINI, that Congress created in the 
2014 Farm Bill is supporting excellent work nationwide. And 
third, such results warrant supporting and expanding this 
public-private partnership.
    I founded Fair Food Network in 2009, at a time when 17 
percent of Michiganders were receiving SNAP. Knowing that I was 
in a state with a strong agriculture sector, it made sense to 
try a SNAP incentive program modeled after one that I had seen 
in Maryland a few years before, and you are going to hear a 
little bit more about that program in a minute. The design is 
simple. For every dollar of SNAP a customer spends on locally 
grown produce, they get an additional dollar to spend on more 
fruits and vegetables. We piloted Double Up Food Bucks at five 
farmers' markets that first year. Last year, Double Up operated 
in more than 140 farmers' markets and 22 groceries stores 
throughout the state.
    So how do we know it works? In 2007, prior to the start of 
Double Up Food Bucks, total annual SNAP sales at farmers' 
markets throughout the State of Michigan was $15,000. In 2015, 
shoppers spent more than $1.5 million in SNAP and Double Up at 
participating farmers' markets, an additional $200,000 at 
grocery stores. These are dollars dedicated to helping families 
bring home more fruits and vegetables. Our evaluation shows 
that 85 percent of customers say they are eating more produce 
because of the program, and 60 percent are eating less junk 
food. Partnerships are crucial to the program's success. We 
work closely with Michigan SNAP education efforts and 
organizations. You can learn more about our experience in 
Michigan in documents that we included in the appendix of our 
testimony.
    But this is not just a Michigan success story. We conducted 
an evaluation with three other organizations, analyzing 500 
farmers' markets in 24 states, and found that, regardless of 
the setting, urban or rural, large or small, incentives work. 
Congress responded, and created the Food Insecurity Nutrition 
Incentive Program. USDA's National Institute of Food and 
Agriculture is implementing this $100 million competitive 
grants program. We were honored to receive a grant in the first 
round of funding, which we matched with over $5 million of 
additional private funding. This multi-year investment has been 
a game changer for us, and a huge opportunity for the field. It 
is allowing us to expand Double Up to many more sites, to 
extend the program to year-round, and develop new payment 
transaction technologies that ensure SNAP program integrity, 
and reduce administrative costs. New partners in many states 
are working with Fair Food Network to bring Double Up to their 
communities. As we look ahead toward the next farm bill, there 
are two opportunities we should be considering. First, we need 
to develop additional payment technologies for different retail 
settings, and second, communications is absolutely vital to the 
success of incentive programs. When people use Double Up, they 
are hooked. But if they don't know about it, they are not able 
to benefit from the incentives.
    In conclusion, we know there is no single silver bullet, 
but our experience, and that of our colleagues nationwide, 
demonstrates the power of healthy food incentives. They work. 
By partnering across disciplines, we can integrate healthy 
local produce into an existing Federal nutrition program, and 
create benefits on multiple fronts simultaneously. Every 
Federal dollar spent has an immediate return on investment, in 
terms of reducing hunger, increasing produce consumption, and 
boosting farm income. FINI is making a difference. It is 
supporting workable models that are enhancing the value of SNAP 
and creating connections between rural and urban communities. 
We have an opportunity now to prepare for and support further 
development and expansion of this public-private partnership. 
Many of you have SNAP incentive programs in your districts, and 
I encourage you to visit them and learn more. Thank you again 
for this opportunity to share our experience.
    [The prepared statement of Dr. Hesterman follows:]

  Prepared Statement of Oran B. Hesterman, Ph.D., President and Chief 
          Executive Officer, Fair Food Network, Ann Arbor, MI
Introduction
    Chairwoman Walorski, Ranking Member McGovern, and distinguished 
Members of the Subcommittee--good morning. Thank you for holding 
today's hearing regarding incentive programs aimed at increasing the 
purchase of fruits and vegetables by low-income families and for 
inviting Fair Food Network to speak.
    My name is Oran Hesterman. I am the President and CEO of Fair Food 
Network, a national nonprofit founded on the belief that vibrant local 
food systems can create health and economic opportunity for all. It is 
an honor to address you today and share information about our 7 years 
of experience implementing the Double Up Food Bucks healthy food 
incentive program.
    I know the Committee has been engaged over the past year in a 
review of the various nutrition programs that fall under your 
jurisdiction. I understand your goal is to find ways to ensure that no 
American goes hungry while also helping families who are facing hard 
financial times to move out of poverty. You have heard from many 
experts and understand the cost of hunger and the toll that diet-
related health conditions take on individuals and the lost economic 
productivity it represents.
The Multiple Wins of Healthy Food Incentives
    Our experience implementing healthy food incentives has shown that 
matching SNAP benefits with incentives for locally and regionally grown 
fruits and vegetables is a cost-effective way to simultaneously reduce 
hunger, improve dietary health, and stimulate local food economies in a 
way that can create new job opportunities. Through this one 
intervention, we can meet immediate caloric needs and build a healthy 
population.
    There are three main points that I would like to leave you with 
today:

  <bullet> Adding healthy food incentives to SNAP benefits works and is 
        generating wins for families, farmers, and local economies.

  <bullet> The Food Insecurity Nutrition Incentive (FINI) grants 
        program Congress created in the 2014 Farm Bill is supporting 
        excellent projects nationwide, scaling up programs that work, 
        testing and evaluating new approaches and technologies, and 
        extending the benefits to more hard-to-reach communities.

  <bullet> Finally, the positive results across the country warrant 
        serious consideration to develop and continue expanding this 
        proven public-private partnership.
From Pilot to Statewide Success Story
    I first saw the potential of healthy food incentives at a farmers' 
market in Maryland in 2006 when I was a program officer for the 
Integrated Farming Systems and Food & Society programs at the W.K. 
Kellogg Foundation. As a philanthropist and trained agronomist, the 
systems approach and practicality of linking producers and consumers 
through nutrition benefits appealed to me.
    I founded Fair Food Network in 2009 with the mission to design and 
field-test such multi-win efforts to create on-the-ground impact and 
serve as a models for others.
    Michigan was in the depths of the Great Recession: the number of 
people living in poverty was approaching 17 percent, and more than 1.7 
million people were receiving SNAP benefits. Then as now Michiganders 
suffered higher rates of obesity and other diet-related illnesses than 
the national average. Michigan is also a high-ranking agricultural 
state with a strong and diverse produce sector. Given this context, 
Michigan seemed a ripe proving ground to demonstrate the impact 
incentives could have if brought to a statewide scale.
    The design of Double Up is simple: For every dollar a SNAP customer 
spends on fresh Michigan-grown produce he or she receives an additional 
Double Up dollar to spend on more nutritious fruits and vegetables.
    We piloted Double Up in five farmers' markets in that first year. 
Expanding the program with foundation funding, the ensuing six seasons 
have resulted in remarkable growth. Last year Double Up operated in 
more than 140 farmers' markets, mobile markets, and farm stands, and in 
22 grocery stores throughout Michigan.
    So how do we know it works?
    In 2007, prior to the start of Double Up, annual SNAP sales at 
farmers' markets were a mere $15,000. Preliminary 2015 data show that 
last season shoppers spent more than $1.5 million in combined SNAP and 
Double Up at participating farmers' markets and an additional $200,000+ 
at participating grocery stores. These are dollars dedicated to helping 
families bring home more nutritious fruits and vegetables. In this way, 
Double Up is helping fill SNAP families' ``hunger gap'' while 
simultaneously increasing the consumption of nutritious produce.
    Indeed, our most recent evaluation shows that 85 percent of Double 
Up customers surveyed say they increased the amount of produce they 
consume because of the program, and more than 60 percent have tried new 
fruits and vegetables and reduced the amount of junk food they eat.
    Today, 90 percent of Michigan shoppers live in a county where the 
program operates. More than 1,000 Michigan farmers participate 
annually. At farmers' markets, we find that SNAP customers are 
maximizing the full potential of the program--redemption rates top 90 
percent. Many SNAP shoppers report that the Michigan produce in the 
markets is less expensive and of higher quality than where they usually 
shop and that the selection is better. Farmers and market managers also 
tell us that customers that come to the markets for the first time to 
take advantage of the Double Up program continue to shop at the markets 
when they are no longer using the SNAP program.
    Focus groups conducted by University of Michigan researchers found 
that SNAP shoppers using Double Up in Detroit were very low-income, 
with 90 percent living below the Federal Poverty Line (FPL). These 
participants also suffered from higher rates of diet-related health 
conditions than state and county averages.
    This is all important feedback. It tells us that Double Up 
participants are motivated shoppers who take nutrition and health 
seriously and work hard to get the best nutritional value for their 
very limited food dollars. It also indicates that new shopping habits 
begun as a result of the incentives continue when families leave the 
program.
    We all know that changing dietary patterns takes time and that new 
healthy food cultures are forged through a combination of approaches. 
That's why we have built strong partnerships with our state's nutrition 
education programs, which have been crucial to our ability to pilot, 
adapt, improve, and expand Double Up. We work closely with the Michigan 
Department of Health and Human Services to connect directly with SNAP 
consumers. We partner with the Michigan Fitness Foundation's SNAP-Ed 
efforts to integrate information about Double Up into its statewide 
social marketing campaign. And we have a close collaboration with 
Michigan State University Extension, which assists with outreach by 
equipping its statewide network of nutrition educators with information 
about the program, spotlighting the program on market and grocery store 
tours, and providing additional boots on the ground at participating 
grocery stores to explain the program and educate consumers about how 
to eat healthier and prepare meals with fresh fruits and vegetables. We 
also have strong partnerships with food banks and school systems across 
the state, the YMCA, and other nonprofits. We know our efforts are 
amplified and enhanced when working together.
    You can learn more about Double Up in Michigan in additional 
documents included in the appendix. This includes a brief overview of 
the program and a break down by Congressional district, as well as 
three reports including analyses on the consumer experience at farmers' 
markets, the program's growth in rural communities, and how Double Up 
can successfully enhance the benefit of the SNAP program by reducing 
hunger while also improving nutrition.
    But this is not just a Michigan success story.
    Such positive findings were echoed in a national cluster evaluation 
conducted with Wholesome Wave, Roots of Change/Ecology Center, and 
Market Umbrella. Evaluators analyzed data from more than 500 farmers' 
markets in 24 states and the District of Columbia. The study showed 
that regardless of the setting--urban or rural, small or large--healthy 
food incentives work with significant health and economic benefits. I 
would be glad to provide this report.
Food Insecurity Nutrition Incentive Program, Michigan Impact
    Congress responded to the success of incentive pilots such as 
Double Up Food Bucks by creating the Food Insecurity Nutrition 
Incentive (FINI) grants program in the last farm bill. This program has 
already had a substantial positive effect on the field. USDA's National 
Institute of Food and Agriculture is implementing the $100 million 
competitive grants program well and made the first round of $31.5 
million in grants last spring. Fair Food Network was honored to receive 
a grant, which we matched with $5 million in additional private 
funding.
    This multi-year investment has been a game-changer for us and a 
huge opportunity for the field at large. It is allowing us to expand 
Double Up to at least 100 more sites than when we applied, including 
many more grocery and small food stores. The program is also evolving 
from a seasonal to a year-round approach, which will strengthen its 
long-term impact on diet by giving families dedicated funds to buy 
produce 12 months a year.
    The range of food retail venues in which Double Up operates is 
broad and growing. We have standardized the program as much as possible 
so it is easily recognizable to SNAP shoppers across the state. Federal 
funding is allowing us to invest in developing transaction technologies 
for farmers' markets and grocery stores that ensure SNAP program 
integrity, reduce the program's administrative cost, are easy to use 
for shoppers, and respond to the back-end needs of various vendors. I 
am confident that in the next several years, we will have generated 
promising practices and models that others can implement as the program 
expands to other retail venues.
    Finally, our FINI grant has given us the resources we need for a 
comprehensive external evaluation of the program. We are committed to 
ongoing rigorous research to continue refining the Double Up model and 
generating insights for the field, including a deeper understanding of 
who uses incentive programs and its effect on their diets.
    Local partners interested in launching healthy food incentive 
efforts in their communities are looking to the Double Up model to get 
them started. There are currently 239 Double Up markets and 24 
groceries in 13 states with an additional six states coming online in 
2016. Support from Fair Food Network is helping partners hit the ground 
running and avoid making the same mistakes we did. We are facilitating 
an informal network to share information and collaborate on common 
challenges. This cooperation is an unanticipated benefit of the Federal 
grants and will help us move forward faster than would have been 
possible if we had worked in isolation.
Future Opportunities
    A year's experience with our FINI grant has illuminated policy 
opportunities as we look toward the next farm bill.

  <bullet> Appropriate technology for different kinds of retail 
        settings is necessary but expensive to develop. Farm direct 
        marketing is a new and currently small market segment, which 
        means that there are not a lot of products that have the 
        capacity to add incentives to SNAP purchases that meet FNS 
        requirements and are affordable for the nonprofit organizations 
        that conduct these programs.

      Fair Food Network and our colleagues are working with software 
        designers to develop new systems that are user-friendly for 
        retailers and SNAP families and can capture data for 
        evaluation. There are now different electronic systems and 
        approaches being piloted at farmers' markets and grocery 
        stores. There are interesting new options to pursue, but 
        designing and implementing these systems is expensive.

  <bullet> Communications is absolutely vital to the success of 
        incentive programs. When people use Double Up they are hooked, 
        but if SNAP shoppers do not know about the program, they will 
        not be able to benefit from the incentives offered. Even though 
        we have been operating Double Up statewide for many years the 
        feedback we get most often from participants is that they had 
        not heard of the program before they got to the farmers' market 
        or grocery store. Since most families do not stay on SNAP for 
        extended periods of time there is a constant need to reach out 
        to new participants, explain the incentive concept, and connect 
        them with the participating retailers.

      Our experience has taught us that we need to use a variety of 
        communications tools to build awareness and support this new 
        behavior. This includes working closely with partner 
        organizations on multiple outreach efforts in a coordinated 
        social marketing campaign. Doing this effectively requires 
        resources and is crucial to the ongoing success of the program.

  <bullet> Finally, we need to ensure that SNAP program rules do not 
        undermine the good work FINI is doing and that they support 
        farm direct marketers serving these shoppers.
Conclusion
    We know that there is no silver bullet that will solve our hunger 
and health challenges.
    Our experience with Double Up Food Bucks and that of our colleagues 
nationwide demonstrates the power of healthy food incentives. They 
work. By collaborating across disciplines, we can integrate healthy 
local produce into an existing Federal nutrition program and create 
benefits on multiple fronts simultaneously. The return on investment 
for every Federal dollar spent is an immediate reduction in hunger, 
increase in produce consumption, and greater farm income.
    FINI is making a difference. The long-term returns on investment 
supported by FINI are workable models that will enhance the value of 
the SNAP program and create dynamic connections between rural and urban 
communities, which will build healthier food environments and a more 
viable and responsive food system.
    Finally, the positive results such programs are generating signals 
an opportunity for us all. The time is now to thoughtfully prepare to 
support the development and expansion of such programs so that we can 
scale this proven public-private partnership.
    Thank you again for holding this hearing and for recognizing the 
potential of healthy food incentives to help low-income families 
purchase more fruits and vegetables. I am happy to answer any 
questions.
                                Appendix
                          double up food bucks
    A win/win/win for SNAP participants, farmers & local economies.
    Fair Food Network's Double Up Food Bucks (Double Up) healthy food 
incentive program helps low-income Americans eat more fruits and 
vegetables while supporting family farmers and growing local economies.

          ``I just want to say thank you. My health is improved, (I) 
        learned better cooking and preserving for winter, and enjoy new 
        food.''
                                        Michigan Double Up participant.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          ``We appreciate the fact that it's putting honest, healthy 
        foods in people's hands. We are glad to have more business, but 
        even aside from the sales factor, we're happy knowing the 
        people have the good food.''
                 Matt & Carissa Visser, Isadore Farm D Cedar, Michigan.

    Here's how it works: Double Up provides SNAP program participants 
with matching dollars to buy additional produce when they spend their 
Federal nutrition benefits on locally grown fruits and vegetables.
    The wins are three-fold: Low-income families eat more healthy food, 
area farmers gain new customers and make more money, and more food 
dollars stay in the local economy. Each has a ripple effect of 
benefits.
    Growth & Impact: Since 2009, Double Up has grown from five farmers' 
markets to more than 150 sites across the state. Today, nearly 90 
percent of Michigan shoppers live in a county where the program 
operates, either at a farmers' market or grocery store. Preliminary 
2015 data show that shoppers spent more than $1.5 million in combined 
SNAP and Double Up at farmers' markets, and an additional $200,000+ at 
participating grocery stores, helping families bring home more fruits 
and vegetables.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    Helps Low-Income Consumers:
 
    <bullet> SNAP shoppers bought 4+ million pounds of healthy food with
     SNAP & Double Up since 2009.
 
    <bullet> 87% said they eat more fruits and vegetables because of
     Double Up.
 
    <bullet> 69% tried new fruits and vegetables; 66% say they eat less
     junk food.
 
Helps Michigan Farmers:
 
    <bullet> Michigan farmers increased their income with $7+ million in
     new SNAP & Double Up sales.
 
    <bullet> 63% reported making more money; 50% report gaining new
     customers.
 
    <bullet> More than 1,000 farmers participate annually.
------------------------------------------------------------------------

          ``I am all for anything that is going to help our customers. 
        It's excellent for your customers to stretch their food dollar. 
        I would do it again.''
                               Michigan Double Up Participating Grocer.
         double up in farmers' market: the consumer experience
Double Up: Reports from the Field No. 1 *
---------------------------------------------------------------------------
    * http://www.fairfoodnetwork.org/resources/double-up-farmers-
markets-consumer-experience.
---------------------------------------------------------------------------
          Fair Food Network (http://www.fairfoodnetwork.org/) works at 
        the intersection of food systems, sustainability, and social 
        equity to develop solutions that support farmers, strengthen 
        local economies, and increase access to healthy food--
        especially in under-served communities. Double Up Food Bucks 
        (Double Up), a project of Fair Food Network, matches SNAP 
        (formerly food stamps) benefits spent at participating retail 
        locations with additional funds for the purchase of fresh 
        Michigan grown fruits and vegetables. The Double Up program 
        began in five Detroit farmers' markets in 2009 and has expanded 
        to more than 150 farmers' markets, mobile markets, food share 
        programs, and grocery stores around the state. This is the 
        first of a series of papers that will look at 3 years of 
        program data through a variety of lenses and discuss their 
        implications for policy. The second report analyzes Double Up's 
        multiple impacts in rural Michigan--on low-income SNAP 
        consumers, on the farmers selling in the markets, and on the 
        communities in which they live. Future reports will include a 
        discussion of how the Double Up program works in grocery 
        stores, the results of a pilot integrating several nutrition 
        programs in one county's farmers' markets, and technology 
        options that markets and grocery stores can use to implement 
        SNAP incentive programs.
                       Kate Fitzgerald for Fair Food Network, May 2015.

    Too many Americans suffer from debilitating chronic health 
conditions, and Michiganders are no exception: over 31 percent of the 
state's adults are obese, one in ten has diabetes, and the state's 
heart disease rate is one of the highest in the country.\1\ All of 
these conditions are related to unhealthy diets, a hallmark of which is 
an inadequate consumption of produce. The burden is most acute in low-
income communities where there is not easy access to high quality 
affordable food, and where the local built and social environments 
often do not foster healthy food cultures.
---------------------------------------------------------------------------
    \1\ Trust for America's Health and Robert Wood Johnson Foundation, 
Investing in America's Health: A State-by-State Look at Public Health 
Funding and Key Health Facts (May 2014): 30-31, accessed July 14, 2014 
and April 10, 2015. http://healthyamericans.org/assets/files/TFAH2014-
InvestInAmericaRpt08.pdf.
---------------------------------------------------------------------------
    In farmers' markets, Double Up provides an additional dollar to 
spend on Michigan grown produce for every $1 in SNAP benefits families 
spend. Several years of evaluations indicate that Double Up's 
deceptively simple design influences shoppers positively in several 
ways: it increases their spending power while creating concentrated 
demand for fresh fruits and vegetables--a demand that encourages 
farmers to locate markets in or near low-income communities. The 
farmers' markets in turn foster healthy social networks, and the many 
personal interactions provide effective environments for experiential 
nutrition education.\2\ Thus, the program impacts both the individual 
and the community.
---------------------------------------------------------------------------
    \2\ Farmers Market Coalition, 2013 National Farmers Market Week. 
http://farmersmarketcoalition.org/wp-content/uploads/gravity_forms/1-
66fc51da018bd946fb1dfb
74f4bea1e7/2015/03/NFMW_TalkingPoints_2013_Cover.pdf.
---------------------------------------------------------------------------
    This report looks at the SNAP consumer's experience using Double Up 
in farmers' markets to help policymakers and practitioners understand 
what guides participants' food shopping decisions--how they perceive 
their choices, their awareness of nutrition, and what they think about 
the utility of the Double Up program to their diets and their lives. 
The information is designed to encourage conversation and stimulate new 
research that considers the powerful social and psychological forces, 
as well as the economic and geographic realities, that support or 
constrain healthy food choices for the poor. The goal is to help inform 
wise public policy that will put Michigan--and the nation--back on the 
road to dietary health.
Double Up Customer Produce Consumption 2014
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Low-income families most often cite higher costs as the reason they 
do not eat more produce. The Double Up program addresses this challenge 
head on by doubling SNAP consumers' purchasing power when they use 
their benefits in farmers' markets, giving families the resources they 
need to invest in their long-term health by buying nutritious foods. 
The program maximizes the health impact of these food dollars by 
targeting them specifically for the purchase of fresh fruits and 
vegetables, the foods most often absent in American diets. The approach 
works. Since 2009, consumer demand has allowed the program to expand 
from five pilot markets in Detroit to more than 150 rural and urban 
communities around the state. Michigan SNAP participants have spent 
more than $7 million in combined SNAP and Double Up Food Bucks in 
participating markets and farm-direct retail since 2010 and have bought 
more than 4 million pounds of healthy fresh produce.\3\
---------------------------------------------------------------------------
    \3\ Calculated using Feeding America's conversion factor of $1.62 
per pound of food.

          ``Double Up helps to stretch my budget and helps to improve 
        my diet. I can afford more fruits and vegetables with Double 
        Up. I can buy local, and I really like being able to do that''
                                        Michigan Double Up Participant.

    Double Up is having a powerful effect on participants' diets. In 
2014, 559 shoppers using Double Up Food Bucks at 61 participating 
markets filled out a survey on their experience with the program. 
Eighty-seven percent reported they were eating more fruits and 
vegetables because of the incentives, 96 percent planned to increase 
their produce consumption, and 69 percent reported trying new kinds of 
healthy foods. Equally important, 66 percent reported that they were 
buying fewer chips, cookies and candy as a result of the program. These 
responses are consistent with the results of 3 years of independent 
evaluations. Double Up may be sparking new interest among SNAP 
consumers in buying fruits and vegetables. It may also be providing 
health conscious low-income shoppers the opportunity to purchase the 
kinds of foods they want but cannot afford.\4\
---------------------------------------------------------------------------
    \4\ Dr. Corinna Hawkes, et al., ``Smart Food Policy for Obesity 
Prevention,'' The Lancet (February 18, 2015), http://www.thelancet.com/
journals/lancet/article/PIIS0140-6736(14)61745-1/abstract.
---------------------------------------------------------------------------
    Lack of easy access exacerbates the challenge to healthy eating for 
the 1.8 million Michiganders who live in communities without adequate 
food retail.\5\ Farmers' markets, mobile markets and food share 
programs are filling this retail gap in many communities. There are 
more than 300 farmers' markets in Michigan now, almost triple what 
there were 10 years ago. Almost 200 markets and farmers now accept SNAP 
benefits, and 86 percent of Michiganders live in a county with a 
participating Double Up Food Bucks site. By initially promoting their 
use at farmers' markets, Double Up stimulated demand for local produce 
in low-income communities. This demand provides the farmers the 
economic safety net they need to locate markets in or near these 
neighborhoods. In this way, Double Up's design simultaneously creates 
both a demand for and supply of healthy produce. The program reduces 
the financial and physical access challenges to buying health food, 
providing a benefit to individual SNAP participants and also their 
neighbors by improving the food environments in which they live.
---------------------------------------------------------------------------
    \5\ Manon M., Church D., Treering D., Food for Every Child: The 
Need for Healthy Food Financing in Michigan. (2015). http://
thefoodtrust.org/uploads/media_items/michigan-mapping-
final.original.pdf.
---------------------------------------------------------------------------
SNAP Authorization and Spending in Michigan Farmers' Markets
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Double Up Food Buck's incentives address the financial and 
geographic barriers to healthy eating for low-income families, but the 
program's benefits run deeper. The Centers for Disease Control and 
Prevention (CDC) includes access to farmers' markets among its key 
indicators of food environments that support the consumption of fruits 
and vegetables, and respondents in a national study of incentive 
programs reported that incentives in local farmers' markets improve the 
health of their communities.\6\ While consumers may believe that 
markets are assets to their neighborhoods, they will only spend their 
limited food dollars there if they believe that they are getting the 
best food value--and Double Up shoppers do. Program participants 
overwhelmingly report that the quality and selection at the farmers' 
markets are much better, and the prices are either the same or lower 
than where they usually shop. Too often higher prices and inferior 
quality confound low-income shoppers' desire for healthy food and 
create reasonable disincentives for the purchase of fruits and 
vegetables.\7\
---------------------------------------------------------------------------
    \6\ Richard McCarthy, ``Evaluating the Social, Financial, and Human 
Capital Impacts of Farmers Markets.'' (2010) http://
www.marketumbrella.org/uploads/Evaluating_farmers_markets.pdf.
    \7\ Lancet, ibid.
---------------------------------------------------------------------------
Double Up Food Bucks Farmers' Market Locations 2014
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A farmers' market is very different from a grocery store and offers 
an environment with significant advantages for both facilitating 
healthy eating and nurturing good dietary habits. Many offer regular 
health, nutrition, and cooking activities, engaging shoppers in ways 
that reinforce healthy eating messages and make them easy to act on. 
Shoppers have many more personal interactions in farmers' markets than 
in supermarkets, and these connections create strong social networks 
and can build civic culture.\8\ Perhaps equally powerful is the value 
to SNAP participants of the reciprocity in the economic relationship 
Double Up creates. Knowing that their purchases help to support the 
farmers is a welcome change from the feeling of dependency that relying 
on public nutrition benefits can bring. It is hard to measure the 
impact these factors have on personal shopping patterns or community 
culture, but every year Double Up shoppers talk about the importance of 
the relational aspects of the program and teaching their children about 
food and health as much as they credit the immediate financial 
assistance it provides.
---------------------------------------------------------------------------
    \8\ Dr. Neal Kaufman and Steve Davies, ``Public Markets Promote 
Economic, Social, and Health Benefits--And Should Be Encouraged,'' The 
Planning Report (March 20, 2006). http://www.planningreport.com/2006/
03/20/public-markets-promote-economic-social-and-health-benefits-and-
should-be-encouraged.

          ``I have had so much fun taking my girls to the market with 
        me this summer to let them pick out fruits and veggies. . . . I 
        taught them how to freeze fruits and veggies so that we can 
        enjoy them in the winter. . . . I have also been able to 
        develop relationships with some of the local growers. I love 
        that they recognize me!''
                                        Michigan Double Up Participant.

    The most common criticism of incentive programs in farmers' markets 
is that their efficacy is limited because a small percentage of 
American shoppers use markets. While it is true that most Americans do 
not shop in farmers' markets, the number of low-income shoppers using 
them continues to increase.\9\ It is worth considering that the portion 
of the population that uses these markets can have a considerable 
positive influence on local food cultures and on the habits of their 
families and neighbors. Over time, markets may exert an outsized 
influence on the creation of healthier food environments. They are 
credited with changing the tastes of ``mainstream culture''--why 
shouldn't they have at least an equal impact on low-income consumers 
and communities?
---------------------------------------------------------------------------
    \9\ USDA Food and Nutrition Service.
---------------------------------------------------------------------------
Double Up Customer Perception of Produce in Participating Farmers' 
        Markets 2014
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    The Double Up program design overcomes the two most common barriers 
to produce consumption by SNAP participants: it increases the amount 
families have to spend on produce and uses the new buying power to 
bring farm-fresh fruits and vegetables into under-served low-income 
communities. Each year, the demand for the program grows, participants 
consistently report that they eat more fruit and vegetables as a result 
of the incentives, and the value of SNAP dollars spent with farmers 
across the state increases. The Michigan experience demonstrates that 
well-designed programs can exert positive influences on individual 
dietary behavior as well as on culture and community food environments.

          ``You mean I get that much food and the farmer gets all of 
        that money? I like this. It feels like we're helping each 
        other.''
                                           Grand Rapids Market Shopper.

    Fair Food Network believes that we need coordinated approaches that 
recognize the powerful interplay between economic, cultural, and 
environmental forces to improve our food choices and dietary behavior. 
There is no one easy answer, but there are promising patterns emerging 
as the Double Up program expands. Fair Food Network is committed to 
extending the benefits to more low-income consumers, finding ways to 
integrate it successfully into other kinds of retail, and identifying 
technologies to make implementation easier.

          ``We are glad to have more business, but even aside from the 
        sales factor, we're happy knowing the people have the good 
        food.''
                                               Western Michigan Farmer.

          ``I've lost 45 lbs so far. . . . I know Double Up has helped 
        me, because I am able to walk 2 miles now, and I know that if I 
        wasn't eating better, I would not be able to do that.''
                                        Michigan Double Up Participant.
               the double up experience in rural michigan
Double Up: Reports from the Field No. 2 *
---------------------------------------------------------------------------
    * http://www.fairfoodnetwork.org/resources/double-up-experience-
rural-michigan.
---------------------------------------------------------------------------
          Fair Food Network (http://www.fairfoodnetwork.org/) works at 
        the intersection of food systems, sustainability, and social 
        equity to develop solutions that support farmers, strengthen 
        local economies, and increase access to healthy food--
        especially in under-served communities. Double Up Food Bucks 
        (Double Up), a project of Fair Food Network, matches SNAP 
        (formerly food stamps) benefits spent at participating retail 
        locations with additional funds for the purchase of fresh 
        Michigan grown fruits and vegetables. The Double Up program 
        began in five Detroit farmers' markets in 2009 and has expanded 
        to more than 150 farmers' markets, mobile markets, food share 
        programs, and grocery stores around the state. This is the 
        second of a series of papers that will look at 3 years of 
        program data through a variety of lenses and discuss their 
        implications for policy. The first in the series analyzed the 
        SNAP consumer's experience using Double Up Food Bucks and the 
        impact the program can have on diet, food environment, and 
        behavior. Future reports will include a discussion of how the 
        Double Up program works in grocery stores, the results of a 
        pilot integrating several nutrition programs in one county's 
        farmers' markets, and technology options that markets and 
        grocery stores can use to implement SNAP incentive programs.
                      Kate Fitzgerald for Fair Food Network, June 2015.

    One of the most exciting trends of the past 3 years has been the 
Double Up Food Bucks program's growth in rural Michigan.** In 2014, 
more than \1/3\ of the farmers' markets that participated in the 
program were in communities of fewer than 50,000 people, and 50 of 
these markets were in rural communities with populations of less than 
20,000. Almost 20 percent of the SNAP and Double Up dollars were spent 
in these markets last year, and 34 new rural markets and farmstands 
joined the program in 2015. Rural residents also used Double Up 
incentives at higher rates than urban shoppers, which may dispel myths 
that farmers' markets are an affluent urban phenomenon. While much has 
been written about food deserts and the connection between poverty, low 
food access and high rates of chronic disease, most of the studies and 
projects have been conducted in big cities. Poverty, poor health, and 
limited access to healthy food are often more acute in rural 
communities where isolation and limited public and private sector 
resources make these challenges harder to fight.\1\ Several years of 
independent evaluations and more than 500 customer and farmer surveys, 
as well as data on SNAP and Double Up transactions in rural Michigan 
markets, indicate that the program is having multiple, tangible 
positive effects. Doubling Federal nutrition benefits when they are 
spent on produce from local farmers keeps more food dollars in the 
local economy and helps low-income rural consumers overcome barriers to 
healthy eating. The program's approach is holistic and it is in rural 
Michigan where the power of an integrated design that meets families' 
food needs while also getting at the lack of economic activity that 
leads to poverty can be seen most clearly.
---------------------------------------------------------------------------
    ** USDA defines ``rural'' as a community of fewer than 50,000 
people. This means there are some larger communities that are 
classified as urban for our purposes even though they are in counties 
considered rural using Metropolitan Statistical Area (MSA) definitions.
    \1\ Opportunity for All: Fighting Rural Child Poverty, The White 
House, May 2015. https://www.whitehouse.gov/sites/default/files/docs/
rural_child_poverty_report_final_non-embargoed.pdf.
---------------------------------------------------------------------------
Rural Consumers
    Rural Michigan was hit hard by the Great Recession. Fifty-three 
rural counties in the state have fewer jobs now than they had in 2007, 
and poverty rates are greater than 22 percent in nine of these 
counties.\2\ The problem is most acute among children, with as many as 
one in three rural kids experiencing hunger in 2014.\3\ Poverty takes a 
long-term toll on health, and increasingly the chronic conditions from 
which Americans suffer--particularly low-income Americans--are diet 
related. Thirty-five percent of rural Michiganders are obese and rural 
counties are near the bottom of state rankings for health and well-
being.<SUP>4-5</SUP> While surveys reflect that shoppers know that 
eating produce is important, 37 percent of Michiganders do not eat one 
portion of fruit per day and almost one in four does not eat a 
vegetable daily.\6\
---------------------------------------------------------------------------
    \2\ Bishop, B., ``Rural Jobs Remain Below 2007 Levels,'' May 21, 
2015, The Daily Yonder. Dailyyonder.com/rural-counties-missing-half-
million-jobs/2015/01/20/7686.
    \3\ Feeding America's Map the Meal Gap 2015.
    \4-5\ http://www.americashealthrankings.org/ALL/Obesity/
disparities; http://www.countyhealthrankings.org/rankings/data/MI; 
http://www.well-beingindex.com/2014-state-rankings.
    \6\ http://www.cdc.gov/nutrition/downloads/State-Indicator-Report-
Fruits-Vegetables-2013.pdf.
---------------------------------------------------------------------------
    The Double Up program is designed to make it as easy as possible 
for low-income families to buy and eat local fresh produce. For every 
dollar in SNAP benefits a family spends at a participating farmers' 
market, they receive an additional dollar to buy fresh fruits and 
vegetables. Since low-income families spend as much as 36 percent of 
their total income on food, these additional dollars are crucial to 
provide families the extra margin they need to buy food that will 
support long-term health rather than maximizing calories as 
inexpensively as possible.\7\
---------------------------------------------------------------------------
    \7\ United States Bureau of Labor Statistics, 2013 Consumer 
Expenditure Survey (U.S. Government Printing Office).
---------------------------------------------------------------------------
    By linking the new Double Up dollars to purchases of local produce, 
the incentives also redirect Federal SNAP benefits to regional farmers, 
helping to stimulate the establishment of new markets and to encourage 
existing markets to become authorized to accept SNAP. Sixty-six percent 
of Double Up's rural markets started accepting SNAP in just the last 3 
years, and 35 of these markets are in the smallest rural communities. 
Double Up simultaneously increases low-income families' buying power 
and helps create access to healthy food retail in rural communities, 
which is critical in towns that have lost their local grocery stores.
    Even with money and access, shoppers can choose not to buy fresh 
produce if they feel stores are not clean, if the produce for sale is 
not high quality, or if they do not feel that personnel value their 
business.\8\ Studies have shown that obesity rates are significantly 
lower in rural areas with farmers' markets and that mortality rates are 
inversely associated with higher per capita direct farm 
sales.<SUP>9-10</SUP> There are multiple reasons for this, but the 
outsized role a farmers' market can play in fostering a healthy eating 
culture is worth exploring more fully.
---------------------------------------------------------------------------
    \8\ Blitstein, J.L., Snider, J., and Evans, W.D., ``Perceptions of 
the food shopping environment are associated with greater consumption 
of fruits and vegetables.'' Himmelfarb Health Sciences Library, The 
George Washington University Health Sciences Research Commons 
Prevention and Community Health Faculty Publications. June 2012.
    \9\ Jillcot, S.B., et al. ``Examining Association Among Obesity and 
Per Capita Farmers' Markets, Grocery Stores/Supermarkets, and 
Supercenters in U.S. Counties.'' Journal of the American Dietetic 
Association, (2011) 111: 567-572.
    \10\ Ahern, M., Brown, C. and Dukas, S., ``A National Study of the 
Association Between Food Environments and County-Level Health 
Outcomes.'' Journal of Rural Health, (2011) 27: 367-379.

          ``You mean I get that much food and the farmer gets all that 
        money? I like this. It feels like we are helping each other.''
                                                 Double Up participant.

    Double Up consumer data indicate that shoppers like the program and 
feel that it improves their diets.\11\ In 2014, 302 Double Up shoppers 
at rural markets responded to written customer surveys. Of the 224 
shoppers who answered a question asking how the program had affected 
their diets, 90 percent said that they were eating more fruits and 
vegetables because of the incentives, and 68 percent of respondents 
said that because of the program they were eating fewer potato chips, 
candy and cookies. Farmers' markets are also meeting Double Up shoppers 
demands for high-quality food: 97 percent of shoppers said that the 
quality of produce at the market was better than where they usually 
shop, 93 percent said that the selection was better, and 83 percent 
said that prices were either cheaper or the same as where they usually 
shop.
---------------------------------------------------------------------------
    \11\ http://www.fairfoodnetwork.org/resources/double-up-farmers-
markets-consumer-experience.
---------------------------------------------------------------------------
Double Up Rural Customer Consumption, 2014
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Rural shoppers use the Double Up program intensively. Redemption 
rates have never been lower than 90 percent in the rural farmers' 
markets and have been as high as 99 percent in some communities. Only 
15 percent of shoppers used the Double Up program just once, 28 percent 
used it two or three times and 58 percent four or more times. This high 
use rate and multiple visits to participating markets have been 
consistent for 5 years and exceeds that in urban areas.
    Double Up appears to be effectively addressing the practical 
reasons rural consumers most often cite for not buying produce--its 
cost, accessibility, quality, and comfort in the retail setting.\12\ 
Customers state that they enjoy their interactions with farmers and 
feel good that their purchases are helping to support them. Many 
markets offer cooking and nutrition activities, and in some Extension 
Service nutritionists provide tours that explain how to use different 
Federal nutrition benefits in the markets.
---------------------------------------------------------------------------
    \12\ Webber, C.B., Sobal, J. and Dollahite, J.S., ``Shopping for 
fruits and vegetables. Food and retail qualities of importance to low-
income households at the grocery store.'' Appetite, Vol. 54 (2010) 297-
303.
---------------------------------------------------------------------------
Double Up Rural Customer Perception of Produce in Rural Farmers' 
        Markets, 2014
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    It appears that Double Up can successfully connect low-income 
shoppers with local farmers by helping overcome some financial and 
geographic hurdles that they both face. Markets also foster supportive 
social networks that can build a civic culture necessary for stronger 
and more resilient communities.\13\ Future research could look at why 
rural SNAP participants use the Double Up program more than their urban 
counterparts, whether seasonal incentives lead to long-term dietary 
change, and whether increased fruit and vegetable purchases in farmers' 
markets carry over to grocery store shopping.
---------------------------------------------------------------------------
    \13\ Alia, K., et al., ``Identifying emergent social networks at a 
federally qualified health center-based farmers' market.'' Selected 
submission for special issue on social network theory in the American 
Journal of Community Psychology, (2014) 53, 335-345. DOI 10.1007/
s10464-013-9616-0 PMID: 24352510.
---------------------------------------------------------------------------
Rural Producers and Economies
    The Double Up program results look as promising for participating 
farmers as they do for rural SNAP shoppers. The SNAP and Double Up 
dollars that flow through Michigan farmers' markets benefit not only 
farmers, but the entire local economy. Responses on self-administered 
surveys from 356 farmers selling at 68 Michigan farmers' markets in 
2014 confirm the data from 3 years of independent evaluations, as well 
as sales data since 2009: Double Up supports the proliferation of 
markets, expands their customer base, and increases direct spending by 
producers. This indicates that the program can support local economic 
development and job creation that can grow into a self-sustaining cycle 
of community self-help.
    The number of farmers' markets in Michigan has increased from only 
three in 2006 to more than 300 today, \1/2\ of which are authorized to 
accept SNAP. The development of strong farmers' markets allows farmers 
to capture a larger share of the consumers' food dollars, while the 
Double Up program introduces a new community of consumers to these 
markets. The incentive helps markets diversify their customer base, 
increase their long-term financial stability and establish their place 
as important components of the local food retail economy.
Growth in Rural Farmers' Markets with Double Up, 2010-2014
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Last year the state's farmers received more than $1.6 million in 
SNAP dollars, the third highest level of SNAP use in farmers' markets 
in the country even though eight states distributed more in SNAP 
benefits. Double Up has been directly responsible for at least $7 
million in SNAP and incentive sales in farmers' markets in the last 5 
years--representing $7 million in new income and spending power for the 
1,000 Michigan farmers that participated in the program each year.
    Studies by Michigan State University in 2006 and 2008 assessed the 
economic development potential of a theoretical increased localization 
of the state's fruit and vegetable sector. They found that there was 
the potential to create between 1,800 and 1,900 new jobs and generate 
between $187 million and $211 million in new income in Michigan.\14\ 
Fair Food Network ties Double Up to the purchase of Michigan fresh 
fruits and vegetables in a bid to help the state realize this 
potential. As the program expands to operate in grocery stores, the 
goal is to extend the economic impact to the state's mid-sized farmers 
that sell into wholesale rather than direct markets.
---------------------------------------------------------------------------
    \14\ http://foodsystems.msu.edu/uploads/files/EatFresh.pdf & http:/
/foodsystems.msu.edu/uploads/files/FSasEconomic_Driver.pdf.

          ``Many customers have said that they had never been to a 
        farmers' market, and they love it. Also, many have appreciated 
        our educational component of teaching cooking, canning and 
        preserving.''
                                                        Market Manager.

    In 2014, 63 percent of 356 surveyed farmers reported that they were 
making more money because of Double Up. The economic development value 
of new income is greatest when farmers spend earnings in their local 
rural communities. Studies looking at where producers buy their inputs 
find that 50 to 95 percent are purchased locally.<SUP>15-16</SUP> In-
depth evaluator interviews with six farmers participating in Double Up 
in 2013 found that all purchased almost all of their farm inputs either 
in their home county or in an adjacent rural county. This indicates a 
high potential local economic impact.
---------------------------------------------------------------------------
    \15\ USDA, Economic Research Service using data from USDA's 
Agricultural Resource Management Survey, 2004 Phase III, Version 1.
    \16\ Chism, J.W., Levins, R.A., ``Farm Spending and Local Selling: 
How Do They Match Up?'' Minnesota Agricultural Economist, No. 676, 
Spring 1994.
---------------------------------------------------------------------------
    In 2013, 46 percent of Double Up producers selling in rural markets 
said that they had purchased new equipment because of the program. 
Thirty-three percent said they would put more land into production to 
meet new demand, and 60 percent said that they had started using season 
extenders because of the program. In 2014, an additional seven percent 
had or would purchase new equipment, 16 percent will use season 
extenders, and 14.5 percent have or will increase their acreage. This 
new production and longer season means farmers are investing their new 
income in inputs most of which they are buying from local rural 
businesses. Local business expansion is crucial in a state with a rural 
unemployment rate of almost ten percent.\17\
---------------------------------------------------------------------------
    \17\ https://www.raconline.org/states/michigan.
---------------------------------------------------------------------------
Impact of Double Up on Producers Participating in Rural Markets, 2013-
        2014
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    All the SNAP and Double Up income earned in farmers' markets around 
the state is important to rural economies; but the potential power of 
the direct producer-consumer relationship Double Up creates is easiest 
to see at markets in farmers' home communities where the SNAP shoppers 
buying food are the producers' neighbors. In 2010, $1,000 in SNAP and 
Double Up dollars were spent at the single farmers' market 
participating in rural Michigan. By 2014, SNAP and Double Up shoppers 
spent more than $300,000 at 56 participating rural markets.
SNAP & Double Up Spending in Participating Michigan Farmers' Markets
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Each successful farmers' market creates an average of four new 
jobs, and every dollar spent at a market creates an estimated $2.80 in 
local economic activity.<SUP>18-19</SUP> Rural businesses near markets 
also get a boost, as market shoppers stroll and spend money.\20\ In 
addition to jobs created at or near rural farmers' markets, ten percent 
of Double Up farmers reported in 2014 that the increased market volume 
the program created had required them to hire extra workers.
---------------------------------------------------------------------------
    \18\ Jeffery O'Hara, Market Forces: Creating Jobs Through Public 
Investment in Local and Regional Food Systems, Union of Concerned 
Scientists, 2011. http://www.ucsusa.org/sites/default/files/legacy/
assets/documents/food_and_agriculture/market-forces-report.pdf.
    \19\ Sonntag, V., ``Why Local Linkages Matter: Findings from the 
Local Food Economy Study.'' Sustainable Seattle. Seattle, Washington, 
April 2008.
    \20\ McCarthy, R. and Moon, J.R., ``The Economic Impact of Farmers 
Markets: A Study of 9 Markets in 3 Major U.S. Cities,'' 5 July 2012. 
More information at: http://marketumbrella.org/
index.php?mact=News,cntnt01,detail,0&cntnt01articleid=163&cntnt01returni
d=83.

          ``We are glad to have more business, but even aside from the 
        sales factor, we're happy knowing the people have the good 
        food.''
                                               Western Michigan Farmer.

    Just as farmers' markets can introduce consumers to healthier 
foods, farmers' markets are often the first retail outlet for beginning 
farmers. To the extent that the Double Up program helps keep these 
markets viable, it also supports the success of beginning farmers in 
Michigan. The Double Up program appears to maintain demand during the 
summer, support the extension of the market season, boost farmer 
income, and stimulate sales at rural businesses. The program's economic 
impact looks promising and offers tantalizing avenues for future 
research. How many of the participating producers are beginning farmers 
or come from historically disadvantaged groups? Do rural shoppers 
continue to come to market when they no longer receive incentives, 
keeping those food dollars from leaking out of the local economy? Has 
the growth of rural farmers' markets stimulated increased local 
purchasing by institutions, restaurants or stores? How much are 
participating farmers spending on new farm inputs, and how many of the 
purchases are made locally? How does the program's economic impact on 
rural communities change over time, and what specific effects have 
local businesses seen as a result of the incentives? With support from 
USDA's Food Insecurity Nutrition Incentive Program, Fair Food Network 
will continue to collect data on the Double Up program that should help 
answer these questions.
                    double up food bucks and hunger
Double Up: Reports from the Field *
---------------------------------------------------------------------------
    * http://www.fairfoodnetwork.org/resources/double-up-and-hunger.
---------------------------------------------------------------------------
          Fair Food Network works at the intersection of food systems, 
        sustainability, and social equity to develop solutions that 
        support farmers, strengthen local economies, and increase 
        access to healthy food--especially in our most under-served 
        communities. Fair Food Network's Double Up Food Bucks program 
        provides SNAP program participants with matching dollars to buy 
        additional produce when they spend their Federal nutrition 
        benefits on locally grown fruits and vegetables. The Double Up 
        program began in five farmers' markets in 2009 and has since 
        expanded to more than 150 sites across the state including 
        farmers' markets, mobile markets, food share programs, and 
        grocery stores. These field reports look at program evaluation 
        data through a variety of lenses and discuss their policy 
        implications.
                                 Kate Fitzgerald for Fair Food Network.

    Reports from the Council of Economic Advisors (CEA) and the 
National Commission on Hunger confirm that the Supplemental Nutrition 
Assistance Program (SNAP, formerly known as food stamps) does an 
excellent job of averting deep and widespread hunger but also that it 
cannot ensure participants' optimal nutrition.<SUP>1-2</SUP>
---------------------------------------------------------------------------
    \1\ Council of Economic Advisers report: https://
www.whitehouse.gov/sites/whitehouse.gov/files/documents/
SNAP_report_final_nonembargo.pdf.
    \2\ National Commission on Hunger report: http://
cybercemetery.unt.edu/archive/hungercommission/20151216222324/https://
hungercommission.rti.org/Portals/0/SiteHtml/Activities/FinalReport/
Hunger_Commission_Final_Report.pdf.
---------------------------------------------------------------------------
    Fair Food Network's Double Up Food Bucks healthy food incentive 
program provides low-income shoppers an additional $20 per day 
incentive to buy produce when they use their SNAP benefits on locally 
grown fruits and vegetables at participating farmers' markets and 
grocery stores. At the most basic level such healthy food incentive 
efforts are anti-hunger programs because they increase the food buying 
power of low-income individuals who might otherwise be hungry.
    Preliminary results from a study analyzing transaction data of 
Double Up participants in Detroit in 2012 and 2013 found that the 
program reached the poorest SNAP shoppers.\3\ We believe that this is a 
crucial finding as we understand more about the connection between 
hunger and diet-related illness and the destructive cycles of hunger 
and poor health that can trap people in poverty.
---------------------------------------------------------------------------
    \3\ Cohen, A.J., Lachance L., Hesterman O.B., Bair R.C., Noonan G., 
Zick S.M. ``Utilization of a SNAP Incentive Program for the Purchase of 
Fruits and Vegetables at Detroit Farmers Markets.'' Conference 
presentation at the American Public Health Association Annual Meeting, 
New Orleans, Louisiana, November 2014.
---------------------------------------------------------------------------
    Many factors influence food consumption decisions, but Fair Food 
Network's experience with the Double Up Food Bucks healthy food 
incentive program and similar efforts around the country indicate that 
produce incentives can successfully enhance the benefit of the SNAP 
program by reducing hunger while also improving nutrition.\4\
---------------------------------------------------------------------------
    \4\ Block, J.P., Subramianian S.V. (2015) Moving Beyond ``Food 
Deserts'': Reorienting United States Policies to Reduce Disparities in 
Diet Quality. PLos Med. 12(12): e10001914. Doi:10.1371/journal. 
Pmed.1001914.
---------------------------------------------------------------------------
The Economics of Why Hunger Matters
    The challenges of hunger and food insecurity are complicated in the 
United States with the seeming paradox of millions of families that are 
overfed but undernourished. Even as the country pulls out of the Great 
Recession, more than 45 million people depended on monthly SNAP 
benefits in 2015. To provide some context, that is more than the entire 
population of California and about equal to the number of people who 
live in Georgia, Illinois, Michigan, and Pennsylvania combined. Less 
visible are the almost seven million Americans who do not have enough 
of any kind of food to eat. There are as many hungry people in the 
United States as the total population of Washington State.\5\
---------------------------------------------------------------------------
    \5\ http://www.ers.usda.gov/data-products/ag-and-food-statistics-
charting-the-essentials/food-security-and-nutrition-assistance.aspx.
    In 2006 USDA started using new definitions to describe the range of 
levels of food insecurity in the U.S. Food insecurity is defined as 
lacking dependable and consistent access to food. Very low food 
security means that at least one member of a household missed meals as 
a result of insufficient resources for food. See more detailed 
descriptions here: http://www.ers.usda.gov/topics/food-nutrition-
assistance/food-security-in-the-us/definitions-of-food-security.aspx.
---------------------------------------------------------------------------
    Poverty forces individuals to make tough choices that can have 
long-term effects on their individual futures and on our collective 
economic potential. Rates of chronic diseases associated with diet are 
exploding in the United States and the incidence of these are highest 
among poor Americans. According to Bread for the World, the immediate 
health-related cost of hunger and food insecurity in the United States 
exceeded $160 billion in 2014.\6\
---------------------------------------------------------------------------
    \6\ Bread for the World Institute 2015 Hunger Report. Estimating 
the Health-Related Costs of Food Insecurity and Hunger by John T. Cook 
and Ana Paula Poblacion. Available here: http://www.bread.org/about-
bread-world-institute.
---------------------------------------------------------------------------
    A key problem for low-income families is that even with SNAP 
benefits they do not always have enough money to buy food for the whole 
month. The average American spends about $50 a week on food while the 
average SNAP benefit for an individual is $29 a week.\7\ This leaves a 
$20 per week food spending gap, which helps explain why roughly 80 
percent of SNAP benefits are redeemed within 2 weeks of receiving them. 
Research shows that SNAP recipients consume between 10 to 25 percent 
fewer calories as the month progresses.\8\ In one California study, 
insufficient money to buy food was associated with a 27 percent 
increase in hospital admissions for low blood sugar among low-income 
adults.\9\
---------------------------------------------------------------------------
    \7\ http://hungerreport.org/2016/wp-content/uploads/2015/11/HR2016-
Executive-Summary.pdf.
    \8\ Seligman H.K., Bolger A.F., Guzman D., Lopez A., Bibbins-
Domingo K. (2015). Exhaustion of Food Budgets at Months End and 
Hospital Admissions for Hypoglycemia. Health Affairs doi: 10.1377/
hlthaff.2013.0096, Health Aff. January 2014, vol. 33 no. 1116-123.
    \9\ Ibid.

          ``(Double Up Food Bucks) just stretches my food budget so 
        much more. I find myself eating a lot more fruits and 
        vegetables than I might
        have . . .''
                            Double Up Focus Group Participant, Detroit.

    When families run out of food they turn to food pantries. According 
to a 2013 Feeding America survey, 84 percent of the low-income 
households with children that they served reported that they purchased 
junk food even though they knew it was not nutritious but because they 
had to provide enough calories to make their children feel full.\10\ 
Hungry and undernourished children do not learn, are more likely to get 
in trouble in school, and to develop diet-related diseases.\11\ This is 
a cause for deep concern at a time when almost \1/2\ of SNAP 
participants are children under the age of 18.\12\
---------------------------------------------------------------------------
    \10\ http://www.feedingamerica.org/about-us/about-feeding-america/
annual-report/2015-feeding-america-annual.pdf.
    \11\ Hickson M., deCuba S.E., Weiss I., Donofrio G., Cook J. Too 
Hungry to Learn: Food Insecurity and School Readiness, Part I of II MA: 
Children's HealthWatch, Boston Medical Center; 2013.
    \12\ Cohen, A.J., Lachance L., Hesterman O.B., Bair R.C., Zick S.M. 
``Barriers and Facilitators to Use of a SNAP Incentive Program at 
Detroit Farmers Market: A Qualitative Evaluation.'' Conference 
presentation at the American Public Health Association Annual Meeting, 
New Orleans, Louisiana, November 2014.
---------------------------------------------------------------------------
    Double Up produce incentives can help by filling SNAP families' 
``hunger gap'' while simultaneously increasing the consumption of 
nutritious produce and stimulating local economies by sparking demand 
for fruits and vegetables.

          ``I didn't know what bok choy was . . . but once I started I 
        got hooked.''
                            Double Up Focus Group Participant, Detroit.
The Double Up Story in Detroit
    University of Michigan researchers have been analyzing transaction 
data for almost 12,000 SNAP shoppers--almost five percent of all SNAP 
households in the region--who used Double Up Food Bucks at eight 
Detroit farmers' markets in 2012 and 2013. The researchers led by Dr. 
Alicia Cohen also conducted seven focus groups with SNAP shoppers who 
had used the program with the goal to understand the challenges 
participants faced accessing food, the strategies they adopted to 
achieve the best nutrition with limited means, how they felt about the 
Double Up program, and what they thought could be done to improve 
it.\13\
---------------------------------------------------------------------------
    \13\ Ibid.
---------------------------------------------------------------------------
    Preliminary data show that 90 percent of Double Up participants in 
Detroit had annual household income of less than 100 percent of the 
Federal Poverty Level (FPL) and were poorer than the area's SNAP 
population as a whole. Among focus group participants, almost 40 
percent usually or always worried about having enough money to buy 
food. Thirty percent reported that they were in fair or poor health, 41 
percent were overweight, 27 percent had diabetes, and 27 percent had 
hypertension.\14\ These SNAP shoppers reported regularly having to make 
trade-offs between more expensive healthier foods and having enough to 
eat at all. They stretched their limited food dollars by shopping at 
sales, using coupons, buying in bulk, and preserving food.
---------------------------------------------------------------------------
    \14\ [Ibid.]
---------------------------------------------------------------------------
    These consumers were worried about their health and worked hard to 
ensure that their diets were as nutritious as possible. More than \1/2\ 
had shopped at a participating farmers' market six or more times during 
the season, which was impressive considering the transportation 
barriers some faced.

          ``Where I work, it's 15 miles away and it takes about 2\1/2\ 
        hours to get there on the bus and 2\1/2\ hours to get back on 
        the bus . . . So I'm not only working my 5 or 6 hour shift but 
        it literally takes 5 or 6 hours and by that time I'm ready to 
        go to bed.''
                            Double Up Focus Group Participant, Detroit.

    Studies consistently show that shoppers of all income levels are 
motivated by the same things: price, taste, quality, selection, 
environment, and convenience with low-income shoppers much more 
sensitive to price. Double Up program participants in Detroit talked 
about the importance of having additional food dollars to spend and 
also emphasized the benefits the farmers' markets provided including 
high-quality fruits and vegetables, wide product selection that allowed 
them to try new foods, and a positive environment and shopping 
experience. They liked participating in market activities, sometimes 
with their children, and the opportunities to forge relationships with 
the vendors. They also talked about feeling good that the money they 
spent helped support the farmers and stayed in the local economy.
The Food Insecurity Nutrition Incentive Grants Program
    Based on the positive results of pilot SNAP produce incentive 
programs around the country, the 2014 Farm Bill established the Food 
Insecurity Nutrition Incentive (FINI) program at the USDA.\15\ This 
competitive grants program provides supports projects that incentivize 
SNAP shoppers to purchase fruits and vegetables. The goal is to allow 
existing projects to reach scale and to seed new work. The program 
allows practitioners to test different approaches to incentive 
delivery, to experiment with new technologies, to replicate proven 
models, and to study the impact incentives have on SNAP participants' 
consumption of healthy produce.
---------------------------------------------------------------------------
    \15\ http://nifa.usda.gov/program/food-insecurity-nutrition-
incentive-fini-grant-program.
---------------------------------------------------------------------------
    In April 2015, Fair Food Network received a $5 million grant, which 
was matched with private funding. Fair Food Network used the feedback 
from the Detroit focus groups and years of participant surveys to guide 
the organization's plans for the $10 million investment in Double Up in 
Michigan.
    The funds will be used to better serve SNAP participants by 
expanding the program to more farmers' markets and grocery store 
locations across Michigan so it's easier to use, and supporting new 
technology and other innovations.
    In participating grocery stores, shoppers earn Double Up dollars 
when they use their SNAP benefits to purchase Michigan-grown fresh 
fruits and vegetables. The incentive dollars can be used for any kind 
of fresh produce. Requiring the initial SNAP purchase be used on 
Michigan produce maintains Double Up's strong connection to local 
agriculture and extending the program benefits year round as shoppers 
use their incentive dollars to purchase any fresh produce in the store.
    Fair Food Network is testing various transaction technologies to 
ensure program integrity and minimize any stigma customers might feel 
using Double Up. The goal is to find approaches that are cost 
effective, secure, user-friendly for vendors and customers, and that 
can capture the information necessary to assess the program's impact on 
shopping behavior.
Conclusion
    Reports from the Council of Economic Advisors and the National 
Hunger Commission reaffirm that the SNAP program is a strong and 
crucially important food safety net. They highlight the connections 
between poverty, hunger, and good nutrition, and encourage careful 
experimentation with new ideas to enhance its efficacy.
    Fair Food Network's experience and careful external research 
indicates that the Double Up Food Bucks' approach incentivizing 
nutritious produce purchases among SNAP participants is an effective 
way to both reduce hunger and support healthy diets.
    Low-income American families should not have to choose between 
being hungry and being healthy. Implemented well, SNAP local produce 
incentive programs are an effective way to ensure families do not have 
to make that choice. Creating a market connection between farmers to 
consumers deepens the impact by injecting food dollars into the local 
farm economy and fostering a strong and resilient local civic culture.

    The Chairwoman. Thank you, Dr. Hesterman. Dr. Wright, 
please proceed with your testimony.

     STATEMENT OF ASHTON POTTER WRIGHT, Ph.D., LOCAL FOOD 
COORDINATOR, BLUEGRASS FARM TO TABLE, OFFICE OF THE MAYOR, CITY 
                  OF LEXINGTON, LEXINGTON, KY

    Dr. Wright. Chairwoman Walorski, Ranking Member McGovern, 
and Members of the Subcommittee, thank you for the honor to 
testify on the Bluegrass Double Dollars Pilot Program, a 
project supported by the USDA Food Insecurity Nutrition 
Incentive Program, or FINI. And a special thank you to my 
fellow witnesses for sharing their important work. My name is 
Ashton Wright, and I have the unique responsibility of serving 
as the City of Lexington, Kentucky's first local food 
coordinator. I manage Bluegrass Farm to Table, a program that 
supports food related agricultural development, and the 
improvement of nutritional health in the region. In today's 
testimony, I will highlight the work happening in Lexington 
around nutrition incentive programs, work that was established 
by pilot funding from FINI.
    I work in partnership with Bluegrass Community Foundation 
to implement our Double Dollars Program, which aims to improve 
access to healthy, affordable, locally grown produce for low-
income individuals participating in the Supplemental Nutrition 
Assistance Program, or SNAP. Simultaneously, the program 
strives to strengthen Kentucky's farm economy by increasing the 
demand for locally grown produce. Based on our pilot project 
experience, we have identified three ways to strengthen the 
FINI program. One, encourage strong multi-sector partnerships. 
Two, increase coordination and collaboration with state SNAP 
offices. And three, develop a community of practice for FINI 
grantees.
    To provide context, one in five Kentucky residents 
participates in SNAP. Additionally, our region faces the 
dichotomy of food insecurity and high rates of obesity. 
Increasing produce consumption is a documented strategy to help 
reduce many of the health outcomes associated with obesity. Two 
of the critical barriers to the purchase and consumption of 
fresh produce among low-income Lexington residents is lack of 
access and affordability. Bluegrass Double Dollars aims to 
reduce these barriers.
    Specifically, our program allow SNAP participants to double 
their purchasing power to buy locally grown produce at three 
pilot locations, a farmers' market, a cooperatively owned 
grocery store, and a corner market. The program provides 
incentives for Kentucky grown produce, coupled with targeted 
community outreach and education to help SNAP participants 
become more familiar with, and more willing to purchase, 
locally grown produce. According to our evaluation data, 90 
percent of respondents said that the program encouraged them to 
purchase more locally grown produce. In the first 6 months of 
our pilot, the average redemption rate of our incentive 
vouchers was nearly 80 percent, and the total value of double 
dollars redeemed for Kentucky grown produce was over $15,000, a 
win-win for SNAP recipients and Kentucky farmers. This last 
year we have learned that there is tremendous value in 
partnering with the Federal Government on nutrition incentive 
programs. It demonstrates commitment to promoting healthy 
eating and reducing food insecurity. Because our pilot 
demonstrates the benefits of healthy eating and supporting 
local farmers, it allows us to partner and leverage support 
with stakeholders and funders in both the health and 
agriculture sectors.
    From our experience, we recommend the Committee consider 
providing USDA with an increase of resources to implement the 
following three recommendations. First, we recommend that 
strong multi-sector partnerships be encouraged in an effort to 
develop sustainable incentive programs that encourage healthy 
eating among SNAP participants. FINI provides a unique 
opportunity for building stronger partnerships between the food 
security and local agriculture sectors by prioritizing projects 
that incentivize locally sourced produce. Future Federal 
initiatives should build on this momentum to improve access to 
healthy, affordable produce, while also strengthening local 
food economies.
    Second, we recommend a more comprehensive approach to 
educating SNAP recipients about where they can use their SNAP 
benefits. Specifically, we recommend incentivizing state and 
local SNAP offices to work collaboratively with grantees to 
help educate SNAP participants about where they can purchase 
produce with their benefits, and encourage them to take 
advantage of these incentive programs, like Bluegrass Double 
Dollars. Cultivating this buy-in from state and local SNAP 
offices is critical to the future success of programs like 
FINI.
    Third, in the spirit of maximizing the impact of Federal 
dollars, we recommend that USDA develop a community of practice 
for organizations implementing incentive programs through FINI 
to share best practices and lessons learned. This peer-to-peer 
technical assistance network would streamline the development 
of resources on which all FINI grantees are working, including 
technology development, logistics, and education. Fostering 
this multi-sector collaboration will maximize the impact of the 
Federal investment in this program.
    I look forward to working with the Subcommittee, and my 
colleagues, to build on the momentum FINI has established to 
bridge the gap between the important work of reducing food 
insecurity and strengthening local food economies. And again, I 
sincerely thank the Chairwoman, Ranking Member McGovern, and 
members of the staff and Subcommittee for the opportunity to 
share our lessons learned from the field today.
    [The prepared statement of Dr. Wright:]

     Prepared Statement of Ashton Potter Wright, Ph.D., Local Food
   Coordinator, Bluegrass Farm to Table, Office of the Mayor, City of
                        Lexington, Lexington, KY
Improving Access to Healthy Food and Supporting Local Food Systems 
        through the Food Insecurity Nutrition Incentive (FINI) Program
Introduction
    Subcommittee Chairwoman Walorski, Ranking Member McGovern, and 
Members of the Subcommittee on Nutrition, it is an honor to be here to 
testify on the Bluegrass Double Dollars Pilot Program--a project 
supported by the USDA Food Insecurity Nutrition Incentive (FINI) 
program. Thank you for the opportunity to share what we have learned 
from our pilot project relating to food insecurity, nutrition, economic 
development, and public-private partnerships. And a special thank you 
to my fellow witnesses for sharing their strategies to reduce food 
insecurity through the implementation of nutrition incentive programs.
    I manage Bluegrass Farm to Table, an initiative of the City of 
Lexington's Office of Economic Development. Bluegrass Farm to Table 
serves as a mechanism to increase coordination and collaboration among 
stakeholders at all levels of the local food system--from production to 
consumption--and to improve the nutritional health in the region. FINI 
presents an incredible opportunity to tackle both of these priorities. 
In partnership with Blue Grass Community Foundation, Bluegrass Farm to 
Table manages the Bluegrass Double Dollars Pilot Program funded by 
FINI. Bluegrass Double Dollars aims to improve access to affordable, 
locally grown produce for low-income individuals participating in the 
Supplemental Nutrition Assistance Program (SNAP). Simultaneously, 
Bluegrass Double Dollars strives to stimulate Kentucky's farm economy 
by increasing the demand for locally grown fruits and vegetables.
    Based on our experience as a FINI pilot project recipient, we 
recommend that the Committee provide USDA with an increase of resources 
to:

  <bullet> encourage stronger multi-sector partnerships;

  <bullet> increase coordination and collaboration with state SNAP 
        offices; and

  <bullet> develop a community of practice for FINI grantees.
Background
    One in five Kentucky residents (828,000) participates in SNAP--the 
majority of whom are children, elderly, or the disabled. 16.4% of all 
households are considered food-insecure.\1\ Additionally, Kentucky has 
the 5th highest prevalence of obesity in the nation (prevalence = 
33.2%).\2\ High rates of obesity correlate with high rates of chronic 
health conditions such as diabetes, hypertension, heart disease, and 
certain cancers. Therefore, it is imperative to continue to find 
solutions to address these problems, particularly among low-income and 
food-insecure individuals.
---------------------------------------------------------------------------
    \1\ Center on Budget and Policy Priorities analysis of data from 
USDA Food and Nutrition Service, FY 2013.
    \2\ ``The State of Obesity: Better Policies for a Healthier 
America'' from Trust for America's Health and the Robert Wood Johnson 
Foundation, 2014.
---------------------------------------------------------------------------
    A documented strategy to help reduce many of the aforementioned 
chronic health conditions is to increase the consumption of fruits and 
vegetables. However, low-income individuals are often unable to locate, 
purchase, and prepare healthier food items. Two of the critical 
barriers to the purchase and consumption of fresh fruits and vegetables 
among low-income Lexington residents are the lack of access and 
affordability. Specifically, access is particularly problematic for 
low-income individuals who live in the pockets of food deserts where 
fresh fruit and vegetables are not available. The fresh fruits and 
vegetables that are available, particularly those that are locally 
grown, are often too expensive for low-income individuals to purchase. 
The Bluegrass Double Dollars program aims to reduce these barriers.
    Kentucky enjoys a rich agricultural history, largely steeped in 
tobacco production. Over time, farmers have begun to transition to 
vegetable production. Most farms in Kentucky are small (under 50 acres) 
and depend on direct-to-consumer markets to sustain their farm 
enterprises. With a ready and growing supply of local produce and other 
farm products, many of these small to medium-sized producers are eager 
to grow their customer base and welcome the opportunity to partner with 
programs, such as Bluegrass Double Dollars.
Bluegrass Double Dollars Pilot Program
    The Bluegrass Double Dollars program is a collaborative public-
private partnership between Bluegrass Farm to Table and Blue Grass 
Community Foundation. The program is designed to make local produce 
more accessible to SNAP participants in the Lexington area while 
expanding the market for local food producers. Specifically, the 
program allows SNAP beneficiaries to double their purchasing power to 
buy locally grown fruits and vegetables at three pilot sites--a 
farmers' market, a cooperatively owned grocery store, and a corner 
store. The program provides incentives for Kentucky-grown produce 
coupled with targeted community outreach and education to help SNAP 
participants become more familiar with and more willing to purchase 
locally-grown produce. According to our pilot project evaluation data, 
90% of respondents said the Bluegrass Double Dollars program encouraged 
them to purchase more locally grown fruits and vegetables and that they 
would be more likely to shop at venues where they know the program will 
be offered.
    This collaborative economic initiative is focused on supporting 
both Kentucky SNAP participants and Kentucky farmers. In the first 6 
months of our pilot, the average redemption rate of our incentive 
vouchers was nearly 80%, and the total value of Double Dollars redeemed 
for Kentucky grown produce was just over $15,000--a win-win for SNAP 
recipients and Kentucky farmers. The pilot program has gained momentum 
as participation and redemption have increased nearly each month the 
program has been in place.
Value of FINI
    The Food Insecurity Nutrition Assistance Program represents a 
unique opportunity to meet the two primary goals of Bluegrass Farm to 
Table-supporting food-related agricultural development and the 
improvement of nutritional health in the region. The architects of FINI 
should be commended for providing multiple levels of funding (pilots, 
projects, and large-scale projects) to develop programs with varying 
scales and scopes as opposed to taking a one-size-fits-all approach. 
The pilot funding parameters afforded our planning team in Lexington a 
great deal of flexibility when designing and implementing our incentive 
program.
    There is tremendous value in nonprofits partnering with the Federal 
Government on incentive programs such as FINI. It demonstrates that the 
Federal Government is committed to promoting healthy eating and 
reducing food insecurity. Having the FINI pilot project grant also 
allows us to leverage support and buy-in from partner organizations to 
help sustain the Bluegrass Double Dollars program. Because our pilot 
demonstrates the benefits of healthy eating and supporting local 
farmers, it allows us to partner with stakeholders and funders in both 
the health and agriculture sectors.
Lessons Learned and Recommendations from the Field
    FINI provides a strong foundation for developing sustainable 
incentive programs to improve healthy eating among food-insecure 
individuals. It also provides a unique opportunity to support local 
food producers. To build on this momentum and to improve future 
iterations of the program, we recommend that the Committee provide USDA 
with an increase in resources to:

  <bullet> Encourage strong multi-sector partnerships;

  <bullet> Increase coordination and collaboration with state SNAP 
        offices; and

  <bullet> Develop a community of practice for FINI grantees.
Encourage Strong Multi-Sector Partnerships
    Strong multi-sector partnerships should be encouraged in an effort 
to develop holistic and sustainable incentive programs that encourage 
healthy eating among SNAP recipients. The FINI program provides a 
unique opportunity for building stronger partnerships between the food 
security and local agriculture sectors because it gives preference to 
projects that incentivize locally or regionally sourced produce. Future 
Federal opportunities should build on this momentum. Practitioners 
working on food security and local food systems should be challenged to 
work with one another to develop creative and sustainable solutions 
that improve access to healthy, affordable, local food while 
stimulating the local and regional food economies. Increased synergy 
between these two sectors has the potential to maximize funding, 
leverage existing resources, and foster multi-sector collaboration.
    Bluegrass Farm to Table and its partner organizations were thrilled 
to see FINI as a provision in the Agriculture Act of 2014 (Farm Bill) 
because it allows for increased collaboration between organizations 
working to address food insecurity and those working to build strong 
local food economies. The key multi-sector partners involved in 
Bluegrass Double Dollars include: a community foundation, a 
cooperatively owned grocery store, a farmers' market, a corner store 
located in a food desert, Cooperative Extension/SNAP Education Staff, 
and the University of Kentucky's College of Agriculture, Food, and 
Environment.
Increased Coordination and Collaboration with State/Local SNAP Offices
    A more comprehensive approach to educating SNAP recipients about 
where they can use their SNAP benefits, particularly places that 
routinely offer healthy, locally produced food is needed. Specifically, 
we recommend that future FINI requests for proposals incentivize state 
and local SNAP offices to work collaboratively with FINI grantees to 
help educate SNAP beneficiaries about where they can use their SNAP 
benefits for the purchase of produce and encourage them to take 
advantage of incentive programs such as Bluegrass Double Dollars. We 
heard stories from program participants that it was not until they 
heard about the Bluegrass Double Dollars Program that they realized 
they could even use their SNAP benefits at the farmers' market and the 
cooperatively owned grocery store. We recognize that educating SNAP 
users about locations where they can take advantage of the incentive 
program is an integral component of the program; therefore, we will 
continue to invest in education and outreach aimed at a wider audience 
of SNAP users in the Lexington.
    Because state and local SNAP offices are tasked with the 
responsibility of issuing and managing benefits, beneficiaries view 
them as a trusted source of information. If state and local SNAP 
offices are incentivized to make healthy eating, especially from local 
and regional markets, an internal priority, SNAP recipients will be 
encouraged to use their benefits for locally grown produce, which 
directly benefits local farm economies. Because all SNAP beneficiaries 
come into contact with their state and/or local office while 
participating in the program, partnering with these offices is a much 
more efficient way to ensure that all possible beneficiaries are 
receiving pertinent information related to available incentive programs 
than grantee organizations operating alone. Cultivating this buy-in 
from state and local SNAP offices is critical to the future success of 
programs like FINI.
Develop a Community of Practice for FINI Grantees
    In the spirit of maximizing Federal dollars and minimizing 
redundancy, we recommend that the USDA develop a community of practice 
for organizations implementing incentive programs through FINI to share 
best practices and lessons learned on a regular and recurring basis. 
This peer-to-peer technical assistance network would streamline the 
development of resources on which all FINI grantees are working, 
including technology development, logistics, and education.
    Developing the appropriate technology to issue and redeem 
incentives is time and resource intensive. Our pilot, and likely 
others, would benefit tremendously from utilizing a standardized 
technology platform that could be easily tailored to different types of 
venues (farmers' markets, retail establishments, etc.) while allowing 
for streamlined incentive issuance, redemption, and reporting/data 
collection. It is our understanding that several of the programs that 
have been implementing incentive programs have experimented with 
various types of technological applications, yet none have found a tool 
that works well for both farmers' market and retail settings. Working 
collaboratively in a community of practice to develop such a tool would 
be tremendously valuable.
    Currently, there is no incentive for grant recipients to work 
together. Establishing a community of practice would ensure that 
Federal resources are being maximized in the most efficient manner. 
Additionally, because many of the pilot projects involve unique 
partnerships, it would benefit the entire group to learn from and 
collaborate with organizations from different sectors. Increased 
coordination and collaboration among government entities, nonprofits, 
and the private sector could have tremendous positive implications for 
the success of SNAP incentive programs.
Conclusion
    In conclusion, while the FINI program provides us with the 
opportunity to bridge the gap between the important work of reducing 
food insecurity and stimulating local food systems, more work remains 
to ensure that future funding opportunities encourage strong multi-
sector partnerships; coordination and collaboration with state/local 
SNAP Offices, and the development of a community of practice for FINI 
grantees. Again, I sincerely thank Chairwoman Walorski, Ranking Member 
McGovern, and Members of the Subcommittee for providing me with the 
opportunity to share our lessons learned from the field.

    The Chairwoman. Thank you, Dr. Wright. Ms. Kiley, we are 
thrilled to have you today, and you can proceed with your 
testimony.

  STATEMENT OF KATHLEEN L. KILEY, CROSSROADS FARMERS' MARKET 
                SHOPPER AND CURRENT SNAP AND WIC
                  RECIPIENT, WASHINGTON, D.C.

    Ms. Kiley. Chairwoman, Ranking Member, and Members of the 
Subcommittee, thank you for having me. I am already really awed 
by what I am hearing, and excited about it as a member that is 
actually using these benefits, and helping my family become 
healthier, building a stronger community, and it is really 
wonderful, so thank you.
    I want to thank you guys for opportunities. There are so 
many opportunities I am thankful for, for a part of a 
community, and a nation, that lets voices be heard, and really 
working with that to change. I have a lot to say about SNAP. I 
have a lot to say about WIC. I know I am not here to talk to 
WIC, but these are things that have taken my family and held us 
up in a time when we really needed it. And that is really 
important for our communities to see. So many of these 
opportunities--I know that we talk about--don't come easily. 
Just the fact that there is a current Subcommittee hearing on 
this lets me know that there is work to be done, right? And 
those programs are always changing, and are always needing more 
eyes and more ears to see them, and to help them, and guide 
them, so I thank you for that. I have been a participant in the 
SNAP program and the WIC program, the WIC program for 4 years--
it is coming to an end as my son turns 5 next month--and the 
SNAP program for at least 3 years. I foresee my time in both 
programs really coming to an end soon. But as I do that, I 
really feel the need to be a conduit for change, a voice for 
really continuing, and letting these things grow.
    Hands down my favorite part about the SNAP program are the 
incentives that I get at the farmers' market. Not only because 
I have really grown a personal relationship with this market, 
but because it is such--hands down, ``I am getting something 
for free,'' right? But to know that I can go to a market, and 
the Crossroads Market allows me to get $15 shared every week 
that I go. They will match that, and it is really important. I 
have used this particular market to feed my family in a healthy 
way through the winter. Literally, there is a beef stick from 
the market in my bag. What I do is I go and I buy items that I 
know are going to last, because I don't have this market in the 
winter. So I go, and I spend all, and I buy things that will 
last, onions, potatoes, meat that I can freeze, and it is going 
to see me through.
    So one of the things that is frustrating is that these 
markets are out there, and, as you said, these can't be used if 
people don't know about them, right? We do find that the 
momentum and the--just hearing that you have this extra money 
to buy fruits and vegetables is really important. But, if you 
don't know about it, finding where these markets are, I find 
that the advertising, or the listing of it on their websites is 
very difficult to decipher. I know what I am looking for, so I 
know what to ask, but there are a lot of people that don't, 
right? I have a food education. I have a relationship with food 
that gives me the knowledge to actually begin to already know 
how to plan meals that are healthy. There are a lot of 
community people that don't know that, right? They haven't been 
brought up that way. My son will be brought up that way, so it 
is different.
    So for me it hasn't affected the health of the way I cook, 
because we were already so healthy, but it absolutely affects 
the ease at how I do it, the quantity of what I do, what I 
cook, and what I purchase for my son, and it has been really 
important. But getting this information out there and 
streamlined--for one example, how many different names do we 
have to have for this program? I mean, Double Dollars, $5, 
Triple Your Money Here, is that something that we want to 
streamline? Is that something that makes more sense? I know WIC 
in Ohio, right? I know WIC in Kentucky. But Double Dollars, do 
I know that is what are we calling it? And that is important 
for people to see, for them to see, the branding. I mean, that 
is how we work, right? I mean, we all know what Pepsi is, 
right? So what is the branding for this?
    You will notice that I am not really reading off of the 
statement, because I don't work as well reading, so one of the 
things I would be really excited to think about using this at a 
grocery store, but one of the things that this actually does 
for me that is important is it takes us out of that large chain 
grocery store, and it takes us into this community with 
farmers, right, with other families that I would never meet. I 
would never meet these families, probably, and their children. 
And it gives you a community with--where things are coming 
from. Now, the farmer might come from 2 hours away in 
Pennsylvania, right, but I see them every single week for 3, 4 
months on a row, right? And they know. ``Hey, Kiley, where were 
you? I haven't seen you for 2 weeks, what is going on? Here, 
give your son an apple.'' Like, that is the kind of thing that 
we need to see, to really get to know people, right? To 
strengthen our communities, and talk about food. So thank you.
    [The prepared statement of Ms. Kiley follows:]

  Prepared Statement of Kathleen L. Kiley, Crossroads Farmers' Market 
      Shopper and Current SNAP and WIC Recipient, Washington, D.C.
Subcommittee on Nutrition,
Committee on Agriculture,
U.S. House of Representatives,
Washington, D.C.

    Dear Subcommittee on Nutrition:

    Let me begin by giving real thanks for so many things, but first 
and foremost for opportunities. Thank you for the opportunity to let 
voices be heard, the opportunity to be part of a system that aids those 
in need, the opportunity to stress less when it comes to feeding my 
family, the opportunity to take part in local community markets that in 
turn create awareness and knowledge.
    Many of these opportunities have not come easily. Just the fact 
that there is a current Congressional hearing in regards to these 
programs lets me know that things are always evolving. My hope is that 
the continued conversation aids in bettering the system for all 
involved.
    I have been a participant in the SNAP and WIC programs for over 3 
years. As I foresee my time in both programs coming to an end I feel 
compelled to stay connected and be a conduit for change where needed.
    I must say that my favorite part about using SNAP and WIC are the 
farmers' market incentives. These incentives give me the option to show 
my son an alternative way of shopping; a way that takes us out of the 
traditional stale settings of our large chain grocery stores and lets 
us create relationships with vendors and neighbors. I do not always 
find the pricing at farmers' markets to be less than our local large 
chain supermarket but I do find the quality to be just as good and the 
lessons in regards to eating more locally, cutting down on shipping 
emissions, and putting growers' faces to products are lessons that will 
help mold a generation of growing children armed with social awareness.
    As mentioned above, sometimes the pricing at a large chain grocery 
store for produce or meat will be less than at a market . . . this is 
where the incentives make an huge difference. Knowing that a certain 
allotment of my monthly benefits can be used at the market and will be 
matched definitely affects my shopping habits, especially during the 
summer months when markets are readily accessible and produce is 
abundant. I am able to use the extra money to buy products that I can 
freeze and use through the winter months.
    I am adamant about making as much as our own food as possible and 
teaching children how things are made. It is wonderful to buy 
ingredients for such foods as applesauce, ice cream, and tomato sauce 
from the market and transform the list into a finished product. This 
empowers children and adults alike to learn how to adapt food to fit 
their likes and dislikes and also leaves little worry as to what 
additives have gone into a finished product. Crossroads Market in 
Takoma Park, MD does a superb job of creating a food demonstration each 
week that is made of items (many times) entirely from the market. This 
has given me the opportunity to learn about and taste new herbs, 
greens, fruits, and vegetables that I would otherwise have to purchase 
first to taste. This is wonderful for children and adults alike.
    As is the case with any program a constant eye on how it is 
evolving and bettering the community must always be there. I have so 
many positive feelings from the market incentive program that is a part 
of SNAP and WIC. In regards to the SNAP program, I do wish that the 
markets were more transparent about the matching benefits that they 
offered. Many times a market site will advertise that they offer these 
incentives but it is difficult to decipher from the site, especially if 
you are not already familiar with the program. Also the site does not 
typically list the matching dollar amount on their website. I was also 
pondering if it would help to have all of the markets offering the same 
amount of matching dollars or if these amounts should be based per SNAP 
recipient and the amount they may receive monthly. I am assuming that 
each of these ideas would be based on a number of factors and one 
important factor is the means by which a market receives its funding: 
private donations or government grants. As it currently stands, the 
ease of this program for participants may be one of its largest draws 
and too much bureaucracy may diminish the participation . . . and we 
would not like that to happen.
    I thank you once again for letting voices be heard, for letting 
families feed their children in a healthy manner, and for helping 
create small communities within this grand United States of America. 
These are the opportunities we dream of providing for our children!
            Sincerely,

Kathleen L. Kiley.

    The Chairwoman. Thank you, Ms. Kiley. Mr. Cooper, please 
proceed.

        STATEMENT OF ERIC S. COOPER, PRESIDENT AND CHIEF
         EXECUTIVE OFFICER, SAN ANTONIO FOOD BANK, SAN
                          ANTONIO, TX

    Mr. Cooper. Chairwoman Walorski, Ranking Member McGovern, 
and Members of the Subcommittee, thank you so much for this 
opportunity to bring you warm greetings from the great State of 
Texas, our Congressional delegation here, and our county 
government, and also our mayor, Ivy Taylor. I am pleased to 
represent the San Antonio Food Bank, which has a great staff 
who work diligently, and a wonderful board, with executives 
from companies like Valero Energy, and USAA, and even our World 
Champion San Antonio Spurs Greg Popovich. So just feel that 
love and support. We are, as a food bank, a member of a state 
association, Feeding Texas, where there are a little over 20 
food banks that work within the boundaries of the State of 
Texas, and we are a part of a national network, Feeding 
America, where there are 200 food banks that work together to 
feed and serve more than 46 million people in need, which 
includes 12 million children and about seven million seniors.
    The San Antonio Food Bank actually serves 16 counties of 
the great State of Texas, and within those 16 counties, we have 
about 530 different partner organizations. They provide food to 
about 58,000 people each week. And we basically frame our work 
into three different areas, food for today, food for tomorrow, 
and food for a lifetime. As clients are in need, that stress of 
being food-insecure, and being without food, they might call or 
come to the food bank. We want to meet that immediate need of 
hunger through a referral to one of our 530 different nonprofit 
organizations. We then want to have a conversation around food 
for tomorrow. And what we do there is help those families with 
application assistance in many Federal programs, to include 
SNAP, WIC, the Children's Health Insurance Program, Medicaid, 
TANF, and long-term care. In that process we are able to work 
with our state to determine eligibility, and we are then able 
to have a conversation around employment.
    In our core belief, we believe that people should work 
according to their ability, and receive according to their 
need, and that opportunity for those individuals receiving 
assistance to take advantage of our workforce training 
opportunities there at the food bank, whether in culinary arts, 
or warehouse training, or just direct job placement, moves them 
to a place of self-sufficiency, and gives them the dollars that 
then they can make decisions on. And we have a very robust 
nutrition education program in that last tier of Food For A 
Lifetime, which is really about educating families on how to 
get the best nutrition for their dollar, and how to leverage 
their dollar to get the best nutrition. We were so privileged 
to be chosen as a FINI grant recipient, and we have launched a 
strategy working with our local Children's Hospital of San 
Antonio, and several clinics, and a major grocery retailer, H-
E-B. And we have identified expecting mothers that are SNAP 
eligible that enter the program, and receive an incentive based 
on participating in a nutrition education curriculum that is 
orchestrated at the store level. Those individuals are taught 
how to shop a grocery store, and leverage the dollars that they 
have.
    Time and time again we see the direct correlation between 
the poverty line and the waste line. San Antonio has high rates 
of diabetes, obesity, heart disease, and we believe in what 
Ranking Member McGovern's mother believed, that the apple a day 
does keep the doctor away, and that families struggle to get 
access to good, healthy food. And there are lots of barriers, 
whether that is income, or knowledge, or geography. The food 
bank is working to try to bring together the partners in public 
and private partnerships to try to remedy that.
    It is humbling when we can provide the right food in the 
right amounts at the right time to someone that is hungry. When 
someone is in need--and we believe that hunger is a symptom of 
poverty, and people that are in poverty have lots of issues, 
but someone that is hungry just has one issue. And until we 
solve that one issue, it is tough to move folks forward to that 
place of self-sufficiency. So thank you so much for the 
opportunity to share just a few thoughts.
    [The prepared statement of Mr. Cooper follows:]

  Prepared Statement of Eric S. Cooper, President and Chief Executive 
            Officer, San Antonio Food Bank, San Antonio, TX
    Dear Chairwoman Walorski, Ranking Member McGovern, and Members of 
the Subcommittee:

    Thank you for inviting me here today. My name is Eric Cooper and I 
am the President and CEO of the San Antonio Food Bank in San Antonio, 
Texas. I am honored to represent Feeding America's network of food 
banks and agencies that, like colleagues here today, work to address 
the nutrition and health needs of those in our country facing hunger.
    The San Antonio Food Bank is one of nearly 200 food banks in 
Feeding America's network, and one of 21 served by Feeding Texas, our 
state food bank association, that helps combat hunger and food 
insecurity across the United States. Together, we distribute more than 
3.7 billion meals each year to more than 46 million people in need, 
including 12 million children and seven million seniors, through 58,000 
food programs including food pantries, soup kitchens, shelters, after 
school and summer feeding sites for children, and other programs.\1\ 
Last year, the San Antonio Food Bank provided around 60 million pounds 
of food and grocery items to needy Texans through more than 530 
nonprofit agencies and a myriad of distribution programs across 16 
counties in southwest Texas. Our service area spans more than 17,500\2\ 
miles and includes urban, suburban and rural areas.
---------------------------------------------------------------------------
    \1\ Feeding America, Hunger in America 2014: National Report. 
August 2014. Available at http://help.feedingamerica.org/
HungerInAmerica/hunger-in-america-2014-full-report.pdf (Accessed Feb. 
1, 2016).
---------------------------------------------------------------------------
    My remarks today will address the important work taking place at 
the San Antonio Food Bank and across the Feeding America network to 
ensure our low-income neighbors receive the nutritious food they need 
to live active, healthy, productive lives. I will discuss our 
commitment to providing nutritious food through all of our distribution 
channels, as well as providing nutrition education to our clients. From 
our experience working directly with clients to help improve their 
healthy eating habits, I will discuss the important role of the Food 
Insecurity and Nutrition Incentive (FINI) program grants to test new 
models in Southwest Texas to incentivize healthy eating among 
Supplemental Nutrition Assistance Program (SNAP) recipients.
    It is important to note that making real progress toward ending 
food insecurity, improving individuals' health, and ensuring 
opportunity for all of our nation's adults and children will require 
sustaining and strengthening the nutrition safety net. Investments in 
SNAP and other nutrition programs are an investment in our country's 
health and education and a productive competitive workforce that will 
pay dividends in years to come.
Background
    The Supplemental Nutrition Assistance Program (SNAP), formerly 
known as Food Stamps, is the cornerstone of our country's efforts to 
alleviate hunger by supplementing the food budgets of low-income 
households. Yet recent studies have shown that the current level of 
SNAP benefits are often insufficient to sustain families through the 
end of the month and have linked the gap in food access to serious 
high-cost consequences, including higher hospitalization rates and 
poorer performance in school. The research suggests that modestly 
higher benefit levels would lead to improvements in food security and, 
in turn, to a wide range of short-run and long-run health, educational, 
and economic benefits.\2\
---------------------------------------------------------------------------
    \2\ White House Council of Economic Advisers. Long-Term Benefits of 
the Supplemental Nutrition Assistance Program. December 2015. Available 
at http://go.wh.gov/SnapReport (Accessed Feb. 1, 2016).
---------------------------------------------------------------------------
    To help meet their nutritional needs, many SNAP recipients still 
turn to the Feeding America network of food banks and emergency food 
programs for assistance in order to cover all household expenses. In 
fact, more than \1/2\ (55 percent) of client households served by the 
food bank network receive monthly benefits from SNAP. Of those 
households not receiving SNAP benefits, almost \1/2\ have never 
applied, most commonly because they did not think they were eligible 
though they may be income eligible.\3\
---------------------------------------------------------------------------
    \3\ Ibid. Seventy-two percent of client households served by the 
Feeding America network not receiving SNAP benefits may in fact be 
income eligible for SNAP based on data provided they provided in the 
survey.
---------------------------------------------------------------------------
    The food bank network has evolved from serving clients in short-
term crisis to providing long-term assistance to those in chronic need 
of food assistance, many of whom are working, but in low wage jobs.\4\ 
Clients now turn to food bank programs on a regular basis. Nearly \2/3\ 
(63 percent) of client households served by food banks report that they 
plan to get food from an emergency feeding program on a regular basis 
to help with their monthly food budget.\5\ Many clients are working, 
though underemployment and stagnant wages persist. More than \1/2\ of 
households (53.9 percent) report at least one person working in the 
past year, with more than \1/2\ of those indicating they are working 
only part-time.\6\ Wages also remain very low. The median monthly 
income of households served by food banks is only $927, and 72 percent 
of households have incomes below the poverty level.\7\ This requires 
critical budget management to cover all expenses, including but not 
limited to housing-related costs, food, clothing, transportation, and 
medical expenses, for all household members.
---------------------------------------------------------------------------
    \4\ Campbell, E., K. Webb, M. Ross, P. Crawford, H. Hudson, and K. 
Hecht. 2015. Nutrition-focused food banking. Discussion Paper, 
Institute of Medicine, Washington, D.C. http://nam.edu/perspectives-
2015-nutrition-focused-food-banking/ (Accessed Feb. 1, 2016).
    \5\ Feeding America, Hunger in America 2014: National Report. 
August 2014. Available at http://help.feedingamerica.org/
HungerInAmerica/hunger-in-america-2014-full-report.pdf (Accessed Feb. 
1, 2016)
    \6\ Ibid.
    \7\ Ibid.
---------------------------------------------------------------------------
    The San Antonio Food Bank, like food banks across the country, is 
an active service provider, partner, and thought leader in our local 
community. Food banks have become central to the economic well-being of 
clients, who often struggle to find regular access to food and are 
considered food-insecure, by providing food, resources and other 
services. Our food bank is committed to addressing the food and 
nutrition needs of our clients. This year, the San Antonio Food Bank 
plans to distribute 65 million pounds of food to more than 319,300 
hungry adults and children as part of a multi-faceted effort to address 
food insecurity in the region. Our efforts rely on the following key 
initiatives:

  <bullet> Food Bank Client Service staff assists approximately 3,000 
        families each month in determining eligibility and completing 
        applications for a variety of Federal aid programs, including 
        the Supplemental Nutrition Assistance Program (SNAP), Temporary 
        Assistance to Needy Families (TANF), Medicaid and the 
        Supplemental Nutrition Assistance Program for Women, Infants 
        and Children (WIC);

  <bullet> The Food Bank's Workforce Development staff conducts client-
        level needs assessments for referrals from Client Service staff 
        for those identified as need job placement or continuing 
        education assistance. The Workforce Program helps unemployed or 
        under-employed individuals, through case management and job 
        readiness trainings (e.g., resume writing, job search, 
        interview preparation and soft skills training), to obtain 
        employment that earns them a living wage;

  <bullet> The Community Kitchen Culinary Training Program provides 
        culinary education and job training to economically 
        disadvantaged community members, helping them gain valuable 
        certifications and job skills needed to secure jobs in the 
        restaurant, hotel or catering industries. The Community Kitchen 
        also provide more than \1/2\ million meals to homeless adults 
        and children every year;

  <bullet> Through a partnership with the Texas Department of Criminal 
        Justice, non-violent offenders at the end of their sentences 
        are offered culinary and warehouse skill training. Individuals 
        are inserted into our Community Kitchen to learn culinary 
        skills and help prepare meals, and in our warehouse to learn 
        relevant trade skills such as using a pallet jack and forklift;

  <bullet> The Food Bank's Nutrition Department educates individuals 
        about how to eat well and be physically active to prevent 
        disease. The team is teaching children at schools how to 
        establish gardens to put them in contact with real food.

  <bullet> The Food Bank's 29 acre Community Garden/Farm is an example 
        of a successful Urban Agriculture, increasing the access to 
        fresh produce to low-income communities affected with food 
        insecurity through the San Antonio Food Bank network. The 
        Garden/Farm produced around 200,000 pounds of fresh produce in 
        2015;

  <bullet> The Kid's Cafe Program provides meals directly to hungry 
        children participating in this community's after school 
        programs;

  <bullet> The Mobile Pantry Program and the Healthy Options Program 
        for the Elderly distribute more than 11.9 million pounds of 
        food a year; and

  <bullet> The Kitchen Table is a client choice food pantry serving 
        approximately 1200 households with monthly access to food 
        assistance providing an average of about 100 pounds of food; 
        the Kitchen Table distributes more than 1 million pounds of 
        food each year which is 50% of the total for Comal County. The 
        Kitchen Table will be moving to a new stand-alone facility that 
        will provide more room for program expansion for the region and 
        will be known as the New Braunfels Food Bank.
Health Challenges of Clients
    In addition to limited household financial resources, we also know 
that many clients touching our food bank network have significant 
health concerns and a high prevalence of diet-related disease. 
According to the most recent national survey of food bank clients, 
nearly \1/2\ (47 percent) reported ``fair'' or ``poor'' health. Across 
the country, 33 percent of client households include at least one 
member with diabetes. For hypertension, the number increases to 58 
percent. The costs of care are also concerning for food bank clients 
and their households. Nationwide, 29 percent of client households 
report having no health insurance coverage, including Medicaid or 
Medicare (Note: The Affordable Care Act went into effect after the 
fielding period of this survey). Recent data show that more than \1/2\ 
(55 percent) of food bank clients have unpaid medical bills. Further, 
\2/3\ (66 percent) of clients have had to choose between buying food 
and paying for medicine or medical care in the past year, with 31 
percent reporting facing this tradeoff every month.\8\
---------------------------------------------------------------------------
    \8\ Feeding America, Hunger in America 2014: National Report. 
August 2014. Available at http://help.feedingamerica.org/
HungerInAmerica/hunger-in-america-2014-full-report.pdf (Accessed Feb. 
1, 2016)
---------------------------------------------------------------------------
    Many of the nation's most prevalent chronic illnesses are diet-
related, including obesity, cardiovascular disease, hypertension, and 
type 2 diabetes. These diseases can be prevented or mitigated by access 
to and consumption of healthful food.\9\ Food bank clients who are low-
income and struggle with food insecurity often struggle with several 
factors that increase their risk of developing chronic diet-related 
health issues and exacerbate these conditions for those who already 
live with them. These factors include limited financial resources; lack 
of regular access to healthy, affordable foods; and limited access to 
basic health care.\10\
---------------------------------------------------------------------------
    \9\ Harvard Law School's Center for Health Law Policy and 
Innovation, Feeding America. Food Banks as Partners in Health 
Promotion: Creating Connections for Clients & Community Health (White 
paper). Available at http://healthyfoodbankhub.feedingamerica.org/
resource/food-banks-as-partners-in-health-promotion/ (Accessed Feb. 1. 
2016).
    \10\ Food Research and Action Center. Why Low-Income and Food 
Insecure People are Vulnerable to Obesity. Available at http://
frac.org/initiatives/hunger-and-obesity/why-are-low-income-and-food-
insecure-people-vulnerable-to-obesity/ (Accessed Feb. 1. 2016).
---------------------------------------------------------------------------
    Our network's collective understanding of how food insecurity and 
nutrition connect and contribute to health outcomes has increased and 
continues to grow. That knowledge helps inform our programs and 
initiatives to help address the full health needs of our clients.
Providing Nutritious Food
    The San Antonio Food Bank and the broader Feeding America network 
is dedicated to helping improve client access to fruits, vegetables, 
lean protein and dairy foods. Food banking began as a ``salvage and 
rescue model'' more than 40 years ago, redirecting food from landfills 
and delivering it to individuals and families in need. Today, the 
Feeding America network has evolved into a much more complex system. A 
diverse mix of food moves through the food bank network, secured from 
many different places including farms, manufacturers, retailers, the 
Federal, state, or local government, food drives and even some food 
purchases. Through all of these sources of food, the Feeding America 
network strives to balance the need of providing enough food while also 
working to ensure that the foods secured are as healthful as possible 
to nourish the millions of people served.
    To secure healthful foods, the network has increased national 
efforts to provide Foods to Encourage, or foods that closely align with 
the 2015 USDA Dietary Guidelines for Americans, at member food banks. 
Foods to Encourage is Feeding America's approach to estimate the 
nutritional contributions of food categories in food banks' 
inventories.\11\ The goal is to have 75 percent of food distributed 
through the Feeding America network classified as Foods to Encourage by 
2025. Of the nearly 4.1 billion pounds of groceries Feeding America 
distributed in 2014, 67.8 percent, or 2.8 billion pounds, were 
categorized as Foods to Encourage. Over the last few years, Feeding 
America has made great strides in increasing the capacity of the 
network to handle fresh foods. This has included a comprehensive array 
of services built around securing and distributing produce, dairy and 
lean protein. As a result, produce is now the number one food category 
of Foods to Encourage distributed--with over 1.1 billion pounds 
distributed, or 38.9 percent of Foods to Encourage.
---------------------------------------------------------------------------
    \11\ Download a list of Foods to Encourage at Healthy Food Bank 
Hub: Tools & Resources. Available at http://
healthyfoodbankhub.feedingamerica.org/resource/foods-to-encourage/ 
(Accessed Feb. 1, 2016)
---------------------------------------------------------------------------
    At the San Antonio Food Bank, \2/3\ of the roughly 60 million 
pounds of food and grocery items in 2014 were classified as Foods to 
Encourage. Overall, \1/3\ of the food, or 20 million pounds, we 
distribute to our partner agencies and clients was produce.
    Securing and storing food is just the beginning, and ensuring that 
it is delivered in a manner that ensures client dignity, choice, health 
and safety is critical. Like the diverse channels of food sources, the 
San Antonio Food Bank and our sister food banks distribute food through 
a multifaceted system, which ultimately gets food to people in need 
through traditional emergency food distributions such as local food 
pantries, soup kitchens, shelters and increasingly through other core 
programs such as mobile pantry programs, senior programs, and child 
nutrition programs.
Helping Clients Improve Healthy Eating
    In addition to procuring and distributing healthy food, efforts to 
pair healthy food access with nutrition education have increasingly 
spread across the network and been central to our work at the San 
Antonio Food Bank. These efforts help individuals and families choose, 
prepare and consume healthful foods.
Nutrition Education and Food IQ
    There is no ``one-size-fits-all'' model for delivering nutrition 
education. Nonetheless, there are some widely accepted nutrition 
education and public health best practices, including, but not limited 
to focusing on specific behaviors rather than knowledge alone; 
involving active participation on the part of the learners through a 
variety of teaching methods; and addressing the motivations, needs and 
interests of the target audience. Food banks and other emergency food 
providers use a wide range of nutrition education strategies--from 
establishing school gardens, teaching healthy cooking and partnering 
with healthcare organizations--to promote healthy food choices in the 
communities they serve. With a new brand--FoodIQ--the SAFB continues to 
direct all efforts to modify the environment and promote health.
    The San Antonio Food Bank has 35 years of experience partnering 
with public, private, for-profit and nonprofit entities to develop and 
sustain regional nutrition and health and wellness initiatives. The 
Food Bank has developed a highly successful, unique approach to the 
provision of nutritional education to thousands of Food Bank clients 
and community participants each year, benefiting age groups ranging 
from infants to schoolchildren and pregnant women to seniors. Examples 
of programs implemented by the Food Bank include:

  <bullet> Raising Healthy Eaters emphasizes proper nutrition and the 
        inculcation of lifelong healthy eating habits at the most 
        critical stages of development, from conception to the age of 
        3.

  <bullet> Diabetes Education Classes (Viva Bien/Live Well with 
        Diabetes) teach participants how to use healthy dietary 
        practices to prevent and manage their diabetes.

  <bullet> Healthy Cooking/Gardening Curriculum is offered at several 
        school districts and charter schools to connect students to 
        real foods while teaching them cooking and gardening skills.

  <bullet> Project HOPE food distribution promotes a healthy lifestyle 
        and improved nutrition for participants over the age of 60.

  <bullet> The San Antonio Food Bank Farmers' Market Association hosts 
        farmers' markets throughout the year in the community and at 
        the Food Bank, increasing access to fresh fruits and vegetables 
        for the community and target families receiving SNAP and other 
        Federal assistance.

  <bullet> Mobile Farmers' Markets procure, package, transport and 
        distribute fresh fruits and vegetables in areas of the 
        community where there is little or no access to healthful 
        produce. Each distribution provides as much as 10,000 pounds of 
        produce to as many as 200 families. On-site nutrition education 
        is also provided.

  <bullet> Promoting Urban Gardening teaches agencies and schools how 
        to establish community gardens and teaches gardening classes.
Healthcare Partnerships
    The San Antonio Food Bank is also partnering with hospitals and 
other healthcare providers with the purpose of stabilizing the lives of 
people affected with food insecurity to help them prevent or better 
manage chronic diseases. Recent developments in the health care 
landscape aim to improve both access to health care and the quality of 
care received. Food banks like ours are well-positioned to help clients 
benefit from these new developments by becoming partners in health 
promotion. As experts in addressing food insecurity, our food bank can 
expand on existing community relationships to craft new collaborative 
endeavors to address food and nutrition needs with both public and 
private insurers as well as providers, including hospitals, community 
health centers, clinics, and private medical practices.
    We are working with the local chapter of the Bexar County 
University Health System to establish a food pantry for discharged 
patients experiencing food insecurity. The hospital will screen 
patients for food insecurity and for those deemed food-insecure, their 
doctor will give them a prescription for produce.\12\ The patient will 
then redeem the prescription at a food pantry on-site in a space being 
renovated by the hospital. The San Antonio Food Bank will staff the 
pantry with a nutritionist who will run the pantry and educate patients 
to help them better manage or prevent a chronic condition. In addition, 
the patient will be referred to the San Antonio Food Bank's client 
services department for assistance signing up for Federal nutrition 
benefits, health insurance benefits and workforce development 
assistance.
---------------------------------------------------------------------------
    \12\ Patients will be deemed food-insecure when they respond 
``often true'' or ``sometimes true'' to these two statements: (1) 
Within the past 12 months we worried whether our food would run out 
before we got money to buy more; and (2) Within the past 12 months the 
food we bought just didn't last and we didn't have money to get more.
---------------------------------------------------------------------------
    However, not all healthcare entities have space for a food pantry. 
So, in the near future the San Antonio Food Bank will be launching its 
``Mobile Mercado'' produce truck. The Mobile Mercado is an affordable 
farmers' market on wheels that can travel to food deserts and other 
locations throughout the city. In an effort to offer fresh produce to 
more patients in need, the San Antonio Food Bank Mobile Mercado will 
partner with different hospitals that do not have room for a pantry. 
Doctors will write a prescription for produce to patients experiencing 
food insecurity. The patient will redeem the prescription at the Mobile 
Mercado while receiving nutrition, health and wellness education, along 
with a referral to our Client Services Department for assistance 
applying for Federal benefits.
    This program is designed to not only help patients currently in 
need to receive healthy food today, but to teach them how to live a 
healthier lifestyle for a more fulfilling future.
Innovations to Improve Client Health
    Below are other innovative programs taking place at food banks 
across the country to help improve client health.
    Nudges: Building on findings from behavioral economics, some food 
banks have made simple changes to food distribution environments that 
``nudge'' clients to select healthier options. Feeding America has been 
working with Cornell University on evidence-based nutrition education 
strategies to help increase the consumption of healthy foods. When it 
comes to food, ``nudges'' or environmental cues such as signage, 
colors, packaging and product placement, have been identified as 
factors that an influence consumer choice and, ultimately, health. An 
example of a nudge intervention for increasing the selection of more 
healthy foods is the front and center placement of a Foods to Encourage 
product, along with signage, that brings that product to the attention 
of shoppers.\13\
---------------------------------------------------------------------------
    \13\ For more information on the use of nudges in the food bank 
network setting, see http://healthyfoodbankhub.feedingamerica.org/
nudges/.
---------------------------------------------------------------------------
    Diabetes Intervention: To determine whether healthy food can help 
low-income people better control their diabetes, a pilot study by UC 
San Francisco and Feeding America tracked nearly 700 people at food 
banks in California, Texas and Ohio over 2 years. The result: better 
diabetes control and medication adherence and an overall improvement in 
the consumption of healthy food.\14\ This research, funded by the 
Bristol-Myers Squibb Foundation, is the first formal evaluation of a 
diabetes intervention for food-insecure people involving the actual 
provision of food. The observational pilot study is now being followed 
by randomized control trials at food banks in Oakland, Detroit and 
Houston by UCSF and Feeding America.\15\
---------------------------------------------------------------------------
    \14\ Seligman, Hilary K., et al. ``A Pilot Food Bank Intervention 
Featuring Diabetes-Appropriate Food Improved Glycemic Control Among 
Clients In Three States.'' Health Affairs 34.11 (2015): 1956-1963.
    \15\ For more information about the diabetes interventions, see 
http://healthyfoodbankhub.feedingamerica.org/resource/health-affairs-
article-a-pilot-food-bank-intervention-featuring-diabetes-appropriate-
food/.
---------------------------------------------------------------------------
Food Insecurity and Nutrition Incentive Grant
    Building on the San Antonio Food Bank's extensive work directly 
with clients to improve their health, the Food Bank applied for and was 
awarded a grant in 2015 through the Food Insecurity Nutrition Incentive 
(FINI) program. The FINI Grant Program supports projects to increase 
the purchase of fruits and vegetables among low-income consumers 
participating in SNAP by providing incentives to use at the point of 
purchase.
    The goal of the San Antonio Food Bank's proposed FINI Pilot Project 
is to determine if a combination of targeted, culturally appropriate 
health education and point of sale incentives can increase the purchase 
and consumption of fruits and vegetables among 200 pregnant and post-
partum SNAP recipients. The San Antonio Food Bank along with local 
grocer H-E-B, Children's Hospital of San Antonio, CentroMed, and 
Goldsbury Foundation are partners in the local FINI grant.
    The proposed FINI Pilot Project is a 1 year pilot project to 
determine the efficacy, scalability and sustainability of an integrated 
model that seeks to make permanent changes in eating behaviors 
(increasing consumption of fruits and vegetables) by providing 
targeted, easily accessed support (shopping assistance, cooking 
classes, purchase incentives) to high risk, highly vulnerable SNAP 
recipients (women and children will be the main beneficiaries).
    The FINI study was designed to be presented to patients of the 
CentroMed Clinic who are being seen for prenatal care. A table tent is 
displayed in the lobby of the CentroMed Clinics to advertise the study. 
Additionally, flyers are displayed at the San Antonio Food Bank and at 
the Food Bank's Mobile Pantry distributions (four scheduled) to 
advertise the research study. New pregnant mothers inquiring about the 
study without an established obstetric physician must establish care 
with a CentroMed Clinic before being included in the study. Eligible 
patients will be 0-20 weeks in pregnancy gestational age.
    The FINI project has several components that will be provided to 
participants over a 9 month period:

  <bullet> Nutritional literacy administered three times during the 
        study participation.

  <bullet> Cooking classes sponsored and conducted by dietitians from 
        H-E-B, our local grocery partner.

  <bullet> Shopping tours sponsored by and conducted by H-E-B 
        dietitians.

  <bullet> Access to a mobile farmers' market sponsored by the San 
        Antonio Food Bank.

    Nutrition education will be provided on topics including: education 
on MyPlate regarding balance and variety, nutritional label reading, 
nutrients list, breastfeeding, post-pregnancy nutrition, and cooking at 
home. This education will be provided by the CentroMed nurse following 
a standard of care appointment. The educational session will last 
anywhere from 5-15 minutes. This may be longer depending on the 
questions and feedback and interest in the topic that the subject has. 
This is a research only educational session. It is not standard of care 
that prenatal patients receive in-depth nutritional information. 
Subjects must attend the monthly educational session to continue their 
participation in the study.
    Participants in the FINI project who complete the required 
activities are given a $40 food card redeemable for fresh produce, 
frozen or canned fruits and vegetables. The incentive food cards are 
provided monthly during study participation. The food card can be 
redeemed at a local grocery store, H-E-B, who has partnered on the FINI 
project.
    The planned study to enroll 200 low-income pregnant and postpartum 
mothers faced a challenge of slower recruitment rate of SNAP 
participants under the proposed criteria than expected. The Food Bank 
has worked with USDA to modify the scope by broadening the target 
population. Initial feedback from study participants show promising 
indications pointing to improved fruit and vegetable purchases and 
improved eating habits. We look forward to continuing this FINI 
project, learning from the results and applying them to strengthen 
similar interventions, going forward.
Second Round FINI Grant Proposal
    The San Antonio Food Bank submitted a subsequent proposal for the 
second round of FINI grants, this time to address the ``grocery gap'' 
problem in two communities of Texas--the Eastside Promise Neighborhood 
of Bexar County in San Antonio, and rural La Salle County. The Food 
Bank will leverage the knowledge and understanding gained operating 
SNAP outreach and education programs during the last 12 years and 
working with food-insecure, low-income communities. For example, since 
2010 we have partnered with multiple community agencies to operate 
Farmers' Markets to ensure those neighborhoods in food deserts--areas 
with little or no access to fresh fruits and vegetables--have access to 
fresh, healthy foods. Five markets operated in 2015 to provide produce 
and products from a diverse collection of local farmers and vendors, 
nutrition education, and on-site demos. The markets are also SNAP and 
WIC certified retailers.
    The FINI project will be implemented in Bexar and La Salle Counties 
using the San Antonio Food Bank ``Mobile Mercado'' to travel to the 
targeted areas to outreach and implement the food, nutrition, healthy 
cooking and health education intervention. The Mobile Mercado is an 
affordable farmers' market on wheels that can travel to food deserts 
and other locations throughout the city. In an effort to offer fresh 
produce to more SNAP participants benefiting from the FINI 
intervention, the San Antonio Food Bank Mobile Mercado will partner 
with different community organizations located in food desert areas 
without access to grocery stores selling healthy foods. SNAP 
participants coming to the Mobile Mercado will receive health 
screenings, nutrition education services and will have access to 
healthy food on site. SNAP participants will receive their monthly 
produce incentive after attending the classes. They will also receive 
information on how to access other Federal benefits in addition to SNAP 
as well as information on the Food Bank's Workforce Program to help 
them find gainful employment. Through a partnership with Baptist Health 
Solutions, we will screen the SNAP population participating in the 
project for health risk factors associated with food insecurity, such 
as obesity, high blood pressure and pre-diabetes.
Conclusion
    The San Antonio Food Bank, like food banks across the country, is 
proactive. We identify challenges facing our clients and our 
communities and we address them head-on. The work we have done over the 
years to improve the health and nutrition of members of our community 
continues to grow. The FINI grant has allowed us to address even more 
community nutrition challenges by working with new partners in a new 
context to improve the health of targeted or selected SNAP recipients 
through the use of nutrition incentives. We do not do this work alone. 
We have long-standing and effective partnerships with local, state and 
national public and private organizations, are increasing partnerships 
with the healthcare sector, and have fostered targeted partnerships 
around the FINI grants.
    While the FINI grants are important for developing learning to help 
encourage nutrition, ensuring benefit adequacy is critical. The SNAP 
program has successfully improved the nutritional needs of millions of 
low-income individuals. Congress should protect and strengthen the SNAP 
program and improve SNAP benefit adequacy for all recipients. This will 
further help households build on the knowledge gained through nutrition 
education and programs like the FINI grants, and ensure they have the 
resources they need for an adequate, nutritious diet. Working together 
with Federal, state, and local partners and the clients we serve, we 
can ensure all of our neighbors have the nutrition they need.
    On behalf of the San Antonio Food Bank, Feeding Texas, Feeding 
America, our partner agencies and the people we serve, I thank you for 
your time and attention. I encourage you to strengthen SNAP and other 
nutrition assistance programs to help ensure low-income individuals 
have the resources they need for adequate, nutritious food. And if you 
have not already, I encourage you to visit your local food bank to see 
first-hand the great work they do. Thank you.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Eric S. Cooper,
President and CEO,
San Antonio Food Bank.

    The Chairwoman. Thank you, Mr. Cooper. Ms. Petee, please 
proceed. Can you turn your microphone on?

  STATEMENT OF BARBARA J. PETEE, EXECUTIVE DIRECTOR, THE ROOT 
              CAUSE COALITION; CHIEF ADVOCACY AND
            GOVERNMENT RELATIONS OFFICER, ProMedica,
                        WASHINGTON, D.C.

    Ms. Petee. Good morning, Chairwoman Walorski, Ranking 
Member McGovern, and Members of the Nutrition Subcommittee. It 
is my pleasure to be here today as the Executive Director of 
The Root Cause Coalition, as well as the Chief Advocacy Officer 
for ProMedica, a Toledo, Ohio based nonprofit health system 
that serves 27 counties of northwest Ohio and southeast 
Michigan. I have spent the better part of my career working 
with clinicians, administrators, policymakers, health care 
leaders, and community partners to address health disparities 
in ProMedica's service area. As we battled epidemics of low 
birth weight, childhood obesity, diabetes, heart disease, 
cancer, and other chronic diseases, we, like many health care 
providers across the country, began to ask, why? Why are we 
seeing such high rates of these issues in our community?
    From this simple question, ProMedica began a journey that, 
in partnership with the AARP Foundation, founded The Root Cause 
Coalition, to bring the full power of the health care community 
to bear in addressing the social determinants of health, with 
specific focus on hunger as a health issue. If I have learned 
anything from this work, and this is the most important thing 
that I hope the Committee will take away from my short time 
with you today, is that hunger is a health issue, and food is 
the best medicine.
    It is because of this indisputable fact that the work of 
the Subcommittee to strengthen our nation's nutrition policy is 
so vitally important. Your work on these basic building blocks, 
especially the SNAP Program, have far-reaching impacts on many 
issues at the foundation of a strong future for our country. 
Proper nutrition, especially during an individual's 
developmental years, has a direct impact on the long-term 
productivity, economic status, and health of that individual, 
and ultimately entire communities. The programs overseen by 
this Committee are about more than the immediate needs of 
hungry children, adults, and seniors. These programs are core 
investments in the health and well-being of your constituents, 
and our nation's ability to adapt to an ever-changing global 
economy.
    As a nation, the health care community in particular are 
coming to terms with the realization that the social 
determinants of health, especially access to proper nutrition, 
have a direct impact on an individual's health. Lack of access 
to proper nutrition not only leads to and exacerbates a plague 
of chronic physical and mental health conditions, but it also 
impedes brains development, educational outcomes, and economic 
viability. It limits access to safe, affordable housing and 
transportation, and leads to disciplinary and public safety 
concerns. Proper nutrition is the cornerstone of our ability to 
ensure the lifetime health of individuals, communities, and our 
nation. Without it we cannot hope to have a lasting impact on a 
litany of other social determinants affecting community health.
    But this is more than just an altruistic discussion, it is 
about dollars and cents. The cost of hunger to the health care 
community alone totals nearly $130.5 billion every year, and 
the cost to every U.S. citizen over a lifetime is on pace to 
reach roughly $42,400. We know that ensuring pregnant women 
have access to nourishing food throughout pregnancy increases 
the chance for a full term, healthy weight baby. To put that in 
perspective, in 2008 approximately ten percent of births 
nationwide included a diagnosis of pre-term or low birth 
weight, but those births accounted for nearly 45 percent of all 
infant hospitalization costs, or over $10 billion. These low 
birth weight and pre-term babies are also at a greater risk of 
delayed development, chronic disease, and a lifetime of poor 
health.
    We know that hunger is a health issue, we know that food is 
the best medicine, and we know that the SNAP Program is helping 
to address the immediate needs of the most vulnerable in our 
communities. We also know that Congress, and programs such as 
SNAP, are not, and should not, be the only solution. SNAP is an 
essential safety net that must remain strong to ensure the most 
vulnerable in our communities do not fall through the cracks. 
But the health care industry must be part of a more permanent 
solution to addressing basic needs as well. That is why we at 
ProMedica have begun to screen patients for food insecurity in 
our acute care and physician office settings. We have food 
pharmacies that replace the cycle of medicine being used to 
treat conditions that nutritious food can treat more 
effectively. ProMedica has even eliminated a food desert in 
Toledo's inner city by opening a 5,000 square foot grocery 
store that is now being used as a model not only for food 
access and affordability, but for job training and economic 
growth. And through The Root Cause Coalition, we are working 
with organizations across our community, and across the 
country, that showcase creative, effective partnerships in 
addressing food insecurity, nutrition education, and even 
economic development so that every citizen can reach his or her 
highest potential. Thank you for your time this morning.
    [The prepared statement of Ms. Petee follows:]

 Prepared Statement of Barbara J. Petee, Executive Director, The Root 
   Cause Coalition; Chief Advocacy and Government Relations Officer, 
                      ProMedica, Washington, D.C.
    With more than 17.5 million U.S. households facing hunger--or one 
in every seven households nationwide--healthcare systems and leaders 
must recognize that lacking nutritious food to eat is a dire public 
health concern. Food insecurity and its results, including true hunger, 
is a health issue causing distress in communities nationwide by taking 
a toll across the age spectrum.
    Hunger is a problem healthcare providers see every day among 
patients of all ages in emergency rooms, clinics, offices, and hospital 
beds. Babies born to malnourished mothers may be underweight, have 
developmental delays and continue to have health problems throughout 
life. Children experiencing food insecurity, meaning they live in 
households that at times are unable to acquire adequate food, are more 
likely to have behavioral health issues such as anxiety and depression. 
These children may also be at higher risk for developing chronic health 
conditions, including anemia and asthma.
    Among the elderly, another particularly vulnerable group, 
malnutrition increases disability and decreases resistance to 
infection. Both not only harm quality of life, but they extend hospital 
stays. People who are food-insecure often have irregular eating 
patterns, which can lead to being overweight and obese. Additionally, 
people facing food insecurity typically consume food with fewer 
nutrients, so they have dietary shortfalls linked to the development of 
hypertension, diabetes and other chronic diseases.\1\
---------------------------------------------------------------------------
    \1\ Addressing Hunger to Essential to Improving Health, Partnership 
to Fight Chronic Disease and ProMedica, March 2013.
---------------------------------------------------------------------------
    ``For critically and chronically ill people, food is medicine,'' 
opens a Harvard Law School Center for Health Law & Policy Innovation 
paper presenting the case for nutritional counseling and medically-
tailored, home-delivered meals. ``With adequate amounts of nutritious 
food, people who are sick have a better response to medication, 
maintain and gain strength, and have improved chances of recovery. 
Ultimately, access to healthy food leads to improved health outcomes 
and lower healthcare costs.''
    With the Affordable Care Act (ACA) changing the way the healthcare 
industry does business, hospital administrators and physicians must 
look beyond our four walls more than ever before in modern medicine. 
Preventing illness, improving population health and eliminating health 
disparities are critical for the shift both for clinical and social 
reasons. In many ways, the healthcare industry, while accelerating as 
necessary in technology to deliver state-of-the-art care that helps 
ensure safe and affordable care, must concurrently return to its 
charitable roots of more than a century ago, when hospitals were 
community pillars concerned with basic public health needs and overall 
health and welfare. The industry needs a unified system of common goals 
that builds from the fundamentals of health and wellness that value 
one's overall health.
    Incentive models that make the healthy choice the easy choice are 
critical to improving the health status of our citizens. By increasing 
access to nutritious and affordable food, we can have a significant 
positive impact on health while at the same time decreasing healthcare 
costs.

                                           Hunger Is a Health Issue 2
                                  Breaking Out the Health Care Costs of Hunger
                 (Costs of hunger-induced illnesses, 2007 and 2010, in billions of 2010 dollars)
----------------------------------------------------------------------------------------------------------------
                                                                                             Increased cost over
           Adverse health condition                     2007                  2010                 3 years
----------------------------------------------------------------------------------------------------------------
    Poor health (excluding items below)                   $28.7                  $38.9                 $10.2
2 Shepard, D., Setren, E., and Cooper, D.
 Hunger In America: Suffering We All Pay For,
 Center for American Progress, October 2011.
                             Depression                    $2.2                  $29.2                  $7.1
                                Suicide                   $15.8                  $19.7                  $3.9
                                Anxiety                   $12.9                  $17.4                  $4.5
                       Hospitalizations                   $12.1                  $16.1                  $4.0
       Upper gastrointestinal disorders                    $4.2                   $5.7                  $1.4
  Colds, migraines, and iron deficiency                    $2.5                   $3.5                  $1.0
                                              ------------------------------------------------------------------
  Total illness costs caused by hunger.......             $98.4                 $130.5                 $32.1
----------------------------------------------------------------------------------------------------------------

    The healthcare industry must not only deliver clinical excellence 
and efficiency, we must hone in on how we can act as catalysts, 
innovators and leaders to improve the health of our entire communities. 
ProMedica has taken steps to improve nutrition and access to healthy 
foods that are a great complement to the nutrition incentive programs 
offered by the USDA.
    As our industry battles epidemics of low birth weight, childhood 
obesity, diabetes, heart disease, cancer, and other chronic diseases--
we, like many healthcare providers across the country, began to ask 
why. Why are we seeing such high rates of these issues in our 
community? From this simple question--ProMedica began a journey that, 
in partnership with the AARP Foundation, founded The Root Cause 
Coalition to bring the full power of the healthcare community to bear 
in addressing the social determinants of health.
    That is why the work of this Subcommittee to strengthen our 
nation's nutrition policy is so vitally important. Your work on these 
basic building blocks, especially the SNAP program, have far reaching 
impacts on a plethora of issues at the foundation of a strong future 
for our country. The programs overseen by this Committee are about more 
than the immediate needs of hungry children, adults, and seniors. These 
programs are core investments in the health and well-being of your 
constituents and our nation's ability to adapt to an ever changing 
global economy.
    We know that hunger is a health issue, we know that food is the 
best medicine, and we know that the SNAP program is helping to address 
the immediate needs of the most vulnerable in our communities. We also 
know that Congress, and programs such as SNAP are not--and should not--
be the only solution. SNAP is an essential safety net that MUST remain 
strong to ensure the most vulnerable in our communities do not fall 
through the cracks. But the healthcare industry must also be part of a 
more permanent solution to addressing basic needs, as well.
    That is why we--at ProMedica--have begun to screen patients for 
food insecurity in our acute care and physician office settings. We 
have food pharmacies that replace the cycle of medicine being used to 
treat conditions that nutritious food can treat more effectively. 
ProMedica has even eliminated a food desert in Toledo's inner city, by 
opening a 5,000\2\ grocery that is now being used as a model not only 
for food access and affordability, but for job training and economic 
growth. And, through The Root Cause Coalition, we are working with 
organizations across our community, and across the country, that 
showcase creative, effective partnerships in addressing food 
insecurity, nutrition education and even economic development, so that 
every citizen has the opportunity to reach his or her highest 
potential.
    In partnership with all sectors, the healthcare industry must make 
fundamental changes. As key economic drivers in most communities, we 
should use our might to improve population health through an array of 
collaborations and innovations targeted to meet each community's needs. 
Health care must be integrated and focus on the most common social 
determinants, starting with nutrition and hunger, to ensure Americans 
have what they need to live productive lives. Strategic, purposeful and 
intentional changes can create an improved model to deliver better 
public health care.

    The Chairwoman. Thank you, Ms. Petee. Ms. Kiley, I am so 
thrilled that you are here to tell us real life, real time, 
exactly how this works, and how it has impacted you. So my one 
question is: I am just thinking about it, because in northern 
Indiana, where I live, I shop at a farmers' market too, and I 
think about: knowing the growers, knowing the farmers 
personally when you go through, picking seasonal stuff. But I 
am also thinking about it from the standpoint that you already 
are so far advanced in the issue of cooking, preparing this 
stuff, raising your son, eating healthy, do you come across 
people, when you are in the market, that have no idea what to 
do with this food, how to cook it, how to prepare it, asking 
themselves is it worth the hassle of coming home, and then 
trying to figure out how to prepare this food? Do you come 
across people that really are puzzled? And my follow up to that 
is, are there resources available for people that don't know 
how to prepare this food? Like, I can't imagine a lot of people 
walking in for the first time, buying a bunch of raw fruit and 
vegetables, thinking, what am I doing with these when I get 
home, other than boil them?
    Ms. Kiley. Well, thank you for letting me be here. I think 
there are two things there. One, an apple a day keeps the 
doctor away. Let us really think about that. Does an apple a 
day keep a doctor away because all of a sudden we eat an apple 
a day, and it is a miracle? No. An apple a day keeps the doctor 
away because we are setting habits, right? Because we are 
setting a habit of not grabbing a bag of potato chips, or even 
pretzels, right? I opt for a pretzel because it is a little 
better, right? So setting these habits are what is keeping the 
doctor away, right? Really, this foundation, having that 
available. I can't tell you how many mothers say to me, my 
child won't eat that. I bet he will. I bet he will. I bet you 
can go through a stage of a lot of pissing and moaning, but I 
bet he will, right?
    So how do we set these habits? One of the things that 
Crossroads does, and a lot of other markets do, is they have a 
food demonstration, and the food that they are preparing is 
minimally processed, meaning even cooked, right? There are a 
lot of raw salads that are quick and easy, and you add 
something like honey, or maple syrup. Almost everything, if not 
everything, is from that market. So those food demonstrations 
are really great. They are fun for the children. I see so many 
children try things such as jicama that they would never, ever 
try.
    The Chairwoman. But is that education available there at 
the market?
    Ms. Kiley. That education is something they do at every 
market.
    The Chairwoman. Okay.
    Ms. Kiley. And so they do it once a week. I don't think I 
have ever been there and not seen a little food demonstration. 
And it is there the whole 4 hours of the market, which is 
really great. Is it enough? Probably not, no. Are there free 
cooking classes around? Probably not a lot. But that is part of 
conversation, right? And part of the other thing, as a mother, 
that has more of this ability, is knowing how to talk to other 
people. And it doesn't mean I accost people at the market and 
say, what are you buying? What are you making? Do you even know 
how to cook that? You know, no, but part of it is--I have 
learned how to cook herbs that I would never buy, right? It is 
a largely--there is a large Hispanic community that attends 
this market, and there are foods that I would never have seen, 
right? And every Wednesday my son eats a pupusa. It is amazing. 
So part of it is, yes, it is a difficult hurdle, a really 
difficult hurdle.
    The Chairwoman. I appreciate it. And let me ask Dr. 
Hesterman really quickly----
    Ms. Kiley. Please.
    The Chairwoman.--I live in northern Indiana with strong 
winters, January, February freezes that we are in now. So what 
do you do about the seasonality issue in Ann Arbor, Michigan? 
You are a fellow Midwesterner, not like our friends from Texas, 
when you have sun in the wintertime. What do you do, then, in 
the middle of winter, when the farmers' markets--and even the 
one I attend in northern Indiana, has crafts and things moving 
in for the winter because there is no fresh food? How do you 
handle that with your program?
    Dr. Hesterman. So for most of the markets so far the 
program starts around beginning of June, and ends either end of 
October or end of December. We are just now starting to 
experiment with some year-round programs. So there are ten 
farmers' markets now throughout the state, including in 
Detroit, including in Flint, Michigan now that are running 
year-round. And it is a combination of products coming from 
hoop houses from the farmers, some products that have been 
stored, but certainly the amount of locally grown is much 
reduced.
    In the grocery store setting, we are going to start next 
year with some experiments with year-round, and seeing if we 
can get a combination of locally grown and produce that are 
grown in other places by other growers, because we know 
families need fruits and vegetables year-round, not just during 
the northern growing season.
    The Chairwoman. I appreciate it. And just quickly, Dr. 
Wright, in the Bluegrass Farm To Table, the public-private 
partnership, was it easier to get private dollars for the FINI 
grant because you actually had an established program that you 
could say to the community, we just need partnership with this? 
Was it a relatively easy partnership?
    Dr. Wright. Absolutely. I would say our pilot is unique 
because it is the Municipality of Lexington partnering with our 
very successful community foundation in Lexington. So we both 
kind of bring really a unique partnership together, so melding 
those partnerships was critical. And it allowed us, with the 
FINI money, to leverage just over $10,000 in public and private 
money through the community foundation's networks, and through 
local ag and health sectors as well.
    The Chairwoman. I appreciate it. Thank you so much. Mr. 
McGovern.
    Mr. McGovern. Well, thank you very much. Let me thank you 
all for your testimony, and also thank you for all of the work 
that you do, and all the advocacy. This is all very, very 
inspiring, and we all appreciate all that you do. We know that 
hunger and health are inextricably linked. We know that hunger 
and food insecurity is associated with higher rates of 
depression, cardiovascular disease, high blood pressure, 
diabetes, and other physical and mental health conditions. And 
we also should know that food assistance programs, such as 
SNAP, save money in the long run by improving educational and 
health outcomes. Quite frankly, I am one of the people who 
believes that the benefit we provide is inadequate, and we need 
to do better on the Federal level in terms of that.
    But the private monies and the innovation that you have all 
brought to this are very, very encouraging. Incentive programs 
like the ones that you are involved with rely heavily on a 
strong Federal partner. You have a commitment to SNAP funding 
to ensure that low-income individuals who are eligible for SNAP 
get the benefit that can then be used in your programs. But, I 
remain--I say this at every one of these hearings--I am deeply 
concerned about where we are going as a Congress on all this 
stuff. I am worried that we may be headed down a pathway that 
could do significant harm to SNAP, that we might consider 
proposals that would fundamentally change the basic structure 
of SNAP, and/or cut the benefit dramatically. Can any of you 
comment on the impact that a cut to SNAP would have on your 
programs? Would your programs be able to survive if Congress 
would fundamentally change SNAP, or cut it? I am open to 
anybody.
    Ms. Petee. Thank you, Congressman. I think it would have a 
devastating impact, obviously, and, to your point, the fact 
that those programs exist are what help us complement, and make 
sure that the SNAP Program, and WIC, and other programs do 
work. If those programs were cut, and people did not know where 
to go, or how to access those critical nutritious foods, our 
programs wouldn't have a reason to exist, and it would be 
really going out almost on a door to door basis, which, 
obviously, is not tenable.
    There is an adage that you can teach a man to fish or give 
him a fish, and it is much better to teach him how to fish. I 
like to add that we have to find the pond in the communities, 
and we have to make sure that we identify that there is a pond 
in which people can go and do their fishing. And education for 
so many of these people who have been born into poverty, and 
can't break that cycle until they get the proper education and 
access, is critical. So reducing SNAP would have a devastating 
impact.
    Dr. Hesterman. I would just say that what these incentive 
programs are doing is demonstrating that we can take a program 
that has been designed primarily as an anti-hunger program and 
turning it into an anti-hunger and pro-health program at the 
same time. I like to say you can pay the farmer now or the 
doctor later. And so the integration of the incentive programs 
with a strong SNAP Program is absolutely critical to the 
success of both.
    Mr. McGovern. Mr. Cooper?
    Mr. Cooper. Yes, Ranking Member McGovern. Yes, we would not 
be able to make up any ground when it comes to a SNAP cut, from 
a food bank perspective. All that we do to provide food to 
people, 40 percent of that is produce, but just a minor 
adjustment in a cut to SNAP would set us back, and we would not 
be able to recover.
    I would like to add on to that that parable of give a man a 
fish, teach him how to fish, that if he doesn't know that you 
pack tuna fish sandwiches, he won't meet you at the dock, 
right? He can't. He would love to learn, but we all know a 
child can't learn when they are hungry, nor can an adult. And 
SNAP provides such nourishment that we can complement that. I 
share your views that it is not enough, and we need to be doing 
more to strengthen SNAP to adequately nourish those families in 
need.
    Mr. McGovern. I appreciate that. I raised the point just to 
put everybody on notice that moving down a pathway to reduce 
the benefit, or somehow re-imagine this whole program is not a 
good idea. We need charities, and we need private monies, and 
we need these partnerships, but they can't make up the 
difference. We need a strong Federal partner in this if we are 
going to do this right, and I appreciate all your testimony. 
Thank you.
    The Chairwoman. Mr. Crawford, you are recognized for 5 
minutes.
    Mr. Crawford. Thank you, Madam Chair. We hear this term 
food desert quite a bit, and it characterizes an area with 
limited access to healthy foods, but there is a difference 
between urban and rural food deserts that probably we don't 
talk about very often, and I represent a very rural district. 
According to USDA, an urban food desert is an area that is 1 
mile or more from healthy food providers, but if you live in an 
area like I do, in rural America, you may live 10 miles or 
more, and in remote areas, it is even worse than that, from 
your nearest grocery store or farmers' market.
    So apart from the obvious geographic differences between 
urban and rural food deserts, can you discuss the distinct 
challenges that urban and rural food deserts present, and how 
that might merit a different response from both policymakers 
and those on the ground like yourselves? And anybody is welcome 
to weigh in on that, whoever wants to go first.
    Dr. Wright. So I will just make a couple of quick points. I 
do think Lexington is a population center surrounded by a 
really interesting mix of rural communities. And so often in 
Lexington, SNAP shoppers and just Lexington residents, there is 
a big disconnect between the food they purchase at the farmers' 
market, or the grocery store, and where that food is produced. 
I think the FINI program, for us, allows us to bridge that gap, 
and helps educate SNAP users by using farmers as that tool to 
educate them. My farm is 15 miles away, I picked it this 
morning, here is how you can prepare it. Farmers' markets 
represent a really unique opportunity to get at that issue.
    I will say another challenge that we have identified that 
you spoke to about in our urban center, transportation to the 
venues where these incentive programs are being offered is a 
huge barrier. Getting folks to the farmers' market, and to the 
cooperatively owned grocery store. So we are partnering with 
our Health Department on a funding mechanism they received to 
provide vouchers for transportation to get folks to these 
markets.
    Dr. Hesterman. In Michigan we have actually looked 
specifically at the comparison of the Double Up Food Bucks 
Program in urban and rural settings, and, in fact, in the 
packet that we gave you, one of the appendices is a paper that 
we put together, specifically, on the rural experience with 
Double Up Food Bucks. What we are finding is, while the program 
operation works whether you are in an urban or rural setting, 
right now we are finding, in Michigan, faster growth of the 
program in our rural communities and rural markets than we are 
in our urban settings. And that is not what we had expected, 
but we are just finding the uptake on the program in rural 
markets and rural communities actually is going much faster 
now.
    Mr. Crawford. That is encouraging, and I will just say that 
I represent a big part of the Mississippi River Delta in east 
Arkansas, and the irony of food production there, I guess, is 
that it is one of the most productive regions in the world, 
rice, cotton, corn, wheat, soybeans, milo, and so on, but very 
little production of anything else. And so farmers' markets 
have been a little bit slow in response to the need there, 
based on healthy food choices.
    Now, I am a big advocate of rice, but the reality is, year-
round you need healthy food choices. And, unfortunately, what 
we are relying on heavily are convenience stores in small 
towns. Please talk about the need for incentives for healthy 
food choices, which has been addressed to some degree on the 
preventative measures, making good healthy food choices versus 
the challenge of accessing that on a year-round basis. And 
particularly in the, ironically, under-served rural areas, 
where they can't get those kinds of food choices on a year-
round basis.
    Mr. Cooper. I was just going to comment, we suffer from 
that same irony, representing Crystal City, which is in Zavala 
County. It is known as the spinach capital of the world. Del 
Monte has a canning facility there, and Zavala County has one 
of the highest rates of childhood hunger in the U.S. So where 
food is grown, they lack access, so it is variety. That 
opportunity to provide that variety when transportation limits 
are in place is a challenge. And I totally agree with your 
comments around trying to create opportunities where people can 
get greater access.
    Mr. Crawford. Thank you. I yield back Madam----
    Ms. Petee. I will just----
    Mr. Crawford. Go ahead.
    Ms. Petee. I will just underscore what the others have 
stated, that we see the same challenges in our rural 
communities. Again, in southeast Michigan, we have received a 
USDA grant for a veggie mobile that actually goes from spot to 
spot in the rural communities because of transportation, and, 
to your point, the irony of living in a farmland, and not 
having access to the fresh fruit that is being grown around 
you. So it is a challenge. The incentives are critically 
important, and the education that goes with these programs is 
really essential. People do learn how to prepare foods that 
they have been unfamiliar with because they didn't have access 
to them. They learn how to stretch the dollar, stretch the 
food, make different meals, and make it last. So it is very 
important.
    Mr. Crawford. Thank you.
    The Chairwoman. Mr. Aguilar, you are recognized for 5 
minutes.
    Mr. Aguilar. Thank you, Madam Chair. Mr. Cooper, in my 
district, farmers' markets that participate in SNAP have, at 
times, encountered challenges. And I wanted to ask about your 
experience with this. And despite efforts, I read in your 
testimony, your knowledge of these issues, and I wanted to see 
what do you think might be the cause? Despite our best efforts, 
and some of our recruitment for these farmers' markets, and 
offering that access to folks, what can we do to improve that 
access? And I have some questions for Dr. Hesterman and Dr. 
Wright as well.
    Mr. Cooper. Well, thank you so much for the question. We 
are so privileged to actually facilitate six farmers' markets 
throughout our community and participate in the WIC Farmers' 
Market Program, and the Senior Farmers' Market Program. The 
challenge for some of our clients is that the markets might not 
be geographically close, and the affluence, the shoppers, and 
the price points. And so we really try to bring back that 
concept of a fruit stand. Making it more about agriculture, 
making it more about value, so that the clients are able to get 
the most produce for that investment. They don't feel like the 
dollars they spend are equal to retail, and that the quality is 
equivalent, and the local aspects, and organic, and those kind 
of things, they wouldn't utilize the benefits. And so we have 
really worked to kind of streamline bringing those markets to 
those communities.
    And I am reminded of a woman that received a watermelon in 
our agricultural belt, the Winter Garden, a lot of watermelons 
are produced, and one of the farmers brought up a watermelon. 
And the mom broke open the watermelon and gave it to her kids. 
And the kids didn't really look like they liked it. And I was 
like, they don't like watermelon? And she said, well, they have 
never had it. And I am like, are you serious? They have never 
had watermelon? She said, well, I don't have a car, I have to 
take the bus. And a gallon of milk weighs 8 pounds, so it just 
seemed impossible to carry one of those home. And so that is 
where diet is impacted. That is where the variety of access is 
impacted, by these barriers that you wouldn't think of.
    Mr. Aguilar. True. Thank you. Dr. Hesterman and Dr. Wright, 
your matching programs are incredibly interesting to read 
about. In southern California, my district is different than 
Mr. Crawford's, but to follow up what the Chairwoman had 
mentioned as well, the philanthropic efforts are huge, and a 
huge component to what you have described where they matched. 
Dr. Wright, you mentioned that they have been matched with 
public dollars, as well as private. Who was the first money in? 
Who were the first folks? Was it $5,000, or $10,000, or was it 
bigger denominations? Please talk to me about the mix of the 
public and private from the matching perspective.
    Dr. Wright. Sure. So, really, our fundraising efforts, 
aside from FINI, really started at the grassroots level, so it 
really started on a smaller scale, targeting interested bodies 
of individuals who may be supportive of programs like this. So 
we partnered with local restaurants to do some interesting 
fundraising with them, donating a percentage of their purchases 
to the Double Dollars Program. We did some community outreach 
activities at some of the venues, like the farmers' market. We 
did an unlimited doubling event, and actually did a watermelon 
sampling that day, and asked for donations. So patrons at the 
farmers' market who were regular shoppers could have the 
opportunity to donate there.
    So it really started with that grassroots level. That, 
coupled with the FINI money allowed us to approach larger 
organizations, like our Farm Credit agency, and health care 
organizations. So we kind of started at the grass roots, and 
are slowly building to approach larger funders.
    Dr. Hesterman. So in my case I had an advantage that not 
all of my colleagues in the field have, and that is that I 
spent about 17 years as a Program Director at the W.K. Kellogg 
Foundation, actually funding programs in food systems and rural 
development. And, in fact, the very first funding that ever 
went to the Crossroads Market, where Ms. Kiley now shops, came 
from our program at Kellogg Foundation. And I thought it was 
such a cool idea that I followed it throughout the years, and 
when we founded Fair Food Network, I decided, let us try this 
in a state that really needs it, that doesn't have any kind of 
incentive program.
    But at that time, raising money from foundations, for me, 
was talking with my friends and colleagues, because I had been 
in the field so much. So we actually went after some pretty 
significant dollars from some of the larger foundations, and 
that is how we got it started in Michigan, was with 
philanthropic dollars, and ran it for about 5 years, solely 
based on funding from about 50 different foundations. Some of 
the large private foundations, like Kellogg and Kresge 
Foundations, but some of the smaller foundations, Battle Creek 
Community Foundation, Jackson County Community Foundation--what 
I have found is that this incentive work is some of the easiest 
work to raise money for in the philanthropic community because 
the people get it. It is a win-win-win. This investment of $1 
is leveraging so much impact. And it is important to say that 
now that we have the match from the Federal Government, that--
it has brought on board many, many more philanthropic resources 
because they can see their funding being leveraged as well.
    Mr. Aguilar. Thank you so much. Thank you, Madam Chair.
    The Chairwoman. Mr. Benishek, you are recognized for 5 
minutes.
    Mr. Benishek. Thank you, Madam Chair. Dr. Hesterman, thanks 
for being here today.
    Dr. Hesterman. You are welcome.
    Mr. Benishek. We have 21 markets in my district in northern 
Michigan, and thank you for your great work there. I have been 
to the one in Traverse City many times, and I see the booth 
that has the Bucks there at the end. And it is great work. I am 
just going to question you about one of the problems that had 
been reported to me, and that apparently they try to run the 
market even in the winter, because they have to move, of 
course, because they can't do it in that parking lot in the 
winter. They have to do it inside. And then the USDA is 
requiring the market to buy all kinds of new equipment to----
    Dr. Hesterman. Yes.
    Mr. Benishek.--process the SNAP cards. Can we help these 
small farmers' markets out, where this purchase of equipment 
costs money? What is going on there? Have you run into this 
problem at your level?
    Dr. Hesterman. Actually, we are hearing more about this. It 
is sort of part of a larger set of issues that we are hearing 
about, where farmers' markets, in order to do the EBT and the 
incentive work, are needing to invest in equipment, and 
wireless technologies, to do this. And we believe that, if USDA 
were able to make it easier for farmers' markets to equip 
themselves with what they need to transact EBT and Double Up 
incentive business, we would be way ahead. And right now that 
is something that I believe needs to be worked out, probably 
USDA, and with the state SNAP----
    Mr. Benishek. Well, if there is anything I can do to help 
you with that, I would appreciate you letting me know, and I 
will have my staff follow up with you. But----
    Dr. Hesterman. Great.
    Mr. Benishek.--I think that is an undue burden on many of 
the markets, which don't have a lot of money to be throwing 
around with equipment.
    Dr. Hesterman. Yes, I agree with you, and definitely will 
follow up.
    Mr. Benishek. The other thing about winter is that the 
access to the fresh foods is difficult in Michigan.
    Dr. Hesterman. Yes.
    Mr. Benishek. Are you familiar with this Farm to Freezer 
Program in Traverse City? There is a guy named Mark Coe that 
took me around there, where they take fresh local produce, and 
they flash freeze it. And it is part of Goodwill Industries. 
You know about those guys?
    Dr. Hesterman. Yes, sure. Met them. In fact, we are in a 
conversation with them up in Traverse, and with folks in 
Detroit, at the Eastern Market, to look into, as we go to a 
year-round program with our Double Up Food Bucks, to have some 
of those locally grown and frozen products available during the 
winter that can be purchased with the incentives.
    Mr. Benishek. Yes. Is that possible, to allow those--I 
mean, I don't know exactly where we want to go with that, 
because we don't want to--I don't know if you can use Double Up 
food products for frozen food, so I am not exactly sure. Can 
you kind of explain that a little bit to me? What is the policy 
there?
    Dr. Hesterman. The FINI program allows for fresh, and 
frozen, and canned, as long as there are no added sugars and so 
forth to the product. So we don't have any restrictions about 
whether we want to take that from fresh, and also look at 
frozen. And it is something for a couple of markets, where you 
have the specific programs that freeze, and the locally grown, 
we are looking at.
    Mr. Benishek. The other question that you touched on, about 
the USDA is this wireless technology. So they have to have a 
wireless hookup? I mean, some of my areas in my district we 
don't have wireless.
    Dr. Hesterman. Well, you either need WiFi, or you need to 
hook into the cellular data system, or you need a land line, 
but to conduct the EBT business, you need some kind of----
    Mr. Benishek. Internet.
    Dr. Hesterman.--like that.
    Mr. Benishek. Okay. I guess that is a different committee 
making sure that we have Internet across my district, which 
doesn't always happen. Well, I yield back the remainder of my 
time, but thank you, Dr. Hesterman, and I would really like to 
look forward to maybe working with you to help solve your 
problems with the USDA in regard to some of the problems that 
have come to my attention, and whatever problems you may have. 
Because this incentive thing is a really the way to go. I mean, 
I am really happy that we are doing this. I think that, as a 
pilot, and as a model for other areas of the country, you have 
done a great job, and happy to have it happen to Michigan. 
Thank you. I yield back.
    The Chairwoman. Thank you. Congresswoman Lujan Grisham, you 
are recognized for 5 minutes.
    Ms. Lujan Grisham. Thank you, Madam Chair, and thanks to 
the panel. Given that my state is still one of the hungriest 
states in the country, New Mexico, it is great to hear about 
the kinds of ideas and incentives that allow you to do more 
with what you have, and making it as healthy as possible. I did 
the SNAP Challenge, and without a dollar to dollar match, 
notwithstanding the incentive, there isn't enough to buy fresh 
fruits and produce. I think when I did the challenge, in order 
to have enough protein, the only fruit I could buy was a couple 
of bananas. And so it just isn't enough to sustain yourself or 
your family.
    And so I am very excited to hear about the organization's 
work in Michigan, and the Double Up Food Bucks. And I have a 
public health background, so all of this is exactly the way in 
which these programs were intended to work. But we find that 
they need an additional boost to do that. I think these kinds 
of incentives are especially important for poor states like New 
Mexico, and any other areas in the country that have high rates 
of food insecurity, poverty, obesity, and other diet related 
illnesses.
    I want to tell you that, in fact, the Double Up Program is 
very successful in New Mexico. We are seeing more low-income 
families being able to purchase fruits and vegetables. And, in 
fact, according to a report, the New Mexico Farmers' Marketing 
Association put out this month 88 percent of their customers 
increased the amount of fresh fruit and vegetables they 
purchased because of the program. In 2015 alone the Double Up 
Program benefited more than 4,000 low-income New Mexicans. So 
not only are we improving nutrition and health outcomes in 
communities, but we are seeing Double Up do the other thing, 
which is create more economic development opportunities, 
particularly for farmers. And we are seeing a resurgence of 
young people interested in farming in both rural and urban 
communities. We saw 195 percent increase in total EBT sales 
through the Farmers' Market Association, and that impacted 60 
percent of New Mexico counties, and 60 percent of the direct 
market farmers statewide. We are also expecting the program to 
generate more than $4 million over the next 4 years.
    I am sure you already have all these stats, about all the 
different impacts. And I have been listening in earnest, of 
course, but really interested in the points we are making about 
really connecting and coalescing our nonprofit and charitable 
community in this effort in providing these kinds of 
incentives. But notwithstanding the wonderful results in New 
Mexico, the reality is we still have one of the hardest hit 
economies in the country, with some of the highest poverty 
rates in the country. We are, in fact, the only state in the 
nation that is losing population because there are no job 
opportunities in the state. We are in an interesting battle 
about what we do about work requirements when we can't find 
work anywhere in the state. And when we had our Human Services 
Secretary talk about work incentives a year ago--she is no 
longer with that department--she talked about the great jobs in 
oil and gas, and there are no jobs in oil and gas in our state, 
and we are really struggling.
    So I am really excited to tell you that, in spite of that 
situation, I believe that New Mexico is the only state that has 
state funding over the long-term to secure this program so that 
the Double Up Program is available. And the reason I think that 
that is really important, and want to get your ideas about how 
we encourage other states with the time we have left, is that 
our charitable organizations in this environment are also 
stretched too thin. So, to take advantage, I do think that you 
want to have local governments, state governments, engaged. 
What are you doing to get more states to think about long-term 
funding for these kinds of ideas?
    Ms. Petee. Congresswoman, if I could comment on that, and I 
would like to acknowledge too that last June we partnered with 
Presbyterian Health Services in Albuquerque to do a hunger 
summit, and you know the great work they are doing. And I would 
encourage us to look to the health care industry, hospitals, 
health systems in communities are often the largest employer. 
It is not a position that we have wanted to get to, but, to 
your point, when other industries and businesses are losing 
jobs, we find ourselves in a very precarious predicament, where 
we are the employer, but it is also incumbent on us, especially 
as a nonprofit organization, and by and large the hospital 
systems are, to make sure that we are out in the community, we 
have a mission beyond our four walls.
    So it is a matter of getting the local government and the 
state government together. That is what we started to do in 
Ohio with ProMedica. That is our aim, really, through The Root 
Cause Coalition. Because it is going to take the work with 
Congress, the work with local and state governments, and then 
the work with the health care industry, and other related 
organizations. Not one organization can do this alone, but we 
really do need everyone at the table.
    Ms. Lujan Grisham. Thank you. Thank you, Madam Chair. I 
yield back.
    The Chairwoman. Mr. Davis, you are recognized for 5 
minutes.
    Mr. Davis. Thank you, Madam Chair, and this is a great 
opportunity for those of us who sat around these tables and 
crafted the farm bill to kind of see and hear what our policy 
changes that we put into effect, and new and innovative 
approaches, how they are being implemented in the marketplace.
    I want to follow up a little bit on what my colleague Mr. 
Benishek asked you, Dr. Hesterman, about the ability to put 
point of sale equipment into farmers' markets. I know that part 
of our policies that we put forth allows the states to get from 
the USDA upwards of $4 million to help with these point of sale 
equipment purchases. Can you tell me, has that program been 
effective, or are you taking advantage of it at any of the ones 
that you see in your community?
    Dr. Hesterman. So there are farmers' markets in Michigan, 
and the Michigan Farmers' Market Association is very active 
with helping markets get set up, with the----
    Mr. Davis. But is the State of Michigan giving any of these 
USDA dollars to those markets for the point of sale equipment?
    Dr. Hesterman. I believe through the Farmers' Market 
Coalition, that is happening. One of the issues that Mr. 
Benishek raised is the issue of when a farmers' market moves 
location they have to get a different FNS authorization number 
to be a vendor. You have situations where markets may have to 
shift location different times of the year. So that is one way 
that it is not just about the equipment, but it is about having 
to get a new authorization number, which could require 
additional equipment.
    Mr. Davis. Okay. Dr. Wright, are you taking advantage of 
that in Kentucky? Does your state?
    Dr. Wright. Yes, they certainly are. So that program is 
coordinated through our Department of Agriculture. The current 
farmers' market that we are partnering with as a part of our 
pilot is a little unique in that there is one EBT terminal for 
the entire market. There are other markets in----
    Mr. Davis. So they just come to a specific area if they use 
EBT?
    Dr. Wright. That is correct. They will contact the market--
there is a booth with the market manager. They come and swipe 
their EBT for all purchases, regardless of the incentive or 
not. So the EBT dollars are transferred into tokens, and then 
the incentive tokens are also given at that same time, so the 
SNAP participants can use those tokens at any vendor at the 
market.
    Mr. Davis. So the SNAP participant goes to the manager's 
tent, swipes the EBT card, gets the Double Bucks, and they hand 
them to the recipient so the recipient can go to the different 
booths, and then spend them how they wish?
    Dr. Wright. How they wish, yes.
    On SNAP eligible items, yes, certainly.
    Mr. Davis. On SNAP eligible items?
    Dr. Wright. Yes. Our doubling is a little bit unique too, 
is that our incentives are only for Kentucky grown produce. So 
at our farmers' market there is----
    Mr. Davis. Why do you not like Illinois?
    Dr. Wright. We do love Illinois, but part of my job, 
obviously, is supporting Kentucky farmers, so----
    Mr. Davis. Part of my job is supporting Illinois farmers. 
No, thank you. Mr. Cooper, I am an Oakland Raider fan. I am 
very disappointed that they may move to San Antonio rather than 
St. Louis, but I won't hold that against you today. Can you 
tell us what is your process for the EBT point of sale 
equipment?
    Mr. Cooper. Well, we have absolutely taken advantage of 
that opportunity, and applied for the grants, and have that 
technology available in our market.
    Mr. Davis. Did you take all $4 million?
    Mr. Cooper. Anything to get those Raiders, right? There are 
a lot of barriers. It is complicated. I mean, you have to see 
if the market has enough customers that would demand the 
technology, and then try to run it efficiently. It doesn't make 
sense to have each farmer have a terminal. They usually have 
the ability to take cash very easily, or credit cards, using 
Square, their iPhone, or whatever. But it is the SNAP EBT 
benefit that you can have one terminal, and then have a token 
system, or a way to do the accounting.
    Mr. Davis. And that is what you do?
    Mr. Cooper. That is what we do. And we will provide that to 
any market. Some of our markets, there just isn't enough 
participation at the market to warrant it.
    Mr. Davis. So when a recipient like Ms. Kiley would come 
in, you would give her vouchers, tokens, or dollars?
    Mr. Cooper. She would go to the vendor, choose the produce, 
they would write up a ticket. They bring the ticket, we run the 
card, charge it for that amount, and then the customer would 
take that voucher back, showing that that has been paid. Then 
we reimburse the farmer at the end of the market for all of 
those SNAP sales that they incurred.
    Mr. Davis. All right. I hope we have a chance to ask a 
second round of questions, because I want to ask Ms. Kiley what 
your process has been, and see if it is as seamless as what you 
have talked about. She already answered it?
    Ms. Kiley. It is the same as Bluegrass, where I go in, and 
swipe my card, and say, I want to spend $15, and they give me 
$15 in tokens plus----
    Mr. Davis. Okay.
    Ms. Kiley.--whatever they double. And then I take it 
directly to the farmers. My only concern about that is what 
does it do for some of these families that might have--they are 
out there. Some of these families that might be a little 
conscious about being on SNAP, where you are at markets where 
you don't see as many SNAP participants. Tacoma Park Market is 
a perfect example of a market that is a little more--say upper 
echelon. And going to that booth, it does have a little bit of 
a stigma to it, maybe it is not used as much? But it has worked 
out very easily for me.
    Mr. Davis. Well, thank you. Madam Chair, I apologize for 
going over.
    The Chairwoman. Thank you. Congresswoman Adams, you are 
recognized for 5 minutes.
    Ms. Adams. Thank you, Madam Chair, and Ranking Member 
McGovern. Thank you all for your testimony. It has been very 
interesting to hear the stories. Farmers' markets have become a 
very popular way to improve fresh food options in food deserts 
throughout the 12th District, and we have a lot of them in the 
12th District of North Carolina that I represent. Guilford 
County is currently using USDA funding to support farmers' 
markets in food deserts, including the Mobile Oasis Farmers' 
Market in Greensboro and High Point. Food Insecurity Nutrition 
Incentive Grants, and the Farmers' Market Promotion Program are 
vital programs for supporting one of the few grocery store 
alternatives available to residents living in food deserts.
    As mobile and seasonal retailers in farmers' markets 
usually use wireless equipment for processing SNAP benefits, 
this requires a farmers' market to contract out equipment, and 
to pay a transaction fee for every purchase that uses SNAP 
benefits. For smaller business owners or farmers, this is a 
significant barrier to allowing a SNAP recipient to use their 
benefits to purchase fresh produce.
    Dr. Hesterman, what long-term solutions would you recommend 
for USDA in order to meet Congress's intent that healthy food 
retailers not face cost barriers to serving participants in the 
SNAP Program?
    Dr. Hesterman. Thank you for that question. So I actually 
look at this a little bit differently than what I have heard 
from some of my colleagues here. I actually think we need to 
start figuring out how to take advantage of the current and 
future of transaction processing technology. We are doing an 
experiment now, ten farmers' markets in the Grand Rapids area 
of Michigan, where this becomes the transaction processing 
device for farmers for EBT and for incentives.
    So we worked with a software company to get an app 
developed that farmers can download. It is like Square, where 
customers can come and bring their EBT card directly to the 
farmer, and earn their Double Up Food Bucks, spend their Double 
Up Food Bucks. You get rid of the stigma of a person having to 
go and collect tokens. You get rid of the administrative cost 
of counting out tokens and writing reimbursement checks to 
farmers. And we need to be encouraging, USDA and all of us, 
working together, need to be encouraging the development of 
more types of transaction processing technology like this.
    We don't need just one app. We need a bunch of different 
experiments, and how we are going to use modern processing 
technology, it keeps the program more secure, and helps us keep 
track of what is going on, and makes it easier transaction 
processing for the vendor and for the customer.
    Ms. Adams. Yes, a great strategy. Ms. Petee, there is much 
interest in my district in encouraging convenience stores to 
sell more fresh fruits and vegetables. Can you tell me a little 
bit about how the Live Well Toledo initiative worked with 
convenience stores to sell more produce, and what incentives or 
processes were put in place to help convenience stores who were 
concerned that they would take a loss from selling produce?
    Ms. Petee. Yes, thank you for the question, Congresswoman. 
It is going quite well, and, as you can imagine, making a shift 
from typical carryout items that you would see in a corner 
store to implementing fresh fruits, vegetables, milk, as 
opposed to just juices and soda pop, is quite well received. 
And, in fact, the grocery store that we opened in the inner-
city of Toledo is part of the broader effort, because we 
realize how essential it is to make sure that access to 
affordable, nutritious fruits, vegetables, dairy, protein, is 
essential.
    It really takes the whole community. I can attest that 
Toledo is working as a community. I have often said there is no 
market share in hunger, so we have a couple different health 
systems in Toledo, but it takes everybody working at that same 
table to make sure that we are level setting the playing field 
for everyone involved. And that is one of the reasons, again, 
going back to The Root Cause Coalition, that we felt it was 
critical to establish such a national coalition. We have 
commissioned the CDC to do a research study, through The Root 
Cause Coalition, that will be identifying what different 
hospitals and health systems across the country are doing to 
combat food insecurity, nutrition, obesity education throughout 
the country. And what we intend to do with that data is 
identify what is working, what is not working. Of what is 
working, how do we replicate that for different geographies and 
regions of the country? Because, obviously, there are many 
different ways in which we come to this problem.
    So it goes back to the comment I made earlier, that it 
really takes everyone at the table. To get the most benefit out 
of the assistance and incentive programs that the government 
offers, it really takes the local communities, the local 
government, and the state communities working together.
    Ms. Adams. Thank you very much, and, Madam Chair, I am out 
of time. I will yield back.
    The Chairwoman. Thank you. The chair recognizes Congressman 
Thompson, for 5 minutes.
    Mr. Thompson. Madam Chair, thank you so much for this 
hearing. Thanks to all the panelists for not just being here, 
but for the work you do in your communities each and every day. 
This last month I really had the privilege and honor, I hosted 
a couple of events. The first was at our 100th annual Farm Show 
in Harrisburg, Pennsylvania, and we did a listening session. I 
was joined by several of my colleagues, including the full 
Agriculture Committee Chairman, Mr. Conaway from Texas, and we 
really heard from a lot of different aspects of agriculture, 
but there was a heavy emphasis on food insecurity.
    And I heard from just a great champion, Karen Wooding from 
the Central Pennsylvania Food Bank, and then most recently--
just a couple weeks ago I did a visit to a food bank in my home 
county. We spent some time there talking with the people that 
were there, looking for nutrition for themselves and their 
family members. And the wonderful people that run, dedicate 
themselves, a lot of volunteers, including a pediatrician who 
was there volunteering. As a former health care professional, I 
mean, good nutrition is a fundamental building block to good 
health, there is no doubt about it. And the fact that we are 
starting to explore that more consciously, and build upon that, 
and build collaborations, that is part of the fruit we are 
hoping to yield from the work that is done here. I am not a--I 
am not going to hear--I don't think there is--we have no 
preconceived outcome here. I think we want to make this better. 
We want to make sure we are serving people, and we want to make 
things operate efficiently, and I am proud of the work that we 
are doing.
    So let me follow up a little bit. Dr. Hesterman, we know 
there are Americans who are not consuming enough fruits and 
vegetables, which is why the incentive dollars used 
specifically for fruits and vegetables make sense. However, 
some would argue that also allowing incentive dollars to be 
used for lean meats, dairy, eggs--I saw all that, and I heard 
about that, and I actually saw that in my food bank visit, the 
whole use of freeze flash technology, or flash freeze, whatever 
order that is, it is just amazing what people are able to get 
access to. It gives it a much longer shelf life, it is 
nutritious, it is tasty. Should we consider allowing these 
incentive dollars to be used for those other commodities, lean 
meats, dairy, eggs, you can fill in the blank, to provide 
additional nutritional benefits to the consumer, and do you 
envision most incentive programs will remain focused on fruits 
and vegetables, or will expand to healthy foods throughout the 
store and the market?
    Dr. Hesterman. Thank you for the question. We know that the 
number one dietary challenge across the board, but especially 
for low-income families, is increasing fruit and vegetable 
consumption. And we also know it is one of the most difficult 
to afford aspects of creating a healthier diet. So, for those 
reasons, my belief is that we should keep this program 
pinpointed in the area of greatest need, which is for fruits 
and vegetables incentives.
    Mr. Thompson. Okay. Thank you. Now, Dr. Wright, the 
Supplemental Nutritional Assistance Program, or SNAP, 
acceptance at farmers' markets has been a priority of this 
Committee to ensure that low-income families have access to 
fresh fruit and vegetables. We also acknowledge the benefit to 
both the consumers and the farmer. Additionally, USDA provides 
up to $4 million per year for states to distribute point of 
sales equipment. I know that was a topic of discussion earlier.
    I wanted to just throw a few details on what is happening 
now. That is for states to distribute point of sales equipment 
for individual vendors at farmers' markets to utilize when 
accepting these transactions. Can you discuss your process for 
accepting SNAP benefits, and are SNAP customers able to use 
their EBT cards at the individual vendors, or do they visit a 
management tent to receive their Bluegrass Dollars? I would 
love to hear a little bit about what your future visions are. 
Like Dr. Hesterman--thank you for your vision--in terms of how 
do we take the stigma off by thinking creatively in the future, 
and are there other thoughts and ideas you may have on how we 
reduce that stigma?
    Dr. Wright. Sure. So, at the Lexington Farmers' Market, one 
of our pilot sites, the way it works, a SNAP user would come up 
to the market tent, swipe their EBT card for however much they 
wanted to swipe for, and then they would double up to $10, 
explicitly, for Kentucky grown produce. The stigma issue is a 
really interesting one, and our farmers' market also provides 
tokens for non-EBT transactions. So if you want to use your 
debit card at the farmers' market, you could go and swipe your 
debit card. You would also get tokens. They look a little bit 
differently, but to the casual observer, they look like tokens. 
So the stigma issue hasn't really been a challenge for us, but 
certainly appreciate that that is a challenge in other areas.
    I do think having the one point of sale at the market 
manager booth, as opposed to each individual farmer having 
their own equipment right now, given our parameters, is the way 
to go. However, I am very excited about the development of this 
app, and I think that that could definitely streamline our 
process in Lexington.
    Mr. Thompson. And I appreciate you being sensitive to that 
issue. When we were first starting out in life, my wife and I, 
she was pregnant with our first son, we were WIC recipients, 
and that is going back a couple decades----
    Dr. Wright. Yes.
    Mr. Thompson.--several decades. But even then, we still 
remember how uncomfortable it was to walk into the local IGA. 
And so I appreciate those types of innovations. Thank you.
    The Chairwoman. The chair recognizes Congressman Ashford, 
for 5 minutes.
    Mr. Ashford. Thank you, Madam Chair. This is really 
exciting stuff. And I know we are similar to Kentucky in some 
ways, we are a rural state, Nebraska, and we have an urban area 
in Omaha. Last fall we had a conference sponsored by former 
Lieutenant Governor Maxine Moul from Nebraska, who is the USDA 
Rural Development ag person in the state. It was very, very, 
very well attended by both rural and urban people. These grants 
that have been handed out are really creative, and, looking 
through them, what a great program for the country.
    I have a question--and thank you, Dr. Hesterman, for your 
leadership in getting this started. Someone has to get it 
started, I guess, and you did, so it is really great work. I 
had spent a number of years running a housing authority in 
Omaha, and it is a public housing authority, with residents 
living throughout the community, and in public housing as well, 
but in scatter site housing. Obviously many of the residents 
qualified for SNAP. And I have asked this before when we have 
discussed these programs generally, I would ask Dr. Wright. In 
Lexington, which is a beautiful city, by the way. In Lexington, 
how about the housing authorities there? Was that part of your 
partnership initiative?
    Dr. Wright. It wasn't in our ground level pilot 
application, but we certainly have been exploring. We did some 
outreach to those communities to make sure that they were 
hearing about the incentive program. But, again, that goes back 
to the challenge of transportation, and some of these other 
issues. So we are looking forward to partnering with our local 
Health Department in this upcoming cycle to really get at that 
transportation issue, and educate folks about where they can 
use their benefits.
    Mr. Ashford. That is, obviously, an area with so many 
opportunities with this in Nebraska, and apparently we don't 
have a grant up to this point, but I sure am going to encourage 
our people in Nebraska to look at this. I know transportation 
is an issue with housing authorities, but, at least where we 
are, we have attempted to create at least urban gardens around 
housing authority facilities. That doesn't, in and of itself, 
create the SNAP option, but it does heighten the awareness of 
the need for nutrition. And, obviously, our school nutrition 
programs and all those go together. But the point that was made 
as well about everybody must be at the table is clearly the 
case.
    So I don't really have any other questions, other than just 
to really applaud this, applaud the Committee. This is the kind 
of stuff that really makes a difference. And I know working 
with that population at Omaha Housing Authority, we were always 
looking for self-sufficiency programs, always looking for ways 
to address, certainly, nutrition, and job self-sufficiency, and 
so forth and so on.
    And the last point I would make is that what I also found 
was that the more we could break down the barriers between the 
agencies, like HUD, for example, and USDA, and that sort of 
thing, the better we are. And the way to break those barriers 
down is to have an actual concrete program that works. You can 
then sort of work through those barriers and nutrition. 
Obviously, we don't want to cut SNAP benefits, but we get into 
that discussion, and then back and forth. But, these kinds of 
discussions, where we are thinking of ways to break those 
barriers down between housing and nutrition and education, are 
significant. I am just amazed at how successful this is. Thank 
you, Madam Chair.
    Ms. Petee. May I add a comment to that about the stigma?
    Mr. Ashford. Sure.
    Ms. Petee. I think that is one of the reasons we are 
finding the food insecurity screening in our hospitals being so 
effective, is because we do a two question screen that, if the 
patient answers yes to either of those questions, it prompts 
further evaluation by either a social worker or a clinician who 
is trained to have that conversation. Then we are working to 
enroll those patients right there at the bedside into the SNAP 
programs, or whatever assistance programs.
    Also, we just opened a food pharmacy last April, so coming 
up on a year, and we have 19 physicians in one of our clinics 
that will actually write a prescription for food versus 
medicine. That conversation with the individual to go get this 
prescription filled, which is nutritious food, takes away so 
much of the stigma for that individual, who then utilizes the 
other food banks and pantries in the intervening weeks before 
that prescription can be rewritten. So they are understanding 
better, this is for my health, this is something that my doctor 
has given me the green light to do. I am not a failure, these 
services are out there for me to use. We have seen just 
tremendous use of the food pharmacy, so much so that we opened 
a second one just last month. And many hospitals across the 
country are doing the same. Thank you.
    The Chairwoman. Thank you.
    Mr. Ashford. Yes, it is brilliant. Thank you.
    The Chairwoman. Ms. Plaskett, you are recognized for 5 
minutes.
    Ms. Plaskett. Thank you. Thank you, Madam Chair, and thank 
you also for all being here. Ms. Kylie, I was really moved by 
your written testimony, and, as a mother, I am very keenly 
aware, and thank you for the importance of having your children 
be at the food markets as well, the farmers' markets, to have 
them grab healthy habits with regard to--and I loved how you 
are putting the face of the farmers who are creating their 
food. I think that that is really important in the kind of 
world that we live now. So many of our children are in urban 
areas, or in areas where they don't meet farmers, to know that 
these are the people that are growing your food. And it also 
really does something great for the farmers as well, to see 
young people who are going to be eating the foods that they are 
working to create for them.
    I wanted to ask you, Dr. Wright, about one of the things 
that you were talking about. You talked about the best place to 
inform SNAP recipients of the Double Dollars Program is the 
state SNAP offices. And it is interesting, and unfortunate, 
because we know that that outreach is no longer funded by 
Congress, which at one time funded it. Do you think that that 
is a good investment of our funding source, to be able to use 
those offices? I know that our local government does not have 
the capacity to have someone specifically for that. Have you 
seen any demonstrable evidence of that being able to assist in 
the utilization of the program?
    Dr. Wright. Thank you for that question. Our Bluegrass 
Community Foundation and Bluegrass Farm to Table have been 
reaching out to our state SNAP office to start this dialogue 
about how they, and our local SNAP offices, can be more 
involved in the education process about these incentive 
programs. We really feel like it is critical to build that 
capacity at the state and local level, because really they are 
the front line, and they have the potential to touch every SNAP 
recipient in the communities that we are working in. And so if 
they are on the front lines, in the trenches with us, helping 
to educate folks about where they can use their benefits, where 
they can access these incentive programs, that is a really, 
really important tool to have. And so we hope, in Lexington, to 
engage with both our state and local office to improve that 
communication and that dialogue
    Ms. Plaskett. Thank you.
    And, Dr. Hesterman, one of the things that we found in our 
location, I represent the Virgin Islands, it would appear to 
most people that we would have an abundance of produce. But 
because our farmers are not on very large scale farming, it 
becomes an issue of cost for them to be able to be participants 
in programs like this. But, because of the availability of 
their produce we are very interested. Our governor, our local 
Department of Agriculture is really interested in our farmers 
being able to be participants in the SNAP Program, like school 
lunch programs, and some of the others.
    But availability, and also cost, and the cost of the EBT 
system, when we don't have access to Square, necessarily, or 
some of those others, is something that is a barrier to entry 
for the farmers, and therefore for the recipients of SNAP to be 
able to receive those kind of programs. What are some creative 
ways that you think, or have you been looking at--I heard you 
talk about the app as one. Are there other programs that you 
are looking at to drive down that cost for the farmers 
themselves to be able to be participants?
    Dr. Hesterman. Yes. Actually, one of the most exciting 
ideas that we are thinking about is creating a transaction 
processing system that can operate across the farmers' market 
and the grocery store setting for EBT and for incentives so 
that we are not looking at solely, well, there is a different 
way to use the program at a farmers' market, and a different 
way to use the program at a grocery store, but let us think 
about how we can use technology and transaction processing 
systems to actually engage grocers and farmers' markets 
managers, and try to get something uniform so that it is lower 
cost, it can be used by customers, in my view across the 
country. I mean, the idea, Ms. Kiley, of creating a common 
brand across the country, so we can actually create a common 
brand for incentives, a common way to actually conduct this 
business, a common way to collect information, that is sort of 
what I hold in my head for the future, and hope we are taking 
some steps to get there.
    Ms. Plaskett. Thank you.
    The Chairwoman. I appreciate the panel's help in 
understanding the importance of nutritional education and 
incentive programs. When discussing the overall health of low-
income people, incentivizing healthy eating habits, while 
working within communities, is an important part of looking at 
how we can continue to best serve our fellow Americans. You 
have certainly given us plenty to think about as we continue to 
look for ways to improve the nutrition programs to better serve 
their recipients. No program is perfect, and we can always do 
better.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member. This hearing 
of the Committee on Agriculture, Nutrition Subcommittee, is 
adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  Submitted Statement by Hon. Will Hurd, a Representative in Congress 
                               from Texas
    The 23rd Congressional District of Texas spans from San Antonio to 
the outskirts of El Paso, covering countless smaller towns and cities 
in between. Food security is one pressing issue that Americans face 
every day, whether they live in a small town in West Texas or in a big 
city like San Antonio. The San Antonio Food Bank (SAFB) provides 
countless pounds of food to organizations and individuals in Texas, 
hosts a number of nutrition education programs, and finds innovative 
methods of developing the local economy and workforce. It is because of 
organizations like the San Antonio Food Bank that individuals can focus 
on issues important to their family instead of worrying about putting 
food on the table.
    The lack of healthy habits and fresh food consumption pose a direct 
threat to the state of wellness in the United States. One of the most 
harmful and prevalent diseases Americans face today is diabetes, which 
causes needless suffering and contributes to millions in healthcare 
costs. While it is essential to treat the symptoms of diabetes and 
other chronic diseases like obesity and heart disease, it is of 
paramount importance to focus on their root causes like poor lifestyle 
choices and lack of proper nutrition. Increasing access to fresh fruits 
and vegetables, increasing families' ability to purchase them, and 
educating the community about the importance of nutrition are among the 
most important proactive measures that support good health.
    While healthcare professionals care for those who are already 
battling disease, organizations like the SAFB play a crucial role in 
providing services that aid in disease prevention. It is my hope that 
the SAFB and similar organizations share their stories and continue to 
expand their impact on the well-being of communities across Texas and 
across the nation.
                                 ______
                                 
Submitted Letter by Jennifer Hatcher, Senior Vice President, Government 
              and Public Affairs, Food Marketing Institute
February 3, 2016

 
 
 
Hon. Jackie Walorski,                Hon. James P. McGovern,
Chairwoman                           Ranking Minority Member,
Subcommittee on Nutrition, House     Subcommittee on Nutrition, House
 Committee on Agriculture,            Committee on Agriculture,
Washington, D.C.;                    Washington, D.C.
 


    Dear Chairman Walorski and Ranking Member McGovern,

    The Food Marketing Institute (FMI) commends the House Agriculture 
Subcommittee on Nutrition for holding a hearing ``To review incentive 
programs aimed at increasing low-income families' purchasing power for 
fruits and vegetables.'' As the point of redemption for both the 
Supplemental Nutrition Assistance Program (SNAP) and the Special 
Supplemental Nutrition Program for Women, Infants and Children (WIC), 
the grocery industry has a unique perspective on how the programs are 
administered and on ways to create opportunities to improve the health 
not just of program participants but the entire population.
    FMI's members have participated in various initiatives and pilot 
projects to encourage SNAP and WIC participants to purchase more fruits 
and vegetables with varying degrees of success and many lessons 
learned. For instance, the WIC program now includes cash value vouchers 
for families to purchase fruits and vegetables in addition to their WIC 
package foods. These vouchers have proven to be incredibly popular and 
have increased families' buying power of those foods.
    FMI retail members have also participated in state and locally run 
initiatives that ``double up'' SNAP customers' buying power of fruits 
and vegetables. For example, in one initiative a SNAP customer would 
receive a $5 voucher to purchase fruits and vegetables for every $5 
SNAP dollars they spent on fruits and vegetables. FMIs members have 
reported that they learned very important lessons from these 
initiatives, most importantly, customer education from the beginning is 
essential; not just that these foods are healthy, but how to prepare 
them. The education must start from the beginning of the SNAP process 
with states' using their SNAP-Ed resources to educate the participant 
before they ever go to the store. Many of our retail members conduct 
educational programs in their stores demonstrating ways to prepare 
fruits and vegetables in addition to ideas for stretching their 
shopping dollars.
    The grocery industry is fully committed to the health of all of our 
customers. Today 95% of grocery stores employ dietitians at the 
corporate, regional and store levels. FMI members proudly employ 
nutritionists and dietitians to aid all of their shoppers in making 
healthy balanced choices. Additionally, these professionals often teach 
customers with various health conditions, including food allergies, 
diabetes and nutritional deficiencies, on how to shop and prepare foods 
that address their dietary needs and restrictions. Many of our members 
host school groups to teach children about healthy eating and making 
thoughtful selections and maintaining a balanced diet.
    Chefs in the grocery store have become more prevalent over the past 
several years. FMI members hire professional chefs to further aid all 
of our shoppers in eating a more balanced diet. The chefs supply 
recipes for shopping and preparing healthy and often low cost meals. 
Additionally, grocery chefs participate in cooking demonstrations, food 
sampling occasions and other in-store events to help educate the 
customer.
    These are only a few of the initiatives and programs our retail 
members have and are participating in. All grocery customers benefit 
from the grocery industry's commitment to customers' health and 
wellness, whether they are shopping on a budget, are participants in 
SNAP or WIC or have unique dietary restrictions or needs. I have 
attached FMI's recent report entitled, ``Retailer Contributions to 
Health & Wellness'' that shows the industry's strong commitment and 
investment into this area.
    Thank you again for your interest in the initiatives to encourage 
greater consumption of fruits and vegetables in an economical way. We 
look forward to working with the Subcommittee as we continue to learn 
from some of the initiatives we are considering or have in place . . . 
to make a difference in the health of all of our customers.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Jennifer Hatcher,
Senior Vice President,
Government and Public Affairs.
                               attachment
2014 Report on Retailer Contributions to Health & Wellness
    The growing arena of health and wellness represents a complex 
combination of corporate social responsibility and vast business 
opportunities for food retailers. For the past 2 years, the Food 
Marketing Institute (FMI) has conducted surveys and published reports 
to track how members are meeting the needs of shoppers who are seeking 
healthier lifestyles.
    Now in its third year, this 2014 Report on Retailer Contributions 
to Health & Wellness represents an evolution of the previous survey 
reports. At its core, the information gathered for this report will 
help to demonstrate how food retailers are contributing to the health 
of their customers. One goal is to share this information with media, 
legislators and the public to highlight the positive impact of our 
industry.
    More importantly, FMI's vision is to use this information as more 
than a simple status report of what the industry is doing in the sphere 
of health and wellness. We hope that this expanded report will serve as 
a useful planning tool that will help members strategically grow and 
shape their companies' health and wellness offerings in a meaningful 
way.
Contents
    Recognizing the Business Power of Health & Wellness
    Constructing In-Store Health & Wellness
    Current Health & Wellness Offerings
    Getting on Consumers' Radar
    In-Store Health Professionals
    Health Professional Community Partners
    It's All About the Content, Content, Content
    Leveraging Store Websites
    The Growing Value of In-Store Clinics and Pharmacies
    What's Working?
Methodology
    The majority of data for this report was generated by a survey 
conducted among FMI members in November and December 2014. Twenty-nine 
store chains responded. It is estimated that these retailers represent 
at total of more than 6,800 stores across the country. Forty percent of 
the respondents operate between 101 and 500 stores. Twenty-five percent 
operate more than 500 stores. Fifteen percent operate between 31 and 
100 stores. The remaining 20% operate between one and 30 stores. The 
location of the stores operated by the surveyed companies spans every 
region of the United States.
    While not all operators participated in the survey, FMI believes it 
represents a strong sampling of food retailers' health and wellness 
initiatives nationwide. Information used to supplement this report was 
taken from two other studies conducted in 2014 by the management 
consulting firm, Oliver Wyman, ``Are Consumers Ready for Retail 
Healthcare?'' and ``Opportunities for Grocers in Health Services.'' The 
later study was commissioned by FMI.
    Data analysis was conducted by The Ginger Network, LLC, a marketing 
communications firm based in the Washington, DC, metropolitan area, 
dedicated to providing seasoned counsel on food & nutrition brand and 
marketing issues for food companies, associations and commodity groups.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Almost all retailers surveyed (96%) report that their 
        companies are committed to expanding health and wellness 
        programs in their stores.
Recognizing the Business Power of Health & Wellness
    Participants were asked to view health and wellness from both an 
industry and an individual store-chain perspective. From a holistic 
retail-industry perspective, the majority of food retailers in this 
survey (70%) currently view supermarket health and wellness programs as 
a significant business growth opportunity for the entire industry in 
the year(s) ahead.
    In fact, the preponderance of respondents (63%) sees health and 
wellness as one of many selling points for food retailers to compete 
for customer loyalty. Approximately \1/2\ see these programs as a 
momentous shift in how Americans will access healthcare in the years 
ahead.
    From an individual store-chain perspective, an impressive 78% of 
respondents view in-store health and wellness programs as a 
responsibility to their communities and family of customers and a 
significant business growth opportunity for their individual brand in 
the year(s) ahead. At the same time, approximately \1/2\ see these 
programs as a core business requirement for reducing sick time and 
insurance costs as well as a necessity to keep up with the competition 
of other retailers' health and wellness efforts.
    There is a significant opportunity to apply actions to these 
beliefs. About \1/2\ (54%) of food retailers in this survey have an 
established health and wellness program for both customers and 
employees. Currently, 34% have existing programs for employees only. 
The reasons for this disconnect between belief and action is not clear. 
However, almost all retailers surveyed (96%) report that, going 
forward, their companies are committed to expanding health and wellness 
programs in their stores.
    Among those who do have established programs, their efforts are 
growing. Sixty-one percent of retailers in this survey report that 
their companies' overall health and wellness programs and activities in 
2014 have moderately or significantly increased in comparison to 2013. 
Most importantly, these companies are not just giving lip service to 
health and wellness by talking about it. Rather, 83% of them report 
having genuine activities in which consumers and employees can 
participate.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Companies that report being more focused on talking about 
        health and wellness or actively implementing them.
Constructing In-Store Health & Wellness
    When it comes to evaluating health and wellness opportunities and 
deciding how and if they will be operationalized, pharmacy team 
leadership (59%) and nutrition team leadership (50%) are the two groups 
who make the most decisions. However, more than 36% of stores report 
that their President/CEO is making these decisions.
    These findings are significant on multiple levels. They demonstrate 
that the majority of these efforts are not being driven by sales. 
Rather they are entrusting this level of strategic planning to the 
health professionals on staff and/or that these decisions are happening 
at the absolute highest level of the organization.
    Similarly, once operationalized, the pharmacy teams (43%) and the 
nutrition teams (38%) are the clear primary leaders of the in-store 
health and wellness programs across the country. A very small number of 
programs are operationalized by the consumer affairs or marketing 
teams.
    At this time, the jury is still out among retailers on the best 
organizational structure. When asked if this structure is set in place 
for the foreseeable future, or if it is still under review, a little 
more than \1/2\ responded that it is set in place.
    For the most part, the majority of respondents have organized their 
health and wellness activities to balance engagement with customers who 
are ill (with some existing condition) as well as with customers who 
are well and seeking to maximize their health--as opposed to focusing 
more on one than the other.

 
 
 
Leaders of In-Store Health and       Balance of Health and Wellness
       Wellness Programs                          Activities
 

                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     
Current Health & Wellness Offerings
    The following types of health & wellness programs and/or features 
are being provided by survey respondents over this past year:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Of these, the following programs and/or features are offered free 
to participants in the majority of stores.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Getting on Consumers' Radar
    Consumers have become increasingly interested in information on 
nutrition labeling. Whether they are looking for health information 
like ``fat free'' or ``low sodium'' or lifestyle choices like 
``organic'' or ``Kosher,'' over the past year, retailers significantly 
have increased efforts to meet this demand for information.

    The following chart demonstrates how many retailers in this survey 
identified specific products on shelves in 2014 versus 2013.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Over the past year, there has been a shift in the strategies 
retailers use to help consumers identify healthy products. 
Specifically, there has been a significant increase in identifying 
wellness products by lifestyle (i.e., vegan, Kosher, etc.). At the same 
time, there has been a significant decrease in identifying products 
according to the health conditions they benefit (i.e., gluten 
intolerance, diabetes, etc. . . .). However, directly placing 
alternative healthful products next to original versions (i.e., low-
sodium, fat-free, etc.) continues to be a growing strategy.
    Retailers are implementing various means to promote their 
companies' health and wellness activities to consumers. The following 
chart [Retail Promotion Efforts] demonstrates the primary efforts being 
used. Ninety percent of all stores are investing in advertising, in-
store signage, website and social media outreach to connect with 
consumers in this arena. However, when asked to rate the effectiveness 
of their promotion efforts, retailers surveyed report that in-store 
pharmacists and dietitians are the most successful at engaging 
consumers in health and wellness activities.
Identification Strategy
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Retail Promotion Efforts
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

In-Store Health Professionals
    It is reasonable to envision that supermarkets are indeed becoming 
a health care destination. In addition to the fact that almost all 
stores have pharmacists on staff, a healthy 95% of stores employ 
dietitians at the corporate, regional and store levels.
    Importantly, these dietitians and pharmacists are making noteworthy 
gains in working as a team to advance health and wellness. For example, 
67% of them are working together to develop programs and almost \1/2\ 
(48%) are working together to make customer-specific recommendations. 
These are significant increases from 2013. In addition, 52% of them say 
they are referring customers/patients to each other for counsel.
    Moreover, 70% of respondents have in-store clinics in some or all 
stores. That is a sizable increase from 40% only 1 year ago.
    Interestingly, there has been a shift between 2014 and 2013 in how 
in-store health professionals are following up with customers after 
they participate in a store nutrition program. Specifically, 
recommendations have doubled for encouragement to get a health 
screening at the pharmacy or in-store clinic. However, there has been a 
precipitous drop in the amount of coupons offered for healthy foods in 
the store or information offered on other nutrition and wellness 
programs.
Activity After In-Store Nutrition Program
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Health Professional Community Partners
    Consumers are looking for more than just convenience and easy 
access to healthcare. Trust and perceived quality are key concerns.\1\ 
Doctors and nurses traditionally are the most trusted health 
information sources. Pharmacists are usually ranked third.
---------------------------------------------------------------------------
    \1\ Are Consumers Ready for Retail Healthcare?--Copyright 2014 
Oliver Wyman.
---------------------------------------------------------------------------
    This is great news for retailers since almost all employ 
pharmacists. However, a new study \2\ of more than 2,019 consumers 
suggests that for health-related matters, they are significantly more 
likely to trust retailers who have partnerships with local healthcare 
providers.
---------------------------------------------------------------------------
    \[2]\ [Ibid.]
---------------------------------------------------------------------------
    Therefore, FMI specifically asked retailers if their companies work 
with partners in the community to underscore their professional health 
and wellness credibility and/or to enhance their programs. The results 
are overwhelmingly positive and ones that should be communicated 
clearly to customers.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

It's All About the Content, Content, Content
    Virtually all retailers surveyed offered store tours in 2014. The 
vast majority of these tours (85%) are conducted by the registered 
dietitians on staff, and the balance is conducted by the pharmacy 
staff.

    The two most popular tour topics are diabetes and healthy eating, 
which underscores the finding above that stores are trying to offer a 
balance of education programs that appeal to both ends of the customer 
spectrum--to those who are ill (with some existing condition) as well 
as to those who are well and seeking to maximize their health.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In 2014, more than \1/2\ of food retailers in this survey employed 
chefs at the corporate level. And 76% employed a chef at all or some 
stores. A very similar percentage of respondents (74%) offered cooking 
classes to customers. The majority of these classes were geared for 
customers with restricted diets.
Types of Cooking Classes
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In addition to cooking classes, 63% of stores also provide weight 
management classes for adults. Outside the classroom setting, healthy 
recipes are made available on 80% of store websites and in 59% of 
stores on printed cards or in kiosks.
    Beyond classes and recipes, food retailers must be keenly aware of 
the numerous studies that cite the benefits of families eating 
together. In 2014, they clearly embraced this concept. In fact, 84% say 
they are actively promoting communal eating such as family meals. (This 
is a jump from last year's reported 75%.) However, very few of these 
programs have been formalized.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


------------------------------------------------------------------------
 
-------------------------------------------------------------------------
 
 
 
    Retailers should be aware that the FMI Foundation has established a
 national family meals initiative to provide stores with turnkey tools
 and building blocks to advance their role as community promoters of
 family meals.
    Learn more at www.fmifamilymeals.com
------------------------------------------------------------------------

Leveraging Store Websites
    Eighty-one percent of retailers in this study have a dedicated 
space on their website to engage with customers on the topic of health 
and wellness. Sixty-seven percent have a similarly dedicated webpage 
for employees. These sites are being used most to share health 
articles, healthy recipes and Q&A documents about nutrition.
    The most popular topics on these websites focus on common health 
concerns and food allergies.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

The Growing Value of In-Store Clinics and Pharmacies
    As noted earlier, there has been significant growth in the number 
of retailers who established in-store clinics in 2014. Combined with 
in-store pharmacies, these locations are perhaps the most tangible 
demonstration to customers that supermarkets not only offer health and 
wellness education and support, but are convenient and affordable 
alternative healthcare providers.

    The following graphic demonstrates the high percentage of survey 
respondents offering a broad array of immunizations and screenings that 
define the foundations of ``retail healthcare.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The momentous opportunity for retailers is that these pharmacy and 
clinic visits engage the customer with health professionals who not 
only offer information about medical adherence, but whom also:

  <bullet> Refer consumers to other nutrition and wellness information 
        in the store;

  <bullet> Offer them coupons for the appropriate healthy foods in the 
        same store;

  <bullet> Encourage them to participate in in-store nutrition 
        programming; and/or

  <bullet> Refer them to the company dietitian.
What's Working?
    Unquestionably, one of the most important planning tools for retail 
health and wellness programs moving forward is careful measurement of 
existing efforts to determine what works, what can be improved and what 
elements should be left behind. Many retailers are far along this path 
already. In 2014, more than 63% of retailers in this survey have set 
quantitative business goals for their health and wellness programs and 
are tracking results. In addition more than 42% have set qualitative 
goals and are tracking those results too.
    The following graph shows ten different tracking mechanisms that 
respondents have been using to assess the effectiveness of health and 
wellness efforts. By far, the most popular measure employed (by almost 
90% of companies) is a quantitative one--actual customer participation 
and attendance numbers in program activities. This is followed by a 
qualitative measure employed by almost 80% of respondents--the 
collection of consumer comments. The next most prevalent tracking 
mechanism is the ultimate consumer-behavior--change gauge, sales.
    Plotted on the same graph, is an assessment of usefulness for each 
of the tracking mechanisms. Retailers were asked to provide a score on 
a scale from 1 to 7 (with 1 being the least useful and 7 being the most 
useful). The three most useful forms of tracking are aligned with the 
most popular methods of tracking--consumer comments, participation and 
attendance, and sales.
    While tracking sales is certainly a reasonable and common form to 
track all new initiatives, retailers are cautioned to remember that 
consumers need to have awareness of health and wellness programs, and 
have a positive attitude about them, before they will change their 
behavior as a result of participation. So it is important not to let 
the sales measurement dominate the decision process for health and 
wellness initiatives, moving forward.
Tracking Mechanisms
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Moving Forward
    In the 3 years since this survey report was started, there clearly 
has been tremendous exploration and growth of health and wellness 
programs in the food retail setting. It is even more clear that the 
cross section of retail and healthcare is fertile ground for both 
community service and business growth. Insurers are actively looking 
for alternatives to reduce costs and satisfy consumer preferences. At 
the same time, the majority of consumers are interested in receiving 
minor care beyond the doctor's office. They are willing to receive 
advice on diet, nutrition, fitness, well-being, and even on managing a 
chronic condition.
    In other words, we are seeing an unusual and ideal confluence of 
circumstances--healthcare environment, consumer interest, and 
supermarket-solution-provider capabilities--for food retailers to 
define the business models that will build the future of retail 
healthcare.

          Food Marketing Institute proudly advocates on behalf of the 
        food retail industry. FMI's U.S. members operate nearly 40,000 
        retail food stores and 25,000 pharmacies, representing a 
        combined annual sales volume of almost $770 billion. Through 
        programs in public affairs, food safety, research, education 
        and industry relations, FMI offers resources and provides 
        valuable benefits to more than 1,225 food retail and wholesale 
        member companies in the United States and around the world. FMI 
        membership covers the spectrum of diverse venues where food is 
        sold, including single owner grocery stores, large multi-store 
        supermarket chains and mixed retail stores.
          For more information, visit www.fmi.org and for information 
        regarding the FMI foundation, visit www.fmifoundation.org.
          Catherine M. Polley, Vice President, Health & Wellness and 
        Executive Director, FMI Foundation;
          Megan J. Tinklepaugh, Manager, Health & Wellness.
                                 ______
                                 
    Submitted Letter by Alan R. Hunt, Ph.D., Director of Policy and 
                        Research, Wholesome Wave
February 17, 2016

RE: Additional Written Testimony for the Hearing to review incentive 
            programs aimed at increasing low-income families' 
            purchasing power for fruits and vegetables

    Dear Members of the House Agriculture Committee,

    Since its founding in 2007, Wholesome Wave has strived to fulfill 
its vision of increasing affordable access to fresh, local, and 
regional food for under-served consumers. In the 8 years from our 
launch of the Double Value Coupon Program in California, Massachusetts, 
and New York, Wholesome Wave now supports nutrition incentives programs 
in 38 states, the District of Columbia, and the Navajo Nation. Recast 
as the National Nutrition Incentive Network, to highlight the shared 
leadership and community of practice amongst our partners, the Network 
reached about 50,000 consumers and more than 6,600 farmers in 2015.
    Partnerships are an effective strategy for expanding the adoption 
of nutrition incentives, as shown through our work with the AARP 
Foundation and BlueCross BlueShield of Minnesota. Our National 
Nutrition Incentive Network facilitates a national healthy food 
incentive community of practice around innovative incentive models, 
including Fruit and Vegetable Prescriptions and farm to grocery 
projects. Our growing evidence base shows nutrition incentives are a 
successful strategy for improving the health of Americans with low 
incomes.
    We sincerely appreciate the House Agriculture Committee's 
leadership and continuing interest in nutrition incentives for families 
and individuals with low incomes. The Agriculture Committee's 
leadership on the Food Insecurity Nutrition Incentive program (of which 
we are recipient), SNAP EBT provision at direct to consumer markets, 
Community Supported Agriculture (CSA) access to SNAP EBT, the Farmers' 
Market and Local Food Promotion Program, and Community Food Projects is 
making real improvements to under-served Americans and small and mid-
sized farm operators.
    The February 3rd Nutrition Subcommittee hearing to review incentive 
programs aimed at increasing low-income families' purchasing power for 
fruits and vegetables helped examine the multi-faceted issues of 
nutrition incentive programming and outcomes. We look forward to 
continuing to work with the Committee Members on its unique policy 
charge, which includes both nutrition and agriculture. We are providing 
written testimony for the record as a supplement to the witness 
testimonies at the hearing. Please contact us with any questions.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Alan R. Hunt, Ph.D.,
Director of Policy and Research.
                           attached statement
Introduction
    Wholesome Wave supports and facilitates a National Nutrition 
Incentive Network that builds the capacity and provides technical 
assistance to more than 100 organizations in 38 states, D.C., and the 
Navajo Nation. In 2015, the National Nutrition Incentive Network 
reached about 50,000 consumers and 6,600 farmers. Wholesome Wave 
received a $3.77 million USDA Food Insecurity Nutrition Incentive 
(FINI) grant in 2015, matched with $3.77 million from private sector 
sources. We are a FINI sub-grantee for AARP Foundation, Florida 
Organics Growers, Maine Farmland Trust, and Green Mountain Farm to 
School. FINI was critical to expand the National Nutrition Incentive 
Network's community of practice.

    The following testimony includes policy relevant to nutrition 
incentives, background on Wholesome Wave and the National Nutrition 
Incentive Network, consumer and producer impacts, and an appendix.
Goals of Nutrition Incentives
    Nutrition incentive programs encourage consumers to spend their 
Federal nutrition benefits (SNAP, WIC, etc.) on healthy foods, such as 
fresh fruits and vegetables, at farmers' markets, mobile markets, CSAs 
and grocery stores by offering a financial match (``the nutrition 
incentive'') based on how much the customer spends. Nutrition 
Incentives, also called Healthy Food Incentives, have three primary 
aims:

  <bullet> Increase the affordability and access for fruits and 
        vegetables for food-insecure Americans,

  <bullet> Improve the health status of low-income Americans, and

  <bullet> Benefit local and regional farmers, often small and medium 
        sized farms.
Upcoming Issues for Congressional and Federal Policymakers
  <bullet> Completing USDA implementation of Section 4002 of the 
        Agriculture Act of 2014 to provide free wireless EBT POS 
        devices for use at direct markets.

  <bullet> A common sense policy on use of EBT terminals at farmers' 
        markets with more than one site, which promotes SNAP integrity 
        and minimizes SNAP EBT cost for farmers' markets. In contrast, 
        authorized SNAP producers can use a single EBT POS device at 
        multiple markets.

  <bullet> The development of eWIC pilots that include wireless POS 
        technologies appropriate for direct marketing farmers and 
        farmers' markets by the 2020 eWIC transition. Ideally all 
        states would allow multiple wireless technologies for eWIC, 
        SNAP, FMNP, and incentives.

  <bullet> Ensuring the continued allowance of WIC-based nutrition 
        incentives (based on the Cash Value Voucher) at direct to 
        consumer markets, of which there has been unclear guidance from 
        USDA.

  <bullet> Continuing the appropriation for the Farmers Market SNAP 
        Services Support Grant.

  <bullet> Continuing and expanding the USDA FINI program in the 2018 
        Farm Bill.

    Most all nutrition incentive programs utilize a combination of 
private sector, municipal, state, and other Federal funds to sustain 
the overall nutrition incentive program, including: USDA Community Food 
Projects, USDA Farmers Markets and Local Food Promotion Program, USDA 
Specialty Crop Block Grants, and SNAP-Ed (other Federal sources cannot 
be used to match activities within a FINI grant).
Federal Policy on Nutrition Incentives
    Nutrition incentives require several steps for successful 
operation, nearly all of which policy influences.

  <bullet> Retailers must become authorized for an existing Federal 
        nutrition assistance program (SNAP, WIC, WIC Cash Value 
        Vouchers, WIC FMNP, SFMNP).

  <bullet> Retailers must be authorized for exemption from the SNAP 
        equal treatment provision to provide the nutrition incentive, 
        receiving either a blanket waiver (as direct markets have 
        received) or individual authorization (as grocery retailers 
        need) from USDA FNS.

  <bullet> Retailers must have technology to redeem electronic benefits 
        for SNAP, and eWIC by 2020.

  <bullet> Retailer Point of Sale (POS) technology needs to 
        differentiate between food product types--fruits and 
        vegetables.

  <bullet> Retailers need a means to issue an incentive at the Point of 
        Sale, either for that transaction (e.g., discount applied 
        instantaneously and electronically, or an incentive token to be 
        redeemed at a farmers' market vendor), or at a future 
        transaction (e.g., a coupon).

  <bullet> A system to track the issuance and redemption of the 
        incentives (for some farmers' markets this includes a token or 
        scrip management system).

    Recent Congressional actions have supported the expansion of 
nutrition incentives. This includes the continued provision of free 
SNAP EBT POS devices to direct marketing producers and farmers' markets 
that centrally operate EBT for the market's vendors as authorized in 
Section 4002 in the Agriculture Act of 2014. Also, the authorization of 
FINI significantly expanded public funding for nutrition incentives, 
and catalyzed private sector and other non-Federal public sector 
support for nutrition incentives by requiring a $1 for $1 non-Federal 
match.
    Recent Federal actions by USDA have also supported the expansion of 
nutrition incentives. For example, from funds appropriated by Congress 
in FY 2012, the USDA helped develop a wireless SNAP EBT technology, in 
partnership with the National Association of Farmers Market Nutrition 
Programs, called MarketLink.\1\ MarketLink has a built-in function that 
allows local markets to apply a nutrition incentive to the SNAP 
purchase. In 2015, USDA FNS released $3.3 million for SNAP Farmers 
Market Support Grants which aim to increase ``the participation of 
farmers' markets in SNAP by providing equipment and support grants to 
new markets and those currently participating in the program'' from 
approximately $4 million that Congress Appropriated in FY 2014.\2\ 
Unlike other grants, these grants provided dedicated assistance to 
direct markets for: SNAP EBT equipment (including WiFi hotspots to 
operate wireless EBT POS devices, scrip, tracking systems), SNAP 
outreach and educational materials customized for direct markets, and 
SNAP EBT device training and operation.
---------------------------------------------------------------------------
    \1\ http://www.fns.usda.gov/sites/default/files/FM_051112.pdf.
    \2\ http://www.fns.usda.gov/sites/default/files/snap/FMSSG-RFA-
FINAL-05.05.15.docx.pdf.
---------------------------------------------------------------------------
Background on Wholesome Wave
    Wholesome Wave employs a solution-driven and a market-based 
approach to achieving its mission of healthy, affordable, local food 
for all. Wholesome Wave's Founding Board Chair, Gus Schumacher, began 
to lay the groundwork for the advent of nutrition incentive programs in 
the 1980s, first as the Commissioner of Food and Agriculture for 
Massachusetts, leading to the creation of the WIC Farmers Market 
Nutrition Program (FMNP), and later as Undersecretary at USDA and 
creating the Senior FMNP. Since then, the field of incentive programs 
has grown exponentially. The following is a short history of the field 
in the last 10 years.

  <bullet> 2005--1st Nutrition Incentive Program. The New York City 
        Department of Health and Mental Hygiene began the Health Bucks 
        Program.

  <bullet> 2007--Wholesome Wave Formed. USDA Waiver Obtained. 
        Crossroads Farmers Market in Takoma Park, MD obtained a formal 
        USDA pilot waiver to operate a nutrition incentive program.

  <bullet> 2008--Double Value Coupon Nutrition Incentive Program 
        launched by Wholesome Wave in California, Massachusetts, and 
        New York.

  <bullet> 2010--Obstacles for Incentives Minimized. Wholesome Wave and 
        its partners work with the USDA to ease the waiver policy on 
        nutrition incentives at farmers' markets.

  <bullet> 2013--Evidence of Impact shown through Healthy Food 
        Incentives Cluster Evaluation demonstrating economic impacts of 
        nutrition incentive programs.\3\
---------------------------------------------------------------------------
    \3\ Available from Wholesome Wave at: http://www.wholesomewave.org/
wpcontent/uploads/2014/07/
2013_healthy_food_incentives_cluster_evaluation.pdf.

  <bullet> 2014--Agriculture Act Provides $100 Million over the 5 years 
        through the USDA Food Insecurity Nutrition Incentive (FINI) 
---------------------------------------------------------------------------
        program.

  <bullet> 2015--$31.5 Million Allocated through FINI Grant Program and 
        Wholesome Wave receives a $3.77 million grant, with $3.77 
        million raised in matching funds to support expansion of the 
        National Nutrition Incentive Network.
The Wholesome Wave Approach
    Wholesome Wave utilizes a capacity-building approach to launch, 
support, grow, and sustain our partners' nutrition incentive 
programming. Wholesome Wave begins its partnership work with an 
invitation from community organizations. We then use a four-step 
approach to work with community-based partners to identify needs, 
develop and test programs, spread their impact, and institutionalize 
change that will yield healthier people, stronger local communities, 
and enhance farm income.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

National Nutrition Incentive Network
    Wholesome Wave is transforming individual, community, economic, and 
environmental health by facilitating a national network of nutrition 
incentive practitioners dedicated to leveraging simple solutions at the 
local level into long-term policy change. Wholesome Wave builds the 
capacity of network members to deliver nutrition incentive program 
benefits to their customers, farmers, and communities. As network 
members, they participate in a community of innovation and learning, 
have their impact aggregated as part of a national data set, and serve 
as policy advocates.
Network Highlights
  <bullet> 38 states, D.C., and Navajo Nation.

  <bullet> Over 730 direct to consumer sites (farmers' markets, CSAs, 
        farm stands, & mobile markets).

  <bullet> Over $3.3 million in Federal food assistance and incentives 
        redeemed cross-Network in 2014.

  <bullet> Fruit and Vegetable Prescriptions offered in ten states and 
        the Navajo Nation reaching 6,134 people from 2011-2015.

  <bullet> Partnerships with AARP Foundation, BlueCross BlueShield 
        Minnesota, & Fair Food Network.

  <bullet> Co-developed the FM Tracks<SUP>TM</SUP> app & website to 
        measure network performance with Case Western Reserve 
        University.

  <bullet> Conducting the first Randomized Controlled Trial on 
        nutrition incentive impacts on fruit and vegetable consumption 
        and health outcomes with University of Delaware.
National Nutrition Incentive Network & FVRx<SUP>TM</SUP> Partners
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Current as of 1/25/16.
Network Services:
  <bullet> Community of Practice--a peer to peer community where 
        members interact, share ideas, resources, identify solutions 
        and build the body of knowledge for nutrition incentive 
        programs.

    <ctr-circle> Online listserv--380 subscribers by January, 2016.

    <ctr-circle> Newsletter--226 subscribers by end of 2015.

    <ctr-circle> Annual Summit--Held in January 2016, 290 attendees, 
            including USDA and CDC staff.

  <bullet> Tools and Technical Assistance:

    <ctr-circle> In-person training and field visits--At least one 
            visit per year for 32 FINI partners.

    <ctr-circle> Trained staff on-call--All 92 network members received 
            access via phone and e-mail.

    <ctr-circle> Training and educational webinars--9 webinars with 
            over 340 attendees in 2015.

    <ctr-circle> Online resource library--62 resources to launch & 
            sustain nutrition incentive programs.

  <bullet> Data Collection and Evaluation:

    <ctr-circle> Data collection and reporting via FM 
            Tracks<SUP>TM</SUP>--Daily data for over 230 sites in 2015.

    <ctr-circle> Randomized Controlled Trial on nutrition incentive 
            impacts (supported by USDA FINI).

    <ctr-circle> Annual program report completed by all National 
            Nutrition Incentive Network members with outcomes 
            disseminated back to the field via a community of practice.

  <bullet> Education and Advocacy:

    <ctr-circle> State-wide nutrition incentive program development.

    <ctr-circle> Collaborations with state agencies of Agriculture, 
            Public Health, and Social Services.

    <ctr-circle> State and Federal advocacy toolkits & trainings.

    <ctr-circle> State fact sheets on program performance for all 
            network members.
Network Growth

 
 
 
                       Consumers             Network Members
 

                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 
 
 
                Farmers                           Direct-to-Consumer Sites **
 

                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     
          * Projected; ** Includes farmers' markets, mobile markets, 
        and CSAs.
Wholesome Wave's Food Insecurity Nutrition Incentive Large-Scale 
        Project
Ladder for Growth: A National Network To Build Capacity and Test 
        Innovative Strategies for Healthy Food Incentives
    In the first round of the newly authorized FINI grant program, 
Wholesome Wave was awarded a 3 year, Large Scale Project to deploy 
nutrition incentive programs at 364 farmers' markets, 23 CSAs, and 38 
mobile market sites, thereby increasing affordability and access for 
110,000 SNAP consumers to purchase local fruits and vegetables in 17 
states and D.C. Small and mid-sized farms participate as retailers in 
these programs, and directly engage with both SNAP consumers and 
community-based incentive program operators.
    To build the capacity of program operators, Wholesome Wave provides 
both standardized and customized assistance through trainings, 
toolkits, and workshops. By taking primary responsibility for capacity 
building, data collection, and evaluation, Wholesome Wave allows 
program partners to focus on activities best accomplished at the 
community level: engagement with SNAP consumers and local fruit and 
vegetable vendors, outreach, nutrition education, and on-site 
programming. The project also builds statewide nutrition incentive 
programs in Maine, New Hampshire, New Jersey, Ohio, and Virginia. 
Statewide incentive programs create opportunities for efficient 
expansion and lay the foundation for program sustainability.
Food Insecurity Nutrition Incentive (FINI)--USDA Grant: 2015-2018
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Total Funding $7.5 million Over 3 Years
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Building Evidence for Health Impacts--FINI Evaluation
    Generating an evidence base for nutrition incentive programming has 
always been integral to Wholesome Wave's initiatives, and is a shared 
interest among the members of our national network.
    Monitoring and Evaluation: For collecting and reporting incentive 
program data, Wholesome Wave is piloting the use of FM 
Tracks<SUP>TM</SUP>, an iOS-based mobile application (App) and linked 
website developed by Darcy Freedman, Ph.D., at Case Western Reserve 
University's Prevention Research Center for Health Research. It 
replaces paper and pencil data collection systems used by most 
incentive operators with one-step digitized data entry, saving time and 
reducing error. FM Tracks provides a common system with consistent 
metrics, creating opportunities for assessing program innovations by 
comparing market-level data across sites.
    Process Evaluation: Process-related data collection through FM 
Tracks allows us to evaluate the challenges and successes of project 
implementation and operation among programs participating in Wholesome 
Wave's FINI project. The process evaluation, conducted by Case Western 
Reserve University, also addresses the extent to which natural 
variation in site characteristics and management explain differences in 
incentive redemption rates.
    Outcomes Evaluation: Wholesome Wave, in partnership with the 
University of Delaware Center for Research on Education and Social 
Policy, is conducting a field-based, coordinated, multi-site randomized 
experiment at 40-50 farmers' markets, and collecting non-randomized 
consumption data at 16 CSAs to test the effectiveness of several 
monetary and non-monetary incentive program innovations. This outcomes 
evaluation will provide crucial evidence on how best to increase SNAP 
shoppers' purchase and consumption of fruits and vegetables (F&V). The 
outcomes evaluation has three main research questions:

  1.  How different incentive levels result in different F&V purchase 
            and consumption levels.

  2.  Comparative outcomes of monetary and non-monetary incentives.

  3.  Identifying how SNAP shoppers at direct to consumer markets are 
            similar and different to SNAP participants by comparing 
            project data with national datasets (e.g., USDA Food APS).

    We are testing five incentive levels or ratios, including the 
common $1 for $1 or ``Double Up'' level:

  <bullet> $1 EBT: $0.40 Incentive

  <bullet> $1 EBT: $0.80 Incentive

  <bullet> $1 EBT: $1.00 Incentive

  <bullet> $1 EBT: $1.50 Incentive

  <bullet> $1 EBT: $2.00 Incentive

    About \2/3\ of survey participants randomly receive one of the 
above levels, above the market's preexisting incentive level. No 
participants receive less than the market level. Through repeated 
entries into this monthly survey and lottery, we are building a dataset 
that can be evaluated for statistically significant changes in fruit 
and vegetable consumption and self-reported health measures, such as 
BMI, within the evaluation period. This should yield a supply and 
demand curve for fruits and vegetables providing insight on a dose-
response effect on produce consumption from varying levels of 
incentive. We anticipate the first peer-reviewed publication of this 
data should be available prior to the 2018 Farm Bill. This is the first 
Randomized Controlled Trial on nutrition incentives and will provide 
cause and effect data.
Consumer Impacts
          ``The fact that they double the dollars helps a lot . . . It 
        helps food stamps go farther, which helps eaters and helps the 
        farmers--it helps everyone. I can buy fresh produce here and 
        double my money, and I know it's wholesomely grown, healthier--
        it's just an amazing, amazing thing.''
                                   Pearl Market Customer, Columbus, OH.
          * * * * *
          ``I love the double your food stamps program because it 
        allows me to buy fruits and vegetables for my family which is 
        what we need in order to maintain health. . . . And I think 
        it's a great program the government has something to do with, 
        because it's so much better to help people proactively maintain 
        health rather than use Medicaid to pay for all their sicknesses 
        after the fact. It just makes so much more sense and it's one 
        of the best programs I've ever seen the government do for 
        people of low-income. We haven't always been people of low-
        income. Before I was divorced we had as much money as we wanted 
        to spend on food and healthcare and everything, but that's just 
        not the way it is right now and sometimes people are in this 
        situation and if the government is going to help it's helpful 
        that it's actually helping and not hurting.''
                                 Webb City Farmers Market Customer, MO.
          * * * * *
          ``It's definitely . . . coming here . . . I eat a lot more 
        vegetables because they taste a lot better. And doubling my 
        money has made it a lot easier to eat more vegetables. It's 
        challenging when I can't make it on a Sunday because it's just 
        such better food.''
                           Heirloom Farmers Market Customer, Tucson AZ.
Producer Impacts
          ``Thank you. Seriously. Your program really benefits us. We 
        sell at six markets and we see many more tokens come through at 
        markets where they have the FF incentive program. If it weren't 
        for the coins/WIC/FMNP we would only sell about \1/3\ of what 
        we do
        now . . . It is also really exciting to see folks that wouldn't 
        normally eat fruits and vegetables buying and consuming these 
        foods.''
Laura Mello, Vegetable and Fruit Vendor at Thundermist Market, Warwick, 
                                                                    RI.
          * * * * *
          ``I want you to know how much I value the work that you all 
        do. It is very personal for me and for Nate. He grew up in a 
        family of undocumented immigrants. My father left when I was 
        quite young and my mother really relied on food stamps for my 
        family. I remember how people at the store would shame us for 
        being on food stamps. But now, because of this program, I watch 
        mothers bring their children here and they are so proud. This 
        program is so important. It is so valued. Because it gives 
        people dignity. It's political to me. It's meaningful. It 
        equalizes people. People think this is a rich town, but there 
        is so much hidden poverty. We see it here when people come to 
        us with crop cash. A lot of us are farmers because we 
        understand hunger and we want to make a difference.''
                                Ama and Nate of Nama farm, Jericho, VT.
Wholesome Wave Impacts
          ``All of the farmers in the Skowhegan Farmers Market would 
        like to commend Wholesome Wave for all the support of both our 
        programs and of the food system in this country overall. You 
        help to give a voice for farmers and consumers in places that 
        we are not always able to be present. We are incredibly 
        thankful for your support over the past few years and look 
        forward to continuing our work together in the future.''
                                          Skowhegan Farmers Market, ME.
          * * * * *
          ``Heirloom Farmers Market has been an island unto itself, but 
        with FINI we've been able to bridge gaps with other community 
        organizations.''
  Deb Tenino, Heirloom Farmers Market Development Director, Tucson, AZ.
          * * * * *
          ``With the people who have won the [Randomized Controlled 
        Trial] lottery, it was like Christmas morning. There was a 
        couple who came very week; she got a stack of money and she was 
        going to be good for like weeks. Her and her family were eating 
        really well and buying everything for the week from the 
        market.''
                     Nick, Heirloom Farmers Market Manager, Tucson, AZ.
          * * * * *
          ``So for me, affordable access to healthy food is pretty tied 
        to healthcare in general . . . Pennies on every SNAP dollar are 
        actually going to growers . . . That we can be involved in a 
        great way is a great privilege and it's my hope that we help 
        share that this model is successful so that it can be adopted 
        elsewhere.''
  Benjamin, Food Access Director, Arcadia Mobile Market--Parkside, D.C.
          * * * * *
          ``To me I think it's a really good program. It helps the 
        families. And young parents especially. Young moms. Some of 
        them basically don't do home cooking anymore and a lot of them 
        get state assistance like food stamps and a lot of them need to 
        buy food. So with these vouchers that they receive every month 
        . . . they purchase vegetable and fruit on a weekly basis, I 
        really like that because the kids are really being introduced 
        into eating a variety of vegetables whether it's raw or whether 
        it's steamed or cooked. And fruits too . . . They really enjoy 
        it because I'm seeing in the little kids eyes when they see the 
        food demos and I put out all the stuff for them and they look 
        at it and they say what's this, what's this. They're curious . 
        . . I sense that the kids are learning. The kids are 
        understanding and the kids know that vegetable is much more 
        healthy. . . . One family is doing really good, making 
        progress. She says her kids are really into eating fruits and 
        vegetables that they never used to have that. That they always 
        ask for salad, she said. If I don't make salad, they'll say we 
        don't want to eat. So she always has to have a salad. . . . So 
        I know that we're making progress and it's happening and I just 
        can't wait to see how much weight that this little girl's gonna 
        lose because she's down by 3 already. And she's really active. 
        I've seen her. She's really active, energized, more outgoing . 
        . . I hope we expand to other communities, too.''
      Bernice, Health Education Technician with Navajo FVRx, Counselor 
                                                Chapter, Navajo Nation.
Resources Included in the Appendix
  1.  Wholesome Wave Overview & Initiatives (with current Network Map)

  2.  Fruit & Vegetable Prescription Program

  3.  National Nutrition Incentive Network & Growth of Incentive 
            Programs

  4.  National Nutrition Incentive Network Current Projects (FINI)

  5.  FM Tracks App & Website

  6.  Community of Practice

  7.  ``How to Run a Nutrition Incentive Program'' excerpts, Diagrams 
            of SNAP & FMNP Incentives

  8.  Partnering with Your SNAP Agency

  9.  Developing a Statewide Network

  10.  Fostering a Culture of Inclusivity at Your Market

  11.  Funding Your Nutrition Incentive Program
Additional Resources Available in the National Nutrition Incentive 
        Network Online Resource Library
    Fact Sheets

    NNIN How To's/Success Stories
    Partnering with Your Local/State SNAP Agency
    Developing a Statewide Network for Nutrition Incentive Programs
    Fostering an Inclusive Market Environment
    Funding Your Nutrition Incentive Program
    Success Stories: Corporate Sponsorship Case Study: Farm Fresh Rhode 
            Island
    Success Stories: Corporate Sponsorship Case Study: GrowNYC
    Success Stories: Corporate Sponsorship Case Study: Wholesome Wave

    Toolkits

    Stage 1 FM (How to Run)
    Stage 2 FM (How to Grow)
    How to Start a CSA Incentive Program
    Outreach Idea Book
    FM Tracks* (also listed under FM Tracks)
    Story-gathering About Nutrition Incentive Programs
    Wholesome Wave Data Portal Training Manual 2015
    Street Team/Canvassing Toolkit
    SNAP-Ed in Maine
    Advocacy Toolkit
    FVRx Toolkit

    FM Tracks

    FM Tracks Toolkit
    FM Tracks App--1 pager (Entering Market Day Data)
    FM Tracks Website--1 pager (Recording Transactions)
    FM Tracks Promo Piece (3-pager)

    Slide Decks

    Incentive Programs at Farmers Markets 101
    Incentive Programs at Farmers Markets 101--AARP
    Outreach Strategies for Nutrition Incentive Programs
    Outreach: On-Site Promotion & Community Partnerships
    Maximizing the Impact of Fruit and Vegetable Incentive Programs
    Data Portal Training
    FINI financial/admin review

    Training Exercises

    Communications Exercise: Explaining a Nutrition Incentive Program 
            to Different Audiences
    Outreach: Building Community Partnerships
    Outreach: Developing an Outreach Plan
    Role Play for Market Staff: Centralized/De-Centralized EBT & 
            Incentive/Purchase-First Systems
    Visioning Exercise: Network Development
    Traffic Light Exercise: Reflecting on the Season

    Tools: Plug & Play Templates

    Photo (Media) Release Form
    Consumer Impact Survey: Sample
    Vendor Survey: Sample
    Market Manager Survey: Sample
    Media Alert: Sample
    Press Release: Sample
    Legislator Invitation Template (Farmers Market Week)

    Resources for Consumers

    Common SNAP Myths
    SNAP Cookbook: Good and Cheap

    Guides/Handbooks/Informational

    SNAP/EBT at Your Farmers Market: 7 Steps to Success
    Innovations in DVCP (Double Value Coupon Program)
    How to Create an Internship Program in 7 Easy Steps
    Successful DVCP Fundraising Tips and Selected Resources
    Guide to Grant Funding for Your DVCP
    DVCP & Hospital Community Benefit Programs: Understanding the 
            Opportunity
    Utilization of Community Benefits to Improve Healthy Food Access in 
            MA
    Ten Ways to Fund Your SNAP Program

    Reports

    2009-2012 Outcomes and Trends (Full Report and Exec Summary)
    Diet & Shopping Behavior Study (2012)
    2013 SNAP Healthy Food Incentives Cluster Evaluation
                                appendix
Wholesome Wave Overview
Vision
Affordable, Healthy, Local Food for All
    Wholesome Wave strives to create a vibrant, just and sustainable 
food system. By increasing affordable access to fresh, local and 
regional food, Wholesome Wave inspires under-served consumers to make 
healthier food choices. Through advocacy at the local, state, and 
regional level, Wholesome Wave and its partners are institutionalizing 
public and business policy to make affordable access a reality for all.
Focus Areas
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Approach to Transforming the Food System
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Initiatives
    Wholesome Wave takes a holistic, community-based approach to its 
initiatives, working collaboratively with community-based 
organizations, farmers, healthcare providers, corporations, 
policymakers and government entities.
National Nutrition Incentive Network
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A national network of nutrition incentive practitioners dedicated 
to leveraging simple solutions at the local level into long-term policy 
change. Wholesome Wave builds the capacity of network members to 
deliver nutrition incentive program benefits to their customers, 
farmers, and communities, while also collecting and sharing data and 
stories from network members in its efforts to institutionalize policy 
change.
Fruit and Vegetable Prescription Program
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    An innovative solution to preventing and treating chronic diet-
related disease. Through partnerships with healthcare providers, 
community organizations and fresh produce retailers, the FVRx program 
provides low-income patients and their families affected by diet-
related diseases with nutritional education and a prescription for 
fruits and vegetables to be spent at participating retailers for a 6 
month period. Wholesome Wave gathers and evaluates a variety of 
metrics, including health outcomes.
Healthy Food Commerce Initiative
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    An approach to improving the supply chain for local food in under-
served communities by connecting food retailers with food hub 
businesses to increase the supply and competitiveness of local and 
regional agricultural products. Wholesome Wave provides technical 
assistance and develops tools and resources in partnership with 
emerging food businesses, the USDA, and other corporations to provide 
the latest in best practices in the growing food hub sector.
Impact
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          * Community-based Organizations, Healthcare Centers, and 
        Hospitals.
Wholesome Wave's
Fruit and Vegetable Prescription Program<SUP>'</SUP>
    The Fruit and Vegetable Prescription<SUP>'</SUP> (FVRx<SUP>'</SUP>) 
Program is an innovative solution to preventing and treating chronic 
diet-related disease. FVRx promotes affordable access to fruits and 
vegetables and healthy eating in under-served communities through 
partnerships with healthcare providers, community organizations and 
fresh produce retailers. FVRx is a proven evidence-based model of 
preventative health care with a demonstrated impact, resulting in 
healthier communities, food systems, and local economies.

          ``FVRx allows the families not only to get nutrition 
        education but to put it into action . . . They can take what we 
        talk about in the clinic, out to the market, purchase healthy 
        foods and then take them home and engage the family in a 
        healthy cooking and dining experience.''
            Jennifer Cook, Nutritionist, Thundermist Health Center, RI.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                         FVRx's Reach 2011-2015
------------------------------------------------------------------------
 
------------------------------------------------------------------------
    6,134           15%            61%            82%           2.9%
Individuals    Receive WIC    Receive SNAP   are covered    Uninsured
 and family                                   by Medicaid/
 members                                      Public
------------------------------------------------------------------------
10 States (CA, CT, GA, MA, ME, MN, NM, NY, RI, TX, Washington, D.C. and
 Navajo Nation)
------------------------------------------------------------------------

FVRx Program Impact 2014
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          ``Since joining the program I have seen a difference in the 
        way I eat. I take healthy snacks to school like grapes, apples 
        and oranges. Not only has my eating changed but I have also 
        become very active.''
                                              FVRx Patient, New Mexico.
FVRx Program Innovators
New York City 2013-Present
    The New York City Health and Hospitals Corporation (HHC)

  <bullet> Refining the FVRx model to be scaled at hospitals city-wide, 
        then replicated throughout the country.

  <bullet> Hospital sites to date include: Elmhurst, Harlem, Lincoln, 
        and Bellevue.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Minneapolis, MN 2014
    The Center for Prevention at Blue Cross and Blue Shield of 
Minnesota.

  <bullet> Testing FVRx Program Impact on adult diabetics and 
        prescription redemption at Coborn's grocery store in Melrose, 
        MN.

  <bullet> FVRx families spent $15,284 from their prescriptions on 
        fruits and vegetables at Coborn's.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Navajo Nation 2015
    Community Outreach and Patient Empowerment (COPE) Project.

  <bullet> Bringing healthy food access to Navajo Nation by offering 
        chronic disease prevention outreach through community, clinic, 
        and retail partnerships.

  <bullet> FVRx Navajo Nation will launch at ten Navajo health centers 
        and retail sites, with an anticipated reach to over 3,00 Navajo 
        family members.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Wholesome Wave's
National Nutrition Incentive Network
    Wholesome Wave is transforming individual, community, economic, and 
environmental health by facilitating a national network of nutrition 
incentive practitioners dedicated to leveraging simple solutions at the 
local level into long term policy change. Wholesome Wave builds the 
capacity of network members to deliver nutrition incentive program 
benefits to their customers, farmers, and communities. As network 
members, they participate in a community of innovation and learning, 
have their impact aggregated as part of a national data set, and serve 
as policy advocates.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                 What is a Nutrition Incentive Program?
 
    Nutrition incentive programs encourage consumers to spend their
 federal nutrition benefits (SNAP, WIC, etc.) on healthy foods, such as
 fresh fruits and vegetables, at farmers markets, mobile markets, CSAs
 and other retail stores, by offering a financial match based on how
 much the customer spends. For information on the impact of nutrition
 incentive programs, visit www.wholesomewave.org/publications.
------------------------------------------------------------------------


                           2014 Network Impact
------------------------------------------------------------------------
 
------------------------------------------------------------------------
         50,119                   5,641                $3.3 million
Consumers and their      Participating Farmers    Total Nutrition
 households                                        Incentives and
                                                   Federal Benefits *
                                                   Redeemed
------------------------------------------------------------------------
* SNAP, WIC CVV/FMNP, Senior FMNP.

Network Member Sites
(Including 2015 FINI Members)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

The Growth of Nutrition Incentive Programs
    Wholesome Wave's Founding Board Chair, Gus Schumacher, began to lay 
the groundwork for the advent of nutrition incentive programs in the 
1980s, first as the Commissioner of Food and Agriculture for MA, and 
then as Under Secretary for the USDA, leading to the creation of the 
WIC Farmers Market Nutrition Program (FMNP) and Senior FMNP. Since 
then, the field of incentive programs has grown exponentially. The 
following is a short history of the field in the last ten years.

 
 
 
                2005                                 2010
  1st Nutrition Incentive Program     Obstacle for Incentives Minimized
 
The New York City Department of      Wholesome Wave and its partners
 Health and Mental Hygiene begins     work with the USDA to ease the
 the Health Bucks Program.            waiver policy on nutrition
                                      incentives at farmers markets.
 
                2007                                 2014
        USDA Waiver Obtained               $100 Million in Funding
 
Crossroads Farmers Market (MD)       The 2014 Farm Bill introduces the
 obtains a formal USDA pilot waiver   Food Insecurity Nutrition
 to operate a nutrition incentive     Incentive (FINI) Program, which
 program.                             provides $100 million in grants
                                      for nutrition incentive programs
                                      over the next five years.
 
                2008                                 2015
           DVCP Launches               $31.5 Million Allocated Through
                                              FINI Grant Program
 
 Wholesome Wave launches the Double  Wholesome Wave receives a $3.77
  Value Coupon Nutrition Incentive    million grant to support expansion
     Program in CA, MA, and NY.       of its national network of
                                      nutrition incentive programs.
 

Network Growth
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Network Services

 
 
 
   Tools and Technical Assistance       Data Collection and Evaluation
 

                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 
 
 
    Members have access to tools,
 toolkits and direct assistance to
 build their capacity from a Stage
 1 to a Stage 4 member. Subjects
 include:
 
  <bullet> Program Operations.
                                     Wholesome Wave has a national
  <bullet> Communications, Outreach   incentive program data set based
 and                                  on reporting from members.
     Marketing.                       Wholesome Wave provides common
                                      metrics and data reporting
                                      platforms for members to submit
                                      their data and for evaluators to
                                      conduct research.
 
    <bullet> Fundraising.
 


 
 
 
       Advocacy and Education               Community of Practice
 

                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 
 
 
    Members are engaged as policy    Members interact, share ideas,
 advocates and educators to inform    resources, solutions and build the
 public policy.                       body of knowledge for nutrition
                                      incentive programs through five
                                      platforms:
                                         <bullet> Listserv.
                                         <bullet> Newsletter.
                                         <bullet> Topical webinars.
                                         <bullet> Resource library.
                                         <bullet> Annual conference.
 

Network Member Capacity Building
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Through our network, we build the capacity of nutrition incentive 
practitioners, advancing them from a Stage 1 to Stage 4 member.
Wholesome Wave's National Nutrition Incentive Network
Current Projects
Food Insecurity Nutrition Incentive (FINI)
USDA Grant: 2015-2018
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Wholesome Wave Is a Sub-Grantee on Four Additional FINI Awards
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
 
 
    AARP: Wholesome      Florida Certified        Maine Farmland Trust
 Wave will serve as a     Organic Growers (FOG):   (ME) and Green
 technical assistance     12 of FOG's farmers      Mountain Farm to
 partner to provide       markets will join        School (VT):
 capacity building        Wholesome Wave's RCT     Wholesome Wave will
 expertise, as well as    evaluation to measure    provide technical
 branding, marketing      the impact of            assistance as both
 and outreach             incentive program        groups work to deploy
 assistance for SNAP      innovations on SNAP      SNAP incentives at
 incentive programs in    consumers' purchase      retail grocery
 Mississippi and          and consumption of       outlets and
 Tennessee.               fruits and vegetables.   aggregated CSA's.
 

Double Up Collaboration with Fair Food Network
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Fair Food Network and Wholesome Wave are partnering to develop a 
model for healthy food incentives at farmer markets. Leveraging more 
than a decade of demonstrated success, they are pairing best practices 
in program design with the insights of a national network to support 
the growth of incentive programs that increase access to healthy, 
locally grown food, support farmers, and stimulate economic activity. 
The Double Up collaboration is working with local partners in Oklahoma 
and Georgia to launch this effort.
FM Tracks
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In an innovative partnership that brings together researchers and 
nutrition incentive practitioners, Wholesome Wave and Case Western 
Reserve will use technology, data, research, and education as tools to:

  <bullet> Build the capacity of incentive program practitioners to 
        increase affordable access to healthy foods;

  <bullet> Develop industry standard system for uniform incentive 
        program data collection and reporting;

  <bullet> Build an evidence base to educate on the importance of 
        healthy food incentive policy change.

    Through this partnership, they will launch FM Tracks, an IOS-based 
app and website for gathering and organizing farmers market sales and 
incentive usage while evaluating trends and impact.
Know Your Market, Know Your Customers
    FM Tracks is an iOS based application to collect, manage, and 
evaluate information about your farmers market.

    Save time. FM Tracks eliminates the need for pen-and-paper tracking 
and keeps all your market and vendor information in one place.
    Save Money. Reduce staff time spent on recording and processing 
information.
    Improve your market. Use customer information to increase vendor 
sales, introduce new products, and make changes to your market.
    Show your impact. Export your data in comprehensive and detailed 
reports for grant reporting, financial tracking, communications, and 
outreach.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    FM Tracks includes an iOS application and website that work 
together to improve your market.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Users: Intended for use by direct-to-consumer market managers 
operating one or more markets, and for healthy food incentive network 
managers organizing programming locally, regionally, or across states.
    Central System for Recording Information: Provides a central portal 
for sales transactions and recording information about customers, the 
market, and healthy food incentives.
    Transaction Accounting: Designed to track transaction data, 
specifically for SNAP/EBT and other federal nutrition benefit programs, 
as well as credit/debit and cash.
    Customer-Level Data Collection: With the ability to assign unique 
customer IDs, market managers can now better understand who is shopping 
at their market, and tailor activities to attract more customers.
    State-of-the-Art Methods for Evaluation: Includes metrics used and 
approved by the USDA, Farmers Market Coalition, and the U.S. Census to 
support comparisons to other data sources.
    Real-Time Access to Reporting: Data dashboard provides quick look 
at market trends and reporting features allow for more careful 
examination of impact.

          FM Tracks is not a system for transacting and transferring 
        money.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
FM Tracks Mobile App
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Running on an iOS device (iPad, iPad mini), the mobile app is used 
by market managers to collect information on-site. This includes: sales 
data, customer data, market day information, and health, economic, and 
community impacts of the market.
    The mobile app replaces the traditional pen-and-paper method of on-
site data collection, reducing error and saving time for managers. Data 
can be entered into the mobile app without an Internet connection.
FM Tracks Website
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The website provides the capabilities to manage and view all data 
entered via the mobile app, reporting and exporting functions, the 
ability to add new markets or networks, and the selection of questions 
to be asked at market. You can also develop your own questions to be 
added to the system. Finally, the website also has a manual entry 
function to allow data collected via pen-and-paper at market to be 
input off-site. With this function, even if your market does not have 
an iOS device, FM Tracks can be still be used.

          A limited number of markets are beta testing FM Tracks in 
        2015. The full, optimized version will be made publicly 
        available in 2016. If you are interested in staying connected 
        and getting updates on the public release of FM Tracks in 2016, 
        e-mail us at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f39d8687819a879a9c9d9a9d90969d879a85969d9687849c8198b3849b9c9f96809c9e9684928596dd9c8194dd">[email&#160;protected]</a>
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          FM Tracks development is led by Dr. Darcy Freedman through a 
        partnership between Case Western Reserve University, the 
        Prevention Research Center for Healthy Neighborhoods, and 
        Wholesome Wave. It is supported through funding from the Ohio 
        Department of Health and the Prevention Research Center for 
        Healthy Neighborhoods.
Wholesome Wave: National Nutrition Incentive Network
Community of Practice
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Community of Practice is a core benefit of membership in the 
National Nutrition Incentive Network (NNIN). It provides five platforms 
for engagement through which members interact; share ideas, resources, 
and solutions; and build the body of knowledge about nutrition 
incentive programs:

  <bullet> Resource Library  <bullet>  Listserv  <bullet>  Webinars  
        <bullet>  Summit  <bullet>  Newsletter
Online Resource Library
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Contains tools, templates, case studies, and other information in 5 
key areas: program implementation, data collection and evaluation, 
communications, fundraising, and policy and advocacy.
    Log in at www.wholesomewave.org with your e-mail address as your 
user name and your password.
Listserv
    A forum for open communication among members to ask questions, 
share experiences and best practices, and contribute to a searchable 
database of knowledge. Submit a post by e-mailing 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6314140a0d00060d170a15060d0617140c110823040c0c040f0604110c1613104d000c0e4d">[email&#160;protected]</a>
Webinars
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Live and recorded presentations on the nuts and bolts of running an 
incentive program and topics including marketing and outreach, policy 
and advocacy, cutting-edge research, fundraising, and more.
Annual Summit
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Annual summits offer trainings, cutting-edge innovations, and a 
place to network with other NNIN members, funders, policymakers, and 
researchers.
Monthly E-Newsletter
    Provides program, policy, funding, and research updates. To share 
photos, innovations and best practices, or other exciting updates with 
the network, email your Program Manager.
How to Run a Nutrition Incentive Program
A Toolkit for Wholesome Wave's National Nutrition Incentive Network
[Excerpt]
Table of Contents
    Executive Summary
    Introduction
    How to Use This Toolkit
    About Wholesome Wave
    Acknowledgements
    Glossary
    Chapter 1: Set Up Your Program for Success

          Define Community Needs and Resources
          Set Goals
          Build a Budget

    Chapter 2: Design Your Program
          Federal Benefits Overview
          Decide Which Federal Benefits to Incentivize
          Understand the Components of an Incentive Program
          Select Your Alternative Currency

    Chapter 3: Operate Your Program On-site
          Choose How to Operate Your Program
          Track Data at the Market
          Get the Right Equipment
          Make Your Vendors Champions of Your Program

    Chapter 4: Maintain Financial Controls and Collect Data
          Maintain Financial Controls
          Collect Accurate Data for Grant Reporting

    Chapter 5: Conduct Outreach and Attract Attention to Your Program
          Find Your Customers
          Name and Brand Your Program
          Develop Outreach Materials
          Alert the Press
          Nutrition Incentive Program Talking Points

    Appendices
          * * * * *
Chapter 3: Operate Your Program On-site
How to Run a Nutrition Incentive Program
Step-by-Step: Incentive First--SNAP-only Incentive Program
    The incentive first system for SNAP incentives can easily be 
integrated into your existing SNAP program if you use a central market 
booth to process transactions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

How to Run a Nutrition Incentive Program
Step-by-Step: Incentive First--WIC CVV and WIC/Senior FMNP Incentive 
        Program
    The incentive first system can be slightly more complicated when 
applied to programs that incentivize WIC CVV or WIC and Senior FMNP 
because those benefits are redeemed directly with vendors rather than 
at a central market booth. In most cases, customers are asked to show 
their CVV or FMNP checks they are going to spend to the market manager, 
who then gives the customers incentives for the amount they are 
eligible. To keep track of which CVV or FMNP checks have already been 
incentivized, many markets mark the checks with their initials or the 
date of the transaction so that they cannot be reused. However, not all 
states allow writing or marking on checks, so please check with the 
state agency responsible for administering the CVV or FMNP program 
before applying this method.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

National Nutrition Incentive Network: Partnering With Your Local/State 
        SNAP Agency
    Local and state agencies that administer SNAP can be important 
allies in promoting your nutrition incentive program directly to people 
receiving federal benefits. Caseworkers typically meet with individuals 
and families receiving SNAP at least twice a year and many offices 
regularly send mail to SNAP households.
    How can you partner with your local and state agencies to promote 
your program?
Getting Started
Find Your Local & State Snap Agencies
    The state agency that administers SNAP differs depending on the 
state (e.g., Departments of Health and Human Services, Social Services, 
or Children and Families), and there are typically many local SNAP 
offices throughout the state. Use the USDA Food and Nutrition Service's 
website to find your state and local SNAP offices:
    www.fns.usda.gov/snap/snap-application-andlocal-office-locators
    Search for public assistance.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Collaborating:
Establish a Relationship
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Schedule an appointment with your local SNAP office to introduce 
yourself and share the story of your program. At your initial meeting, 
present the agency with details on the history and impacts of your 
program. Share your accomplishments and vision, and highlight any 
stories of how your program has affected families in your area. Invite 
the SNAP office to visit a market to see the program in action.
    Prepare for the meeting by thinking of a specific ask for how to 
collaborate with the agency. Whether partnering to conduct a direct 
mailing campaign, asking SNAP caseworkers to distribute your program's 
fliers, or requesting that the agency provide a letter of support for a 
grant, there are a number of creative ways the agency can help your 
program thrive.
Moving Forward:
Build a Partnership
    After your initial meeting it is important that you maintain and 
build upon your relationship with the local SNAP offices. Add them to 
any newsletters about your market and program. Meet them at the end of 
the season to share information on the impacts and reach of your 
program. Invite them to attend events and fundraisers. Keeping them 
engaged and demonstrating how your program grows over time is crucial 
for maintaining a fruitful partnership.
    Once you have established a relationship with your local SNAP 
offices, reach out to your state SNAP agency and follow a similar 
process to build a relationship. It is important to form relationships 
with both levels of government; state and local SNAP agencies can 
support your program in complimentary ways.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


------------------------------------------------------------------------
 
-------------------------------------------------------------------------
           Network Member Highlight: Old Town Farmers' Market
 
            6 Ways To Collaborate With Your Local SNAP Agency
 
    The City of Alexandria, Virginia, which operates the Old Town
 Farmers' Market, has developed diverse strategies for partnering with
 the local SNAP agency, the Alexandria Department of Community and Human
 Services (DCHS), to promote their Double Dollars nutrition incentive
 program at the market. These include:
 
    <bullet> Direct Mailing: The market provides DCHS with approximately
     900 bilingual postcards promoting the incentive program. DCHS
     includes the postcards as part of the information packet mailed out
     each month to new SNAP recipients living in the ZIP Code around the
     farmers market.
 
    <bullet> Fliers: The market provides bilingual fliers to DCHS, whose
     case workers distribute them to people who are signing up for SNAP.
 
    <bullet> Tabling: The manager of the incentive program for the
     market sets up a booth on the first and last Monday of each month
     at DCHS to conduct outreach for Double Dollars. During these
     visits, she is helped by a volunteer who is fluent in Spanish.
 
    <bullet> Cooking Demos with Market Produce: The program manager
     holds cooking demos at DCHS once per month during the summer using
     produce donated from the market, handing out recipes along with
     SNAP fliers.
 
    <bullet> Field Trips: The program manager coordinates four field
     trips to the market every Spring and Summer with SNAP recipients in
     the market's ZIP Code. The manager provides a flier promoting the
     field trip to DCHS, who then mails them out in four installments
     every month. Field trip attendees receive $5 in incentive tokens.
     The outings have proven a successful outreach method; according to
     the program manager, ``we've gotten a lot of new customers that
     way.''
 
    <bullet> SNAP Working Group: The market partners with Healthy
     Alexandria and the Alexandria Department of Health, meeting monthly
     to brainstorm ways to promote SNAP at the market.
------------------------------------------------------------------------


------------------------------------------------------------------------
 
-------------------------------------------------------------------------
            Network Member Highlight: The Farmers Market.co.
 
                  Conducting a Direct Mailing Campaign
 
    In spring of 2015, The Farmers Market.co--which operates markets in
 Fredericksburg, Spotsylvania, King George, and Dale City, VA--piloted a
 targeted direct mail campaign to bring new SNAP customers to its
 farmers markets. The goal was to reach SNAP households not currently
 using the farmers market nutrition incentive programs by providing
 information and issuing a call to action.
    Working with the directors of Social Services from the local SNAP
 offices in Fredericksburg, Spotsylvania, and King George, they designed
 a bilingual (English and Spanish), black-and-white, 6 x 9 postcard,
 which was mailed to every SNAP household in the three counties--a total
 of 6,800 postcards--using a local secure mailhouse. See top of page 3
 for an image of the postcard.
    For privacy protection and to avoid legal issues regarding
 confidential mailing lists, Social Services removed all client names,
 replacing them with ``Resident,'' before releasing the list to the
 mailhouse.
    The pilot postcard project included a response mechanism (i.e.,
 bring the postcard to the market for a free market bag) for tracking
 and evaluation. The response has been encouraging and the markets
 continue to see new customers as a result of the campaign.
------------------------------------------------------------------------

Conducting a Direct Mail Campaign
Background Information
    Direct mail refers to sending marketing materials directly to a 
filtered set of households based on certain demographic factors. When 
planned and conducted properly, mailings are an effective means of 
directly reaching people receiving federal nutrition benefits. By 
sending a postcard or flier to your target audience, you can promote 
your program to those who will benefit from it most, propel new 
customers to market, and remind existing customers to return.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Credit: The Farmers Market.co.
Design Considerations
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Your mailer should include all of the basic information on the 
details of your market and incentive program. Be sure to highlight the 
dates and hours of operation, location of the market, name of your 
incentive program, and the amount of match provided.
    While stand-alone postcard mailings are common for SNAP and 
incentive outreach, also consider developing brochures that fit into 
regular-sized business envelopes so that your local hunger coalition or 
SNAP agency can easily include them in mailings they are already 
sending to your target population.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Credit: DC Greens.
Example: SNAP Outreach Postcard
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Credit: Boston Farmers Market.

    This postcard-sized mailer from Boston Farmers Markets in 
Massachusetts highlights the household's closest market while also 
providing a full list of farmers markets (on the back side) where SNAP/
EBT and Boston Bounty Bucks are accepted.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                              Key Takeaways
 
<bullet> Explore creative partnerships with your local and state SNAP
 agencies. Many will hang posters about your program at their offices,
 and are often willing to have their caseworkers distribute fliers
 directly to people applying for SNAP.
 
<bullet> Strong relationships with your SNAP agencies can be leveraged
 to support your program in many ways, from increasing program
 participation to being a valuable supporter in a grant application or
 policy effort.
 
<bullet> Once you have established a relationship with your SNAP agency,
 follow up throughout the year by inviting them to attend market or
 organizational events, including them on relevant listservs or
 newsletters, and meeting with them at the end of the season to share
 updates on your program's impact and reach.
 
<bullet> Due to privacy concerns, most agencies will not allow you to
 access their mailing list of SNAP households. As a workaround, provide
 the agency with your promotional materials for them to address and
 mail, or request a list of addresses with the names listed only as
 `Resident.'
 
<bullet> Limiting a direct mailing to ZIP Codes in or around the radius
 of your farmers markets can help you target the customers you are most
 trying to reach.
 
<bullet> As part of your direct mailing campaign, offer an additional
 incentive (such as a coupon for market tokens or a market bag that the
 recipient can redeem when visiting the market) to further motivate
 people to attend.
 
<bullet> Provide your SNAP agency with fliers or postcards (or, simply,
 the language you use to promote your program) that can be included in
 mailings they are already sending to new SNAP recipients. This can
 reduce the cost of outreach campaigns.
 
<bullet> Develop multilingual resources to a reach wide audience.
------------------------------------------------------------------------

    Interested in learning more?
    See the Outreach Idea Book on the NNIN Online Resource Library: 
www.wholesomewave.org/our-initiatives/
nationalnutritionincentivenetwork/resourcelibrary.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

National Nutrition Incentive Network: Developing a Statewide Network of 
        Nutrition Incentive Programs
    As part of the FINI project, Wholesome Wave (WW) is investing 
significant resources in and working closely with stakeholders on the 
ground in five states--Maine, New Hampshire, New Jersey, Ohio and 
Virginia--to develop statewide nutrition incentive programs. WW engages 
local stakeholders as leaders in their communities to work together 
using a collective impact approach to scale affordable food access, 
largely through nutrition incentive programs at farmers markets and 
other direct-to-consumer markets. To facilitate the development and 
operation of each statewide program, WW partners and stakeholders work 
collaboratively within the structure of a network.
Why a Network?
Types of Networks
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
 
 
           Informational                            Equals
 

                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 
 
 
              Turnkey                            Hub & Spoke
 

    A network is an effective mechanism for scaling and sustaining a 
statewide nutrition incentive program by:

  E Creating a structure that facilitates efficient and effective 
        decisionmaking and coordination of a program implemented by 
        multiple, distinct organizations;

  E Providing a systematic way to define program standards and build 
        capacity across organizations, resulting in higher quality 
        programs; and

  E Leveraging expertise, knowledge and collaboration across sectors.
Our Approach
    A collective impact approach is a structured method for 
collaboration among organizations, with the goal of creating 
meaningful, long-term change. Key elements are:

  E A common agenda,

  E Consistent data collection and measurement,

  E A backbone organization,

  E Open and continuous communication, and

  E Mutually reinforcing activities.
New Hampshire Network Development
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Working with WW, the NH statewide network scaled up nutrition 
        incentive programs rapidly, from 11 to 30 farmers markets.
Our Role
    Wholesome Wave explores, engages, convenes and works together with 
leading individuals and organizations already implementing nutrition 
incentive programs in their communities. WW tailors its approach to 
each state's unique culture and distinct regional characteristics, 
while providing technical assistance from a national perspective to 
develop a sustainable network structure.
    Wholesome Wave builds capacity within the state, positioning 
networks to develop strong infrastructure and operating procedures that 
expand their programmatic reach, achieve efficiencies from economies of 
scale, track effectiveness and share best practices through a localized 
community of practice.
Building the Network: A 4-Step Process
    The network-building process consists of 4 stages that represent 
key components of network formation. State network members determine 
their priorities and set the pace of network building.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    To begin, Wholesome Wave conducts a landscape assessment, 
aggregating relevant data to understand the status of agriculture, 
local food access, federal nutrition assistance and food security in 
the state.
    From there, WW staff and local leaders conduct interviews with key 
organizations and stakeholders in the field to gather their insights 
into strengths, challenges and opportunities related to affordable 
local food access and incentive programs in the state, as well as 
potential network structures and organizational roles.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    After the discovery phase, Wholesome Wave and local stakeholders 
begin to expedite network development and build consensus among 
members. This starts with a stakeholder meeting, where WW staff present 
findings from the landscape assessment and facilitate discussion to 
assess options and identify a viable networked approach, including 
basic structure and roles and responsibilities for members.
    Based on this discussion and a final round of formal stakeholder 
input, Wholesome Wave develops an implementation plan to guide network 
formation and works with key organizations to determine next steps, 
leading to a first network meeting.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Network development begins at this phase, meaning network members 
convene to work through key questions and establish operating 
procedures to strengthen and expand programming. Networks differ in 
their convening styles (e.g., in-person or virtually and as a whole or 
in subcommittees) and intervals (e.g., every month, quarter, or year); 
these styles can be adjusted as the network and its needs evolve.
    Wholesome Wave facilitates discussion and decision-making on key 
network elements, including: incentive program design, statewide 
branding, marketing and outreach strategies, network growth, data 
collection and program evaluation, fundraising and policy advocacy. WW 
staff work with the network to develop a written set of standard 
operating practices based on these decisions that serve as both a tool 
and a reference as membership and reach grow.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The network now has the tools to support and scale effective 
nutrition incentive program operations in the state. As the network 
further formalizes and streamlines operations and systems, members have 
the ability to engage more deeply on program evaluation, test 
innovations in the field, fundraise on a large scale and share findings 
at the national level, strengthening the national voice to build 
support for affordable, local food access.
National Nutrition Incentive Network: Foster a Culture of Inclusivity 
        at Your Market
    Farmers markets are celebrated not only for the fresh, healthy, 
local food they provide to a neighborhood but also for the intangible 
benefits: increasing social ties, serving as a hub for the community, 
and providing a real connection between producer and consumer. As a 
nutrition incentive program operator, you are invested in ensuring your 
market is a place where everyone feels welcome. Network members from 
across the country have used the following strategies to help foster an 
inclusive market environment.
Getting Started: Set Your Intentions
    Take a moment to visualize the ideal market environment where 
everyone is welcome to shop--no matter their payment mechanism, 
socioeconomic status, race, or ethnicity--and interactions are friendly 
among customers, vendors, and staff. Brainstorm the following 
questions:

  <bullet> Why is inclusivity important to the market?

  <bullet> What does this look like at the market?

  <bullet> How does this differ from the current reality at the market?

    Identify a few key areas where your market may benefit from a shift 
toward inclusivity. Even if you think everything is running smoothly, 
seek others' opinions--including those of customers and other community 
members.
Know Thy Customer
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

           2014 Glenn Charles.

    Find out what ``welcoming'' means from the customer's perspective. 
Survey existing customers to find out:

  <bullet> How comfortable they feel about shopping and using benefits 
        at the market;

  <bullet> Whether their interactions with market staff and vendors are 
        friendly and positive and, if not, why;

  <bullet> What types of products they want to buy at the market 
        (including culturally relevant produce); and

  <bullet> What suggestions they may have for making the market feel 
        more welcome to them, their friends, and their family.

    You'll also want to find out what potential customers think about 
the market. Reach out to community partners who are in touch with 
neighborhood residents to help you to communicate with people who may 
not yet have shopped at the market and to find out why.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
         Quick Tip: Use FM Tracks to Learn about Your Customers
    Use the FM Tracks app at your market as an easy way to survey
 customers. FM Tracks comes preprogrammed with questions that your
 market administrator may select to ask customers, such as: ``How much
 do you agree with this statement: I feel welcome at this market.''
 (with a scale of strongly agree to strongly disagree to capture
 responses). You can also add your own, customized questions. Market
 staff can either read these questions to customers or turn the iPad
 around so they may answer privately. To learn more about customer
 questions, download the FM Tracks Toolkit from the NNIN online Resource
 Library: wholesomewave.org/our-initiatives/
 nationalnutritionincentivenetwork/resourcelibrary.
------------------------------------------------------------------------

Articulate Your Intentions in Writing
    Demonstrate your commitment to inclusivity as an essential 
component of your market's culture by putting it in writing. Consider 
incorporating this language in your market's or organization's:

  <bullet> mission statement,

  <bullet> website and social media platforms,

  <bullet> training manuals, and/or

  <bullet> vendor agreements.

    Also consider creating a stand-alone market ``policy'' that 
outlines your market's commitment and intentions.
Build Partnerships with the Community
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

           2014 Glenn Charles.
    Form partnerships with community-based organizations to build ties 
to the neighborhoods your market serves. In addition to the large 
groups that serve the community (who may be easiest to reach), seek out 
the smaller organizations who may have deeper ties to residents. Some 
suggestions for helping to develop a relationship include:

  <bullet> Elicit feedback from partners about how to create a market 
        that feels welcoming to the specific population they serve.

  <bullet> Invite partners to table at your market, and ask if you can 
        table or distribute your program's promotional materials at 
        their site or events.

  <bullet> Conduct targeted outreach in communities who may not be 
        aware of your market.

  <bullet> Organize tours to the farmers market with partners' groups.
Conduct Events and Activities
    Demonstrate that your market is for everyone through your events 
and activities. Some suggestions include:

  <bullet> Conduct healthy cooking demos for individuals and families 
        on a budget; seek out local chefs from the neighborhood.

  <bullet> Distribute low-cost and culturally diverse recipe handouts 
        featuring that week's harvest bounty with prices priced out per 
        meal.

  <bullet> Host events that celebrate the diversity of the community 
        and honor the traditions of the various cultures represented; 
        ask musicians and entertainers from the neighborhood to perform 
        at the market.

  <bullet> Collaborate with the local SNAP office; for example, invite 
        them to the market to provide information on applying for 
        federal benefits (see NNIN Online Resource below).

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                          NNIN Online Resource
    For ideas and guidance on reaching out to and collaborating with
 your SNAP office, download Partnering with Your Local/State SNAP Agency
 from the NNIN online Resource Library: wholesomewave.org/our-
 initiatives/nationalnutritionincentivenetwork/resourcelibrary.
------------------------------------------------------------------------

Network Member Highlight: Fondy Food Center
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Credit: Fondy Food Center.

    Fondy Food Center's (Fondy) mission is to connect neighborhoods to 
fresh, local food--from farm to market to table--so that children learn 
better, adults live healthier, and communities embrace cultural food 
traditions. The nonprofit organization was created in 2000 on 
Milwaukee's Northside as a response to a Food Security Assessment that 
identified a high concentration of hunger, poverty, and dependence on 
emergency food pantries in the area. Fondy Farmers Market has been the 
cornerstone of Fondy's healthy food access efforts since its 
inception--it was the first market in the state to accept SNAP EBT and 
is a national leader in attracting low-income consumers to the market 
to purchase fresh, healthy food.
    The Fondy Farmers Market is a pioneer on the federal nutrition 
benefits front: It has been accepting WIC vouchers since the program's 
founding in 1992, and was the first market in the state to offer a WIC 
incentive program, providing a $1-for-$1 match for WIC FMNP. The market 
began accepting SNAP benefits in 2003 and now runs a wildly successful 
SNAP + WIC Market Match incentive program--which redeemed more than 
$30,000 in just a few weeks this past summer. On a typical Saturday 
morning during the height of the season, you can expect to see a line 
of customers at the market manager booth by 7 a.m.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Credit: Fondy Food Center.

    To create a culture of inclusivity, Fondy uses a number of 
strategies:

  <bullet> Forms Relationships: Maintains strong relationships with a 
        large number of community organizations.

  <bullet> Develops Relevant Marketing Materials: Print and online 
        communications reflect the diversity of shoppers and vendors.

  <bullet> Celebrates Diversity: Celebrates the many and varied 
        cultures represented across Milwaukee through:

    <ctr-circle> Special Events--BBQ Cook-off, Greens Throwdown, and 
            Pho Cook-off are community cooking contests that celebrate 
            the Northside's Soulfood & Southeast Asian cuisines;

    <ctr-circle> Seasonal Soul--a weekly cooking demo features 
            neighborhood residents and professional chefs sharing 
            healthy, seasonal recipes; and

    <ctr-circle> Entertainment--a variety of musical, artistic, 
            theater, spoken word, dance, and childrens' community 
            groups and professional entertainers are invited to perform 
            at the market each week.

    For more information, visit fondymarket.org.
Use Language that Welcomes
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The language you use can have a profound affect on how people feel, 
even if subconsciously. Take a fresh eye to your promotional materials 
from a customer's perspective; even better, run your pieces by 
community members to assess comprehension and to obtain feedback.
    In your program's promotional materials:

  <bullet> Use simple, clear language to explain how the program works; 
        consider also showing it pictorially to accommodate various 
        literacy levels.

  <bullet> Shift the language at the market booth--even just slightly--
        to proclaim that the market serves all shoppers; the insertion 
        of a single modifier may do the trick: ``We Gladly Accept 
        EBT.''

  <bullet> Encourage all vendors who participate in the program to 
        advertise using friendly, plain signage, such as ``ABC 
        Farmstand Welcomes Bonus Bucks Tokens.''

  <bullet> Translate all materials into other languages as necessary.
Hire and Train Market Staff
    Develop the culture at your market by training vendors, staff, and 
volunteers. Incorporate the following elements into existing trainings 
or orientations to help institutionalize a welcoming environment at 
your market:

  <bullet> Offer cultural competency and sensitivity training to help 
        staff communicate with and interact with diverse audiences (see 
        Online Resources below).

  <bullet> Provide a primer on federal benefits programs, including a 
        discussion of ``SNAP Myths and Facts'' (see Online Resources 
        below) to dispel misinformation.

  <bullet> Encourage vendors to engage with customers about their 
        products; this benefits not only farmers in terms of potential 
        to increase sales but also customers who learn from and feel 
        more connected to the vendor.

  <bullet> Encourage vendors to use price signs for all products to 
        make their stand more inviting to price-conscious consumers.

  <bullet> Using the results from your customer surveys, share 
        information with vendors on what culturally appropriate 
        products customers want to buy at the market.

    Finally, when hiring new staff, looking for volunteers, nominating 
board members, or seeking information about the community, look to 
neighborhood residents to fill these roles.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                            Online Resources
 
    Cultural Competency: Read more from the USDA's Food and Nutrition
 Service: Engaging Special Populations: Cultural Competency at
 fns.usda.gov/sites/default/files/cultural_competency.pdf.
    SNAP Myths and Facts: Wholesome Wave Georgia created this fact sheet
 to help people better understand the facts and overcome misconceptions
 about SNAP: wholesomewavegeorgia.org/tjffcjyb625qtp9ekzotw4riyo8sdu/
 2015/6/17/snap-myths-facts.
------------------------------------------------------------------------

    We want to hear from you! What strategies have you incorporated at 
your market to create a more inclusive environment? What has or has not 
worked? Contact us and share your experiences with the Network.
National Nutrition Incentive Network: Funding Your Nutrition Incentive 
        Program
    Ensuring your nutrition incentive program is fully funded year to 
year is essential to maintaining consistency for customers and vendors 
while providing you the opportunity to expand and innovate on your 
program. Across the country, NNIN members have used the following 
diverse strategies to fund their programs.
Business Sponsorships
    Many farmers markets benefit from local, regional, and even 
national business sponsors interested in allying themselves with 
programs that promote affordable, healthy food access and in 
demonstrating corporate responsibility. To facilitate the sponsorship 
seeking process for your market, create a short, visually appealing 
Sponsorship Package to distribute to potential sponsors that outlines 
what your market offers in exchange for funding. Typically this 
resource outlines multiple sponsorship levels to accommodate the 
financial capacity of a diverse array of potential partners. Great 
sponsorship packages also include a demographic profile of your 
customers, information on your social media reach, any recent media 
attention garnered by your program, as well as a sponsorship commitment 
form that captures the basic information you need from the sponsor.
    When beginning a business sponsorship strategy, keep the following 
in mind:

  <bullet> Brainstorm a list of potential sponsors; consider businesses 
        that share a mission or focus area that is similar to that of 
        your market or organization.

  <bullet> When seeking sponsors, leverage existing personal 
        connections with your staff, board, and partners.

  <bullet> Encourage potential donors to see your work in action by 
        inviting them to attend your market or special events.

  <bullet> Make the relationship mutually beneficial: highlight 
        sponsors on market materials, through social media, in your 
        newsletter, and on your website; offer sponsors a promotional 
        booth or table at your market and events.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Credit: GrowNYC.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                   Network Member Highlight: Grow NYC
 
    GrowNYC developed a Sponsorship Package for its Greenmarket Bucks
 program, offering tiered funding levels for multiple types of sponsors.
 The Healthy Workplace package (pictured above) offers employers the
 opportunity to purchase Greenmarket Bucks for their employees while
 also donating to the program. In the package, GrowNYC enumerates the
 benefits of sponsorship to both the sponsor and the beneficiaries of
 the incentive program. The package also offers options for publicly
 recognizing the sponsorship, promoting the sponsor through logo
 placement, and engaging the sponsor by inviting them to events and
 offering them a tour of the market.
------------------------------------------------------------------------

Hospital Community Benefit Programs (HCBPs)
    To qualify for tax-exempt status, nonprofit hospitals must invest 
in programmatic work that benefits the communities in which they 
operate. HCBPs are designed to improve community health outcomes, 
particularly for those populations whose health care needs are 
disproportionately unmet as a result of financial, cultural, legal, or 
other barriers. HCBPs can be a good source of funding for nutrition 
incentive programs; making healthy, local food affordable and 
accessible to low-income communities is a great way for a hospital to 
invest in addressing the underlying causes of chronic health problems.
    Recent changes to the IRS code in the Affordable Care Act require 
hospitals to assess how to best expend their HCBP funds by performing 
Community Health Needs Assessments (CHNAs) every three years. The next 
cycle of these assessments will occur in 2016, so this year provides a 
window of opportunity for you to explore partnering with your 
community's HCBP.
    Every public hospital is required to have their CHNA readily 
available online or in print at the hospital. Read over your local 
hospital's CHNA and any other information about the HCBP to learn more 
about their approach and implementation strategy. If it seems like your 
nutrition incentive program could be a good fit for a hospital's 
program contact their CBP officer to set up a meeting to discuss the 
impact of your program and how it can help the hospital address the 
health needs identified in their CHNA.
Engaging Your Board
    Creating a culture of board giving and fundraising demonstrates to 
the public that you have an engaged board and can be a great boost in 
helping you reach your annual funding goals. Talk to your board to see 
if this strategy is right for your group. If so, develop a minimum 
contribution that works for everyone. Be sure to communicate these 
expectations prior to inducting new board members. While personal 
contributions are important, this kind of fundraising is most impactful 
when boards engage their personal and professional contacts. Some board 
members may be more experienced than others in making these sort of 
asks, so plan a time for board members to brainstorm creative ways to 
tap into their contacts and resources.
Market Merchandise
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Many customers take great pride in shopping at their farmers market 
and want to demonstrate their support by wearing market merchandise. 
Selling promotional materials such as T-shirts, tote bags, bumper 
stickers, and coffee mugs is an excellent way to earn additional 
revenue for your market while providing free advertising for the market 
around town.
    When developing merchandise, keep the following in mind:

  <bullet> To keep costs low, consider using design students from local 
        universities or ask a local design firm to donate services at a 
        reduced cost.

  <bullet> Make sure that any merchandise you are selling is profitable 
        once you account for the materials and staff time required to 
        sell and manage the inventory of merchandise.

  <bullet> To provide an easy way for customers to make an additional 
        donation, consider pricing merchandise as a minimum suggested 
        donation. Put up signage explaining how their purchase, and any 
        additional donation, helps to fund your program.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Credit: Clara Moore.
          The Portland Farmers Market in Maine sells T-shirts, tote 
        bags, baby onesies, stickers, and more.
Fundraising Events
    Events related to local food and farming are increasingly popular 
and excellent ways to bring community members to the table and to raise 
funds. Examples of successful events include: farm-to-table dinners, 
documentary screenings, farm tours, chef cook-offs, auctions, races, 
concerts, and craft fairs. Events require a significant amount of time, 
resources, and coordination, so make sure the benefit of hosting is 
greater than the cost. Draw upon your partners for in-kind and cash 
contributions to your event by offering sponsorships, free tickets, and 
public recognition.
Annual Appeals
    Annual appeals provide a platform to simultaneously share stories 
and news from the season and solicit individual donations from 
community members and partners. Timing is important with annual 
appeals. Many nonprofits make these asks at the end of the year during 
the holiday season. Increasingly there is growing momentum behind the 
Giving Tuesday movement, an event held the Tuesday after Thanksgiving 
during which many nonprofits ask for donations and that asks people to 
donate via social media; the more people you have sharing your appeal 
with their personal networks, the greater your chances of securing 
donations. Alternatively, because of the growing number of end-of-year 
asks, consider holding your annual appeal in the spring or summer--at 
the beginning of the market season or during National Farmers Market 
Week held every August.
Crowdfunding
    Crowdfunding is a fairly new way of fundraising, made possible by 
our growing connectedness via the Internet. It entails raising funds by 
requesting small donations from a large number of people using social 
media. Similarly to sponsorships, crowdfunding typically offers a 
gradient scale of suggested donations, and many organizations offer 
corresponding gifts or rewards as an expression of appreciation.
    Many websites host crowdfunding platforms; some of the most popular 
are Kickstarter, Indiegogo, and GoFundMe. Most platforms charge various 
fees for their services, so research your options to decide what works 
best for your budget. Once your campaign is up and running, circulate 
language and guidelines among staff and stakeholders so they can easily 
share the campaign with their networks.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Credit: Farm Fresh Rhode Island.
          Farm Fresh Rhode Island hosts an annual fundraiser

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                        Network Member Highlights
 
    Farm Fresh Rhode Island hosts an annual fundraiser: The Local food
 Fest (pictured above). They solicited sponsorship from local
 businesses, and in exchange provided logo placement in the event's
 program, e-mails, and website. FFRI also allocated space at the event
 for sponsors to hang banners and reserved seating for sponsors' guests.
    Just Food, based in New York City, hosts its annual fundraiser, the
 `CSA Smackdown,' a citywide cooking competition with a focus on local
 ingredients. They generated media attention for their event by inviting
 celebrity chefs to judge the competition and by promoting the event in
 their blog and on social media. This event helps to fund their CSA
 incentive program.
    Columbia Heights Community Marketplace in Washington, D.C., raised
 over $5,350 from 80 donations in just one month in 2014 through a
 crowdfunding campaign hosted on Indiegogo. In 2015 they raised an
 additional nearly $4,000 in one month through the same campaign. Their
 funding video brings the market alive with market-day footage, and they
 bring meaning to the donation by letting donors know how their money
 will make a difference: ``Just $25 can DOUBLE the fruits and vegetables
 purchased by one low-income family for an entire month.'' To learn
 more, check out their webpage at: indiegogo.com/projects/bonus-bucks-at-
 thecolumbia-heights-farmers-market#.
------------------------------------------------------------------------

Friends of the Market
    Friends of the Market campaigns are essentially adaptations of the 
fundraising model used by public radio stations. Customers are invited 
to give a set amount--typically a $10 to $50 donation per month--to 
support the market and program operations. To inspire people to support 
the program, consider asking existing donors to share their stories 
about why they chose to be a market sponsor; include these stories on 
your social media platforms, on your website, or other campaign 
materials. Be sure to mention that all donations made to the market are 
tax-deductible (provided that your market is registered as a 
nonprofit). Thank supporters by offering perks or prizes for their 
contribution to your campaign; market merchandise, a market coupon, or 
a Friend of the Market button or bag make great gifts, and offer free 
promotion for your market.
`Donate' Button for Your Website and E-mails
    Embedding a Donate button on your website or into the signature of 
your e-mail is a great way to allow people to quickly and easily donate 
to your program; best of all it is simple and free for you to set up. 
Clicking the button will redirect individuals to a donation page on 
which they can customize their donation amount, frequency of their 
donation (if more than a one-time donation), and payment method. Be 
sure that this page explains how an individual's donation contributes 
to your program and the community. To learn how to create a Donate 
button using PayPal, visit paypal.com/webapps/mpp/get-started/
donatebutton.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Clicking the Donate button on the NOFA-VT website redirects 
        supporters to a donation webpage.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                        Network Member Highlights
                         Forsyth Farmers Market
 
    Forsyth Farmers Market in Savannah, GA--part of Wholesome Wave
 Georgia's statewide network--launched its Friends of the Market
 campaign on Earth Day of 2011. The market offers an annual individual
 membership of $30 and a family membership of $50. The campaign serves
 as an opportunity not only to solicit funding but also to engage the
 community to participate in market events and activities. Sponsors
 select whether they would like to be publicly recognized in the Farmers
 Market e-Newsletter, and can sign up to volunteer or get involved with
 other food systems projects. Check out their webpage to learn more:
 forsythfarmersmarket.com/get-involved/friends-of-forsyth.
------------------------------------------------------------------------


------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                         Fundraising Quick Tips
 
    <bullet> Thank donors, funders, and sponsors publicly and privately.
     A hand-written thank you note can go a long way.
 
    <bullet> Use professional and personal networks--including those on
     social media--to spread the word about your fundraising efforts,
     events, and your program.
 
    <bullet> Always communicate to potential donors exactly how their
     donation impacts members of the community, such as ``Each dollar
     you donate helps ensure that all community members, regardless of
     income, can afford to put fresh, healthy food on their tables.''
 
    <bullet> Consider providing an incentive for each donation, such as
     market gifts for individual donors and logo placement for
     businesses.
 
    <bullet> If you are registered as a nonprofit, be sure to
     communicate that all donations are tax-deductible.
------------------------------------------------------------------------

                                 ______
                                 
                          Submitted Questions
Response from Eric S. Cooper, President and Chief Executive Officer, 
        San Antonio Food Bank
Questions Submitted by Hon. Will Hurd, a Representative in Congress 
        from Texas
    Question 1. SAFB recently received funding from the USDA to 
increase the purchase and consumption of fruits and vegetables among 
200 pregnant and post-partum SNAP participants through health education 
and point of sale incentives. How does supporting expecting and new 
mothers contribute to the protection of our nation's future 
generations, and how do we share these results and the importance of 
this message to inspire similar action by groups like the SAFB across 
the country?
    Answer. How does supporting expecting and new mothers contribute to 
the protection of our nation's future generations?
    Supporting expecting and new mothers to be able to access fruits 
and vegetables to follow a healthy diet during pregnancy is very 
important because fruits and vegetables are packed with essential 
nutrients and fiber. They should be part of any healthy diet--and 
should appear in the diet of a pregnant woman to secure healthy 
outcomes and a healthy future of the citizens of this country. Key 
vitamins supplied by these two food groups include:

  <bullet> Beta carotene--needed by the baby's cell and tissue 
        development, vision and immune system.

  <bullet> Vitamin C--crucial for the baby's bones and teeth as well as 
        the collagen in the baby's connective tissue.

  <bullet> Potassium--which is essential to control blood pressure, and 
        which could be a problem for some pregnant women during the 
        last trimester.

  <bullet> Folic Acid--which helps prevent neural tube defects and 
        promotes a healthy birth weight?

  <bullet> Fiber--keeps the bowels moving. This helps prevent 
        constipation and hemorrhoids which are two common problems 
        during pregnancy.

  <bullet> Phytochemicals--are a large group of plant-derived compounds 
        hypothesized to be responsible for much of the disease 
        protection conferred from diets high in fruits, vegetables, 
        beans, whole grain cereals, and plant-based beverages such as 
        tea and coffee. Epidemiological studies suggest that 
        consumption of a diet high in fruits and vegetables is 
        associated with a reduce risk of chronic disease (National 
        Cancer Institute, 2004).

  <bullet> Pregnant women should try to eat 2 cups of fruits and 2\1/2\ 
        to 3 cups of vegetables every day to obtain all the benefits 
        that these two food groups offer. The most practical way to 
        educate expecting women and new mothers to comply with this 
        recommendation is to teach them how to make \1/2\ of the plate 
        fruits and vegetables at every meal.

  <bullet> Fresh is best but frozen and canned are also good nutrient 
        sources (as long as fruit packaged in sugary liquid or 
        vegetables packaged with high sodium content are avoided).

    How do we share these results and the importance of this message to 
inspire similar action by groups like the SAFB across the country?

  <bullet> Sharing the information on the benefits of fruits and 
        vegetables for expecting women and new mothers and how more 
        matters for the health of future generations;

  <bullet> Providing monetary incentives so low-income pregnant women 
        are able to purchase different types of fruits and vegetables;

  <bullet> It is important to increase the access to fruits and 
        vegetables for expecting women and new mother always combined 
        with consistent health and nutritional messaging at obstetrical 
        or WIC appointments and reinforced at the points of sale 
        (Farmers' Markets) so they learn about the unique benefits of 
        eating fruits and vegetables;

  <bullet> Sharing with those working with this important target 
        population; and

  <bullet> Partnering with WIC clinics to facilitate the WIC Farmers 
        Markets at their clinics.

    Question 2. In order to succeed, community buy-in is essential for 
projects that aim to change individuals' habits and daily practices. 
Many who face food insecurity every day struggle with income 
inequality. Additionally, Texas comprises of a large Hispanic 
community. What strategy enabled the SAFB to successfully implement 
this and similar programs that may face social and cultural barriers?
    Answer.

  <bullet> This project is a partnership of the SAFB with the 
        Children's Hospital of San Antonio who in turn partnered with 
        local obstetric clinics providing prenatal care for women in 
        the region (which included a high percentage of Hispanic 
        women). The main challenge was not being able to recruit 
        patients into FINI at high enough rate to fill 200 spots by the 
        end of the grant period.

  <bullet> Prospective patient field of 200 was narrowed by SNAP 
        participation, pregnancy eligibility criteria, gestational age 
        window and legal status to participate in SNAP.

  <bullet> Only 22 patients out of 200 were recruited (10% of the 
        sample) and are actively involved going through the nutrition 
        education/point of sale incentive.

    Question 3. The lack of healthy habits and fresh food consumption 
pose a direct threat to the state of health in the United States. One 
of the most harmful and prevalent diseases Americans face today is 
diabetes, which causes needless suffering and contributes to millions 
in healthcare costs. What is unique about the SAFB's health and 
nutrition education programs that successfully influence individuals' 
health choices? Additionally, while SAFB works in the San Antonio area, 
how do you believe these programs could be adapted and adopted state-
wide?
    Answer. The SAFB is successfully implementing a unique Urban 
Agriculture Initiative to increase the access to locally grown produce 
by low-income population living in food desert areas. The following 
projects are in place as part of this initiative:

  <bullet> On-site Farming Initiative cultivating a 27 acres farm that 
        yields approximately 250,000 pounds of seasonal produce a year 
        making it accessible free-of-cost to a network of more than 500 
        agencies serving the SNAP eligible population. The Farming 
        Initiative is expanding off-site to cultivate 50 more acres of 
        land in the next 5 years.

  <bullet> A growing Farmers Market Program that includes five Farmers 
        Markets under the SAFB Farmers' Market Association all of which 
        are SNAP approved retailers and is serving food desert areas. 
        The Mobile Farmers Market initiative is being offered at more 
        than ten different sites/locations to offer around 30 farmers 
        markets a month. A partnership with the WIC clinics will 
        increase the sites/locations to 21 by May of 2016. All Farmers 
        Markets offer nutrition education with qualified food 
        professionals, body mass index (BMI) screening and cooking 
        demonstrations featuring the seasonal produce.

  <bullet> An Urban Gardening Program that promotes the establishment 
        of community gardens and help organizations to build them to 
        teach the community how to grow their own food. The SAFB 
        provides the labor to build the garden and transplants and 
        seeds to start the planting process. Every year forward the 
        SAFB assist the organizations where gardens were established to 
        replant them at the beginning of the growing season. The 
        ultimate goal is to promote the intake of locally grown fruits 
        and vegetables in the community. The range of gardens built is 
        10-15 per quarter.

      Food Insecurity and better management of Diabetes is being 
        addressed with the SAFB Food Prescription (Rx) for Wellness 
        Initiative. The SAFB is creating partnerships with local 
        hospitals so doctors/health care providers from local hospitals 
        screen patients affected with diabetes for food insecurity. 
        Those patients identified as Food Insecure are then referred to 
        the SAFB Food Prescription (Rx) for Wellness to receive an 
        immediate produce incentive (20 pounds of produce every other 
        week) at the SAFB Farmers' Markets combined with health and 
        nutrition education to increase their health literacy and food 
        sustainability. Patients also receive services to access SNAP.

    Question 4. How could programs like the SAFB's be further supported 
by the USDA and local leadership?
    Answer.

  <bullet> Grant opportunities tailoring the Urban Agriculture 
        Initiatives in place at the SAFB.

  <bullet> Proper promotion, advocacy for these opportunities

    Question 5. What obstacles did the SAFB have to overcome that the 
USDA can learn from and share with other health education/incentive 
programs in the future?
    Answer. Obstacles overcome and still trying to overcome include:

  <bullet> Changing the culture of low-income communities toward 
        Farmers' Market built on the wrong perception that FM prices 
        are higher than those at local retailers.

  <bullet> Funding.

  <bullet> Unhealthy eating patterns prevalent in the community.

  <bullet> Unfair competition of the food industry.

    Question 6. What has been your experience with farmers' markets and 
how has that access point helped your food bank clients?
    Answer.

  <bullet> Positive and productive one.

  <bullet> Provided food access in areas that are food deserts.

  <bullet> Enabled the SAFB to disseminate and educate patrons about 
        the abundant and crucial benefits of fruits and vegetables.

  <bullet> Allows us to become partners with USDA, TDA and local and 
        state health departments as well as local government (city and 
        county) working towards the same goal of addressing food 
        insecurity by increasing the access to healthy foods for the 
        community.

  <bullet> It has generated a great deal of interest from other food 
        banks, local universities, hospitals interested in replicating 
        initiatives in place at the SAFB.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
